<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]




 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                         THURSDAY, MAY 2, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:04 a.m. in room SD-124, Dirksen 
Senate Office Building, Hon. Roy Blunt (chairman) presiding.
    Present: Senators Blunt, Alexander, Lankford, Murray, 
Durbin, Schatz, Baldwin, and Murphy.

                          DEPARTMENT OF LABOR

                        Office of the Secretary

STATEMENT OF HON. R. ALEXANDER ACOSTA, SECRETARY


                 opening statement of senator roy blunt


    Senator Blunt. The Appropriations Subcommittee on Labor, 
Health and Human Services, Education and Related Agencies will 
come to order.
    I want to first of all thank you, Secretary Acosta, for 
appearing before the subcommittee today to discuss the 
department's budget that you submitted for 2020. The request is 
about in line with what you asked for last year and about 10 
percent below what the committee decided you needed to operate 
last year. I think the budget includes a handful of what I 
would consider to be forward leaning and positive proposals; 
the funding of apprenticeships, veterans workforce training, 
and employer compliance assistance. However, I think we are 
going to want to discuss some of the cuts that are proposed.
    Now if things are duplicative or ineffective, we hope you 
can help us make that case, because we do not want to have 
programs that are not doing what they should do. I know you 
have had to make difficult decisions and in fact, in previous 
budgets we have made difficult decisions, as this committee set 
sort of committee-wide different priorities than we might have 
had in the past.
    However, as I said before, it is about the same proposal 
that you made a year ago and it is not where we wound up a year 
ago. I think we want to look at the $703 million cut in the Job 
Corps program and hear what you have to say about that. We want 
to focus on programs that start workforce training, the 
apprenticeship programs and we have strong ideas on that, as 
you do.
    I know you and I were at the Carpenters' Joint 
Apprenticeship Training Facility in St. Louis earlier in the 
year. But you know what I noticed at that particular location 
was how many people had been out of high school about 10 years. 
Seemed to me there was a real significant number of 28 and 30-
year-old people who had their own story of their lost decade of 
trying to figure out what they wanted to do.
    I hope you can help us figure out how we can help you and 
high schools, particularly, figure out some of the better 
alternatives that are out there with registered apprenticeship 
programs. I think we currently are training about 1,300 
apprenticeships, the carpentry trades for instance, and those 
programs, seem to be working.
    The Budget requests further investment toward workforce 
programs that are responsive to the needs of people looking for 
work, including veterans and military spouses.
    I just talked to our general assembly last week about the 
importance of transferring skills that military spouses bring 
to the next military assignment with them, but also looking at 
skills that veterans have achieved in the military and doing 
everything we can to be sure that those same skills are 
recognized as completely and quickly as possible, when people 
leave the military.
    So, we are glad you are here, I will have a longer 
statement for the record. We do have a series of votes that 
began about 10:30 and at least for that first vote, I am going 
to go vote as Senator Alexander pitches in, and then I will get 
back as he goes to vote. And we will try to move as quickly as 
we can to get questions asked by members in the time they 
expected to be here.
    [The statement follows:]
                Prepared Statement of Senator Roy Blunt
    Good morning. Thank you, Secretary Acosta, for appearing before the 
Subcommittee today to discuss the Department of Labor's fiscal year 
2020 budget request. We look forward to your testimony.
    The Department's budget request is $10.9 billion, a reduction of 
$1.2 billion or 10 percent, largely mirroring the last budget request. 
The budget includes a handful of positive, forward-leaning proposals, 
such as funding for apprenticeship, veterans' workforce training, and 
employer compliance assistance. However, the budget also cuts funding 
or eliminates programs the Administration says are duplicative or 
ineffective.
    I agree that we should constantly evaluate programs and be willing 
to reduce or eliminate funding for programs that are ineffective and 
prioritize that funding elsewhere. We have made those difficult 
decisions in previous budgets and I know we have more we could do in 
that regard. However, as similar as this request is to previous ones, I 
expect the committee will have much the same reaction as it did to 
those, especially the unrealistic $703 million cut in the Job Corps 
program.
    Therefore, we should focus on the programs we can all agree on, 
which starts with workforce-training programs, particularly the 
apprenticeship program the Committee started 4 years ago. Mr. 
Secretary, when we were in Missouri together earlier this year, we met 
with apprentices at the Carpenter's Joint Apprenticeship training 
facility in St. Louis. This program is a DOL registered apprenticeship 
program, currently training 1,300 apprentices in carpentry trades. Each 
apprentice completes 4 to 4.5 years of training, working alongside 
contractors in the field, all while earning a wage. These apprentices 
not only earn family sustaining salaries upon completion--averaging 
$75,000 a year--but they are also free of student debt when they 
complete the program. The apprenticeship program has received strong 
bipartisan support and I look forward to hearing more about how the 
Department is deploying these funds.
    Second, the budget requests further investment toward workforce 
programs that are responsive to the needs of Americans looking for 
jobs, including our veterans and military spouses. Veterans have skills 
and experiences that are an asset to employers, but finding the right 
job opportunity can be a major challenge as they transition from active 
duty to civilian life. Companies like Winning Technologies in St. 
Louis, are setting the standard for their veterans hiring and retention 
practices, conducting outreach at Scott Air Force Base to recruit 
separating military service members. More than 30 percent of Winning 
Technologies' workforce are veterans and they are a recipient of DOL's 
HIRE Vets Medallion award. I am a strong advocate for reducing barriers 
to employment and, particularly focused on the need to increase across-
State licensing, which can be challenging for military spouses who move 
every 2 to 3 years. I appreciate that the budget includes resources to 
address these workforce challenges, especially for our military 
families.
    We also must be certain to target workforce training to regions 
particularly hard hit. In fiscal year 2018, the committee started a 
rural workforce initiative focused in the Delta and Appalachian regions 
where unemployment rates are higher than the national average. We have 
now appropriated $60 million for this initiative and I am pleased the 
budget includes another $30 million in fiscal year 2020 to help 
individuals who have lost their jobs learn new skills and meet the 
workforce demands of the 21st Century. However, I am disappointed that 
not a dollar of fiscal year 2018 funds have been awarded even though 
you have had the funding for well over a year. This delay is hurting a 
population that needs these targeted resources to recover. I expect the 
Department to move forward with obligating these dollars and the fiscal 
year 2019 funding immediately.
    The Department of Labor serves an important role in the functioning 
of our overall economy through the workforce programs you oversee. By 
most every major indicator, the U.S. economy is thriving. We have had 
more than 100 months of job growth and the unemployment rate is holding 
steady around 3.8 percent. Everyone benefits from a strong and growing 
economy--when jobs are created, employment is sustained, and Americans' 
wages increase. While the nature of work is changing in the 21st 
Century, there are greater opportunities today for Americans to climb 
the economic ladder and earn family-sustaining wages. I look forward to 
hearing how the Department's budget proposal will continue to support 
high-quality training and employment programs.
    Mr. Secretary, I look forward to hearing your testimony today and 
appreciate your work on these important issues. Thank you.

    Senator Blunt. So, Senator Murray, again, glad to be here 
with you today and want to recognize you for your opening 
statement.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much Chairman Blunt.
    Mr. Secretary, as you know I have voiced my concern since 
you were first nominated, that as head of our Labor Department 
you would continue a long track record you have of serving 
special interests instead of workers and families. And I have 
to say at every turn you have managed to prove that concern was 
well-founded, especially with this budget proposal.
    This budget weakens the department's role in holding 
employers responsible for providing safe and healthy 
workplaces, and ensuring people get the pay that they earned 
and benefits they are entitled to under our labor laws. It 
takes us backwards by failing to support workers in developing 
the skills they need to advance and makes it harder for us to 
move forward on tackling many of the other challenges families 
and workers are facing, including a childcare crisis, a 
retirement crisis, and the epidemic of workplace assault and 
harassment. At every turn this budget moves us further away 
from those very important goals.
    Mr. Secretary, an important mission of your department is 
to make sure workers return home safely after each shift. Yet 
the Occupational Safety and Health Administration has 
dramatically reduced inspections, especially in areas that pose 
the greatest hazards to workers and require more resources to 
conduct those.
    The department's overtime proposal will leave millions of 
workers without protections and cost those workers more than $1 
billion over a decade. And despite the scourge of wage theft 
across the country, the department is making it harder for 
workers to hold their employers accountable when their wages 
are stolen.
    Mr. Secretary your budget fails to protect workers jobs, 
careers, and opportunities to prepare them for the future. 
Instead of increasing investments in successful workforce 
training models for our rapidly changing economy, this budget 
proposes more than $1 billion in cuts to the department's 
employment and training programs.
    I am also deeply concerned about the Trump administration's 
efforts to undermine the highly effective and broadly supported 
Registered Apprenticeship Program.
    Mr. Secretary, I have to ask why is the department so 
insistent on slashing this budget and undermining its very own 
mission?
    I am hopeful Mr. Chairman, that working together we will 
reject the harmful proposals and pass again a timely and 
responsible LHHS Appropriations bill that does invest in 
workers and families in our future.
    And finally, Mr. Secretary, I just have to say before we 
get started, I do continue to have very serious concerns about 
the plea deal that you helped negotiate for Jeffrey Epstein for 
the horrific abuses he committed. That sweetheart deal and the 
way that it came about raises a lot of questions, and it really 
is unacceptable that we still do not have answers.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you Senator Murray.
    Secretary, in 2018, the committee started a rural--Oh, I am 
sorry. Your opening statement. Please proceed.

             SUMMARY STATEMENT OF HON. R. ALEXANDER ACOSTA

    Secretary Acosta. Mr. Chairman thank you, and Ranking 
Member Murray thank you for the invitation to appear. And I 
will try to make my opening statement brief in light of the 
votes.
    Let me just touch on a few points and you know, the 
question of the budget and enforcement and wage theft were 
raised, and then, so a few points I would like to make first 
with respect to the budget.
    The budget for the enforcement agencies, MSHA (Mine Safety 
and Health Administration), OSHA (Occupational Safety and 
Health Administration), Wage and Hour and others are all the 
same as the President's budget for assisted 2019 enacted, is 
the same or higher for enforcement. And I think that is 
important to note because we have aggressively enforced the 
laws and that is something we take very seriously. So, if we go 
through the various parts, our EBSA, the Employee Benefits 
Security Administration, we covered more than $1.16 billion in 
enforcement actions and obtained 142 criminal indictments. That 
recovers a 70 percent increase over the prior year.
    If we look at MSHA, MSHA fulfilled its statutory mission of 
inspecting each underground mine four times per year, each 
surface mine two times per year. And although the fatalities 
are still too high, we had the second lowest number of 
fatalities ever in the calendar year, and the lowest number in 
the fiscal year.
    OSHA, the number of inspections is actually up. And we have 
conducted more than 32,000 inspections in each of the last 2 
fiscal years, which is more than the prior years. In addition, 
we had 26,300 compliance assistance visits, which resulted in a 
number of improvements to the workplace and estimated savings 
of over a billion dollars to the various workplaces that 
improved safety and thereby prevented fatalities. Fatalities 
overall again are too high but are down in the most recent 
year.
    If we look at the Wage and Hour Division. The Wage and Hour 
Division recovered more than $304 million in back wages, and 
that is the highest recovery ever in the history of the Wage 
and Hour Division.
    So, I say this because I know that there are disagreements 
as to the budget, and we are going to disagree on issues, but I 
think in terms of the record of the department, particularly in 
enforcement, the record is quite strong.
    Thank you and I yield the remaining time.
    [The statement follows:]
               Prepared Statement of R. Alexander Acosta
    Chairman Blunt, Ranking Member Murray, and Members of the 
Subcommittee, thank you for the invitation to testify today. I am 
pleased to appear before this Subcommittee and to represent President 
Trump and the hardworking men and women of the Department of Labor in 
reporting to you the progress of our work on behalf of all Americans, 
and to outline the Administration's vision for the Department of Labor 
in fiscal year 2020 and beyond.
    The President has put forth a responsible and well-reasoned budget 
for fiscal year 2020 that reflects Administration priorities to support 
the American workforce. Indeed, although the budget reflects a 10 
percent decrease over fiscal year 2019, the budget proposes greater 
investment in programs that work, eliminates programs that do not, and 
generally bolsters opportunities for working Americans through 
commonsense reforms. The budget reflects a continued focus on 
comprehensive compliance assistance for those seeking help to comply 
with the law paired with vigorous, fair, and effective enforcement 
against those who violate the law and reflects our priority of putting 
American workers first, including ensuring that labor protections in 
trade agreements are enforced to prevent unfair competition. As the 
information below shows, the Department of Labor has proven its ability 
to do more with less and to maximize the value of taxpayer dollars. The 
budget balances fiscal responsibility, sound management, and focus on 
priorities.
                                overview
    The dedication, ingenuity, and innovation of our American 
workforce--the greatest workforce in the world--is unparalleled. No one 
does it better than the hardworking men and women of our Nation who 
farm, mine, make, build, transport, innovate, design, create, provide 
services, and engage with other Americans to make our lives healthier, 
safer, easier, and more productive.
    The President's vision for America and the American workforce is 
straightforward: to empower our economy to each day create jobs, more 
jobs, and even more jobs that are safe and family sustaining. The 
Department is hard at work to keep Americans safe in the workplace; 
prevent discriminatory employment practices; safeguard retirement 
savings; increase employment opportunities for all Americans; level the 
playing field for working Americans through fair trade; collect, 
analyze, and disseminate essential economic information; promote 
private-sector union democracy and financial integrity; protect the 
interest of workers, and their families, who are injured or become ill 
on the job; and ensure workers are paid what they are owed--in full and 
on time. The Department is also working diligently to identify and 
eliminate regulations that unnecessarily eliminate jobs, hinder job 
creation, or impose costs that outweigh the benefits.
    The first 2 years of the Trump Administration were marked by 
remarkable growth for our economy, increased opportunity for the 
American workforce, and a renewed confidence exemplified by investment 
in our Nation by job creators. In part due to a commonsense approach to 
deregulation, I am pleased to report on just a few notable milestones:
  --In fiscal year 2018, according to the Office of Management and 
        Budget, the U.S. Department of Labor's deregulatory efforts 
        totaled $3.28 billion in present value cost savings;
  --Since January 2017, the American economy has created 5.1 million 
        jobs, 3.2 million of those new jobs have been created since the 
        President signed the Tax Cuts and Jobs Act;
  --At the time this testimony was prepared, there were 7.1 million job 
        openings, over one million more than the 6.2 million job 
        seekers in the United States--American job creators are looking 
        to hire;
  --In 2018, average hourly earnings increased 3.3 percent, the largest 
        increase in average hourly earnings since 2009; and 
        importantly, wage growth for the lowest decile earners was at 
        approximately 6.5 percent;
  --Unemployment remains near its all-time low, and the increase in the 
        labor force participation rate may indicate that Americans who 
        were previously discouraged are rejoining the American 
        workforce; and
  --Even as employment substantially increased over the last 2 years, 
        the numbers and rates of fatal injuries and nonfatal injuries 
        and illnesses in the workplace declined in 2017.
    While these statistics document the country's success, during my 
travels throughout our Nation over the past 21 months, it is clear that 
Main Street, not just Wall Street--from Indiana to California, Alaska 
to Florida--is deriving significant benefit from the economic growth. 
More Americans are working today than ever before. They are safer in 
the workplace. They are earning more. They have more opportunities for 
growth and advancement. The future of the American workforce and the 
American economy look bright, and the Department looks forward to 
working with Congress to continue that growth and opportunity.
Removing Roadblocks to Job Creation Through Regulatory Reform
    The Department administers and enforces more than 180 Federal laws. 
These laws and the regulations that implement these laws cover more 
than 150 million workers and retirees, and 10 million employers. 
Consistent with the President's priorities, the Department has worked 
to identify regulations that unnecessarily eliminate jobs, inhibit job 
creation, or impose costs that exceed benefits--and reform or eliminate 
them.
    Our approach to regulatory reform is simple, we adhere to two core 
principles: respect for the individual and respect for the rule of law. 
The Department's rulemaking is carried out in a deliberative manner 
guided by fidelity to the law. Public participation in the rulemaking 
process through notice and comment is vital. It ensures all Americans 
have an opportunity to express their views before a rule is promulgated 
or changed.
    As mentioned above, the Office of Management and Budget estimates 
the regulatory impact of the Department's fiscal year 2018 regulatory 
reform efforts to reflect $3.28 billion in present value cost savings 
to the economy. Put simply, this means the Department significantly 
decreased the compliance burden on Americans.
    In addition to these actions, we expanded access to affordable 
quality healthcare coverage options through Association Health Plans 
and rescinded the ``Persuader Agreements'' rule, which the American Bar 
Association and others believed inappropriately impinged on attorney-
client confidentiality.
    Our deregulatory actions have continued this fiscal year with two 
recent final actions: one ensuring continued safety of crane operations 
while reducing paperwork burdens and the other removing the electronic 
collection of certain information about workplace injuries that raised 
worker privacy concerns and that is unnecessary for the Occupational 
Safety and Health Administration's (OSHA) electronic data collection 
requirements. We have also issued deregulatory proposals in the last 
few weeks on overtime thresholds for Fair Labor Standards Act 
exemptions and what goes into the regular rate of pay for overtime, in 
addition to a proposal that addresses concerns about joint employment 
liability so that workers and their employers, especially small 
businesses like franchisees, have definitive guidance on their rights 
and responsibilities. There are a number of other items that should be 
proposed shortly, including a proposal to ensure Americans and 
especially our military veterans have the broadest possible networks 
available when they need a doctor.
Demanding Better Results Through Greater Accountability
    Accountability to the American taxpayer is a priority at the 
Department as we design new programs and evaluate existing ones. We are 
focused on refining our efforts in a manner that respects principles of 
Federalism, and best serves the American people. Where Departmental 
efforts and programs are working, we are looking for ways to improve 
them and learn from them, where Departmental programs are not working, 
we are looking for ways to make them work or consider whether we should 
refocus our efforts elsewhere.
    One example I have often mentioned is the difficulty of gauging the 
success of Federal programs when measuring inputs like dollars spent 
and program participants instead of outcomes like the career attainment 
rates of program graduates. In fiscal year 2018, the Department 
redesigned the way we measure the success and efficacy of the Job Corps 
program. We announced that the Office of Job Corps would reform the 
Outcome Measurement System to focus on student performance and long-
term outcomes over inputs such as dollars spent and outputs such as 
number of students served. More specifically, the weights given to 
credential attainment have been reduced from about half, to 35 percent 
in Program Year (PY) 2018 and 20 percent in PY 2019. New metrics that 
focus on initial placement, placement wage, and placement quality (job 
training match and apprenticeships, military, and full-time placements) 
are now an additional 30 percent of the report card for both program 
years, and long-term placement and placement wage after 6 months and 12 
months account for the final 35 percent and 50 percent in PY 2018 and 
PY 2019.
    The Department also looks closely at opportunities to eliminate 
duplication to bring greater efficiency to our work and allocation of 
resources. One such example is in the Mine Safety and Health 
Administration (MSHA). During fiscal year 2018, MSHA leadership 
examined the capacity and utilization of its field inspectors and 
discovered that there was significant overlap between the duties 
performed by metal/non-metal mine inspectors and coal mine inspectors, 
but different training and an imbalance in capacity relative to the 
actual utilization of inspectors. As a result, MSHA leadership 
developed a plan to cross-train mine inspectors and reallocate 
resources. The Department expects that this will result in significant 
savings to MSHA in fiscal year 2019 with no impact on the health and 
safety of American miners.
    Finally, beginning in fiscal year 2018 and continuing on into 
fiscal year 2019, the Department is working to reduce the number of 
improper payments made through the State-run Unemployment Insurance 
(UI) Program. The President's fiscal year 2020 budget request includes 
$126 million in additional resources to address improper payments made 
through the State-run UI program and improve interstate communication 
to reduce such payments. The UI program is important to those Americans 
who need a helping hand during unemployment, and individuals that abuse 
the system may place added strain on these resources. The Department is 
committed to reining in improper payments in the UI program.
Returning Flexibility to the States
    The Department recognizes that the workforce development needs of 
Alaska, New York, Arizona, and Vermont differ widely. The Department 
has made it a priority to work with States to help them customize their 
workforce programs. An example is the exercise of the Secretary's 
waiver authority under the Workforce Innovation and Opportunity Act 
(WIOA) to grant flexibility where possible. To date, the Department has 
granted 67 waivers to 28 States and territories to better tailor 
approaches to the needs and opportunities present in their States and 
communities.
    Providing States greater flexibility to administer programs 
efficiently and effectively is one way to better serve the 
individualized needs of Americans in various States and localities. To 
that end, the President's fiscal year 2020 Budget proposes broader 
waiver authority for the core WIOA programs, allowing the Department to 
trust our Nation's governors with the responsibility of how best to 
operate their workforce systems.
Bringing Clarity to Employers and Employees
    After meeting with many American job creators, one of the things 
most important to them that affects working Americans is stability and 
understanding how an agency interprets its statutes and regulations. 
Clarity and consistency in agency interpretations allow the regulated 
public to comply with the law in a way that is not unduly burdensome or 
costly and ensure a level playing field.
    One of the ways the Department can best do that is by answering 
specific questions from the regulated community and making those 
answers known publicly. Accordingly, in June 2017, the Department's 
Wage and Hour Division (WHD) announced it was resuming its longstanding 
practice of issuing opinion letters. Opinion letters are official, 
written opinions provided by the Department that address the 
application of statutes and regulations in specific circumstances 
presented by an employer, employee, or other entity. The letters were 
previously a Department practice for more than 70 years and 
specifically allowed in statute, until the practice was discontinued in 
2010.
    In fiscal year 2018, WHD reissued 18 previously withdrawn opinion 
letters and has issued 14 new opinion letters. These are now more 
readily available to the public on the WHD website via a searchable 
tool. Among other areas, one of the more recent opinion letters 
addressed a longstanding question as to whether organ donors can avail 
themselves of the Family and Medical Leave Act. Thanks to this opinion 
letter, it is now clear that they can. Following on this success, the 
Office of Federal Contract Compliance Programs (OFCCP) also recently 
announced the institution of an opinion letter program.
  expanding access to high-quality health and retirement coverage for 
                               americans
    On June 21, 2018, the Department published a final regulation 
expanding the ability of employers to participate in Association Health 
Plans (AHPs).\1\ The rule allows employers, including self-employed 
individuals and sole proprietors, to band together to offer group 
health coverage to their employees. AHPs provide more affordable, high-
quality healthcare coverage choices to consumers, while maintaining 
important consumer protections to safeguard against discrimination on 
the basis of the perceived health of a company's workforce and 
individuals' pre-existing conditions. To date, more than 30 major 
organizations in 14 States have set up, or announced their intent to 
set up, AHPs to offer quality, affordable healthcare coverage options 
to their members' employees.
---------------------------------------------------------------------------
    \1\ On March 28, 2019, the U.S. District Court for the District of 
Columbia entered an order that vacated certain provisions of the final 
rule. We disagree with the Court's ruling and are considering all 
available options to defend the legal viability of the provisions ruled 
upon by the Court.
---------------------------------------------------------------------------
    Building on this momentum, on August 31, 2018, President Trump 
signed Executive Order 13847 on Strengthening Retirement Security in 
America. Recognizing that all Americans deserve access to retirement 
savings opportunities, President Trump instructed the Department to 
examine opportunities to expand access to workplace retirement plan 
options and increase retirement security for all Americans.
    On October 23, 2018, the Department proposed a regulation 
clarifying the circumstances under which a group or association of 
employers, or a professional employer organization (PEO) can act as an 
employer and sponsor workplace retirement plans under the Employee 
Retirement Income Security Act (ERISA). If published as a final rule, 
this regulation has the potential to expand Americans' access to 
affordable, quality retirement savings options.
    The Department is currently reviewing the public comments to the 
proposed regulation submitted before the comment period closed on 
December 24, 2018.
Expanding Career Opportunities in America Through Reskilling, 
        Upskilling, and Apprenticeships
    In fiscal year 2018, President Trump established the National 
Council for the American Worker and charged it with developing a 
national strategy to prepare Americans for careers in high-demand 
industries. As part of the work of the National Council for the 
American Worker, more than 200 companies, associations, and labor 
organizations have pledged to provide enhanced career opportunities by 
expanding programs that educate, train, and reskill American workers 
from high school age to near retirement. As of the time of this 
writing, these organizations have pledged to create 7,452,470 new 
opportunities for Americans.
    The Department is continuing to promote increased adoption of the 
apprenticeship model as a pathway to good, family-sustaining jobs for 
all Americans. Since January 2017, nearly 500,000 new apprentices have 
taken the first steps toward lifelong careers.
    In May 2018, the President's Task Force on Apprenticeship 
Expansion--comprised of governors, and leaders from companies, trade 
and industry groups, unions, educational institutions, workforce 
advocates, and nonprofit organizations--transmitted its final report to 
the President outlining its recommendations on how to best expand high-
quality apprenticeship programs across industries.
    On July 27, 2018, the Department adopted the overwhelming majority 
of the Task Force's recommendations through Training and Employment 
Notice 3-18 (TEN), providing a framework for industry recognized 
apprenticeships (IRAPs) to form alongside the more traditional 
registered apprenticeship program. The TEN sets out, at a high level, 
the policies and procedures that certifiers will be expected to have in 
place to establish standards, establish certification intervals, 
evaluate and certify programs focused on outcomes and process, report 
results, and maintain records.
    Also last year, the Department launched the first-ever sector-based 
apprenticeship grant funding opportunity to invest $150 million to 
expand apprenticeships in those in-demand industry sectors most often 
filled by individuals on H-1B visas, such as information technology, 
healthcare, and advanced manufacturing. This grant funding opportunity 
introduced an innovative approach: a 35 percent private-sector match 
requirement. This brings the total investment to $202.5 million, $57.7 
million coming from the private sector. As a result of this private 
sector match requirement, educators have a greater incentive to join 
with industry to ensure curricula address the needs of our ever-
changing workplace, investing in the latest technologies and 
techniques, and providing more in-demand opportunities for Americans.
    In fiscal year 2020, the Department's budget includes $160 million 
to continue our expansion of apprenticeship programs, along with a 
proposal to increase H-1B fee revenues to fund additional 
apprenticeship activities.
Helping our Heroes and their Spouses Find Good, Family Sustaining 
        Careers
    Through the Veterans' Employment and Training Service (VETS), the 
Department helps America's veterans succeed in civilian careers when 
they conclude their military service and protects their employment 
rights under the Uniformed Services Employment and Reemployment Rights 
Act (USERRA). The Department also helps eligible spouses of military 
service members navigate State licensing requirements and find 
meaningful employment, and advocates for the elimination or temporary 
suspension of occupational licensing requirements for military spouses. 
In 2018, thanks to a growing economy and VETS' efforts, the overall 
veteran unemployment rate dropped to 3.5 percent, an 18-year low, and 
the lowest annual unemployment rate for veterans since 2000.
    The Department is currently engaged with the Departments of Defense 
and Veterans' Affairs to improve the Transition Assistance Program 
(TAP) as part of the National Defense Authorization Act for fiscal year 
2019 (NDAA). NDAA directs these agencies to establish at least three 
pathways for transitioning service members, and the Department will 
alter the delivery of employment related workshops in fiscal year 2020 
to align with the new legislative requirements. The Department will 
also enhance the quality of employment support services for 
transitioning service members, with a focus on improved outcomes. 
Additionally, the Department is also developing components of TAP for 
military spouses as they transition from base to base or to civilian 
life when their active duty spouse leaves the military.
    Finally, the Department is committed to recognizing the many 
American job creators that employ veterans. In 2018, the Department 
implemented the Honoring Investments in Recruiting and Employing 
American Military Veterans (HIRE Vets) Act program 1 year earlier than 
the statute contemplated through a demonstration program. On November 
8, 2018, the Department recognized 239 employers that employ and offer 
growth opportunities to our Nation's veterans. Collectively, these 239 
employers hired more than 8,350 veterans.
Bringing Americans with Disabilities into the Workforce
    The Department, through the Office of Disability Employment Policy 
(ODEP), provides Americans with disabilities with opportunities to join 
and succeed in the workforce. ODEP develops policy recommendations and 
offers tools and technical assistance to American job creators so they 
can hire and retain employees with disabilities.
    In fiscal year 2018, ODEP expanded its Stay at Work/Return to Work 
(SAW/RTW) initiative to support early intervention pilot projects and 
research initiatives, work with States to promote effective SAW/RTW 
policies, and address the need for early intervention for young people 
with disabilities to transition to gainful employment. In September 
2018, DOL awarded nearly $19 million in grant awards to eight State 
workforce agencies for the Retaining Employment and Talent After 
Injury/Illness Network (RETAIN). Jointly funded and developed by ODEP, 
the Department's Employment and Training Administration (ETA), and the 
Social Security Administration (SSA), the primary goal of RETAIN 
demonstration projects is to help Americans who are injured or ill 
remain in or return to the workforce, through early coordination of 
healthcare services and employment-related supports and services.
    ODEP also connects employers and skilled workers with disabilities 
through its technical assistance centers, such as the Job Accommodation 
Network (JAN) and the Employer Assistance and Resource Network on 
Disability Inclusion (EARN), and partnerships such as the Partnership 
on Employment and Accessible Technology (PEAT) which provides a free 
tool for employers to optimize online job applications and outreach 
efforts.
    In fiscal year 2018, JAN provided technical assistance to more than 
42,000 employers, individuals with disabilities, and service providers, 
and conducted more than 107 trainings. EARN provided technical 
assistance to more than 5,000 employers and ODEP's Public Service 
Announcements supporting its efforts aired approximately 32,000 times 
on more than 650 television stations nationwide.
Helping Americans Reenter the Workforce After Incarceration
    When Americans who commit crimes have paid their debt to society 
and leave prison, it is important to find ways to reintroduce those 
individuals into society and the workforce. Simply put, individuals 
that have made mistakes in life and paid their debts to society deserve 
the opportunity to find good, safe, family sustaining careers and 
become contributing members of society. Long-term success at lowering 
recidivism rates requires that we offer Americans a second chance to 
pursue paths to opportunity. These concepts were part of the bipartisan 
First Step Act passed late last year.
    In fiscal year 2018, to address this important issue, the 
Department awarded Reentry Projects grants to 43 nonprofits and local 
and State governments focusing on two major groups: young adults (ages 
18 to 24) who have been involved in the juvenile or adult justice 
system and adults (ages 25 and older) formerly incarcerated in the 
adult criminal justice system. These grants offer communities the 
chance to deploy evidence-based, comprehensive strategies to facilitate 
the reintegration of ex-offenders into the workforce. In fiscal year 
2019, the Department will award an additional $83 million in Reentry 
Projects grants.
    The Department is also engaging with the Bureau of Prisons to 
develop apprenticeship programs. These programs seek to offer skills 
instruction and develop credentials that address the geographical issue 
associated with prison-based programs--Federal inmates are often 
incarcerated in one State, transferred, and released in another. As 
part of this new apprenticeship program, education and training in more 
than 120 skilled trades will be offered.
    Also, to address the stigma that employers associate with formerly 
incarcerated individuals, the Department is expanding its Federal 
Bonding Program which provides employers with access to $5,000-$25,000 
of fidelity bond coverage for the first 6 months of employment for 
formerly incarcerated individuals.
Protecting Working Americans by Confronting Visa Fraud and Abuse
    Companies that commit visa fraud, and abuse the temporary worker 
system hurt working Americans and American job creators that play by 
the rules. These bad actors cut costs by not providing legally required 
wages and working conditions and, in some instances, foreign workers' 
lives are at stake.
    In June 2017, I directed the Department to confront non-immigrant 
visa program fraud and abuse, including making criminal referrals to 
the Office of the Inspector General (OIG). The Department also made 
changes to the H-1B application forms to ensure greater transparency 
and better protect American workers from employers seeking to misuse 
the program.
    In fiscal year 2018, the Department concluded 649 non-immigrant 
visa program cases and found violations in 553 of those cases. In 
fiscal year 2018, the Department issued 37 debarments in the H-2A, H-
2B, and PERM visa programs--precluding those employers from obtaining 
visas or doing work with the Department--a 61 percent increase over 
fiscal year 2017. In total, Department has recovered almost $11.6 
million in back wages on behalf of 6,061 non-immigrant visa employees 
in fiscal year 2018 and issued almost $4.2 million in civil money 
penalties--under 27 percent of dollars recovered. By way of comparison, 
in fiscal year 2016, the Department concluded only 526 non-immigrant 
visa cases, and recovered only $7.8 million in back wages for 5,161 
employees. At the same time, the Department assessed approximately $4.8 
million in civil money penalties--nearly 38 percent of dollars 
recovered.
Leveling the Playing Field for Working Americans Through Fair Trade
    U.S. labor laws guarantee that working Americans be paid a minimum 
wage and overtime, that workplaces abide by health and safety 
standards, and restrict child labor. U.S. free trade agreements and 
preference programs require our trade partners to adopt, maintain, and 
effectively enforce labor laws addressing similar areas of protection. 
When trading partners fall short of their labor standards 
responsibilities under trade agreements, they create an uneven playing 
field that can hurt working Americans. The Budget strategically focuses 
efforts to make U.S. trade agreements fair for U.S. workers by 
monitoring and enforcing the labor provisions of free trade agreements 
and trade preference programs, combatting the reprehensible use of 
child labor and forced labor abroad, and providing technical assistance 
to countries seeking to improve labor standards.
    In addition to the Department's direct work on international labor 
issues, the Department also provides detailed research products and 
tools that help foreign governments and employers improve compliance 
with international child labor and forced labor standards. On September 
20, 2018, the Department released its 17th annual child labor report, 
Findings on the Worst Forms of Child Labor, representing the most 
comprehensive research product to date on the state of child labor in 
132 countries worldwide. Simultaneously, the Department released an 
updated version of its Comply Chain app, which is designed to help 
businesses identify and root out abusive child labor and forced labor 
from global supply chains. Comply Chain is now also available in 
Spanish and French.
Women's Bureau
    The Department's Women's Bureau assists in the development of 
policies and initiatives that promote the interests of the more than 74 
million women in the United States labor force. Women's Bureau 
collaborates with Department program agencies and other Federal 
partners to provide policy guidance, including on initiatives such as 
apprenticeships, military spouses, and occupational licensing, to 
better support the needs of women and their families.
    Women's Bureau is holding listening sessions across the country 
with military spouses in an effort to design a TAP specific to military 
spouses, 92 percent of whom are women. The Department leveraged its 
work with military spouses to aid efforts to redesign the workforce 
reentry components of TAP, focusing on assisting military spouses.
    Women's Bureau is also holding nationwide events and listening 
sessions--several of which were attended by Advisor to the President 
Ivanka Trump--to discuss the challenges, best practices, and potential 
solutions to help all working families access affordable, quality child 
care.
    Finally, the Department is conducting data analysis to better 
understand the impact of the opioid crisis on women in the labor force. 
This includes identifying and correcting the lack of information 
related to the opioid epidemic's effect on women in the labor force, 
relative to the existing research on its impact on men in the labor 
force. Building on this effort, the Department piloted a reemployment 
program grant in Maryland for women impacted by the opioid epidemic.
    The Budget focuses the Bureau's work on high priority areas like 
childcare, military spouses, entrepreneurship, and paid leave while 
eliminating unnecessary regional offices and eliminating grants.
 a strategy of vigorous enforcement coupled with compliance assistance
    The vast majority of employers are responsible actors, fully 
committed to following worker protection laws and to providing good, 
safe jobs for their employees. There are, however, those that fail to 
comply with their legal obligations. In those instances, the Department 
enforces our Nation's laws that protect working Americans--and does so 
vigorously. By way of example, in fiscal year 2018 the WHD's work 
resulted in a record $304 million in back wages recovered for more than 
265,000 workers across America. Fully enforcing the law levels the 
playing field for the majority of American job creators who play by the 
rules and supports the Nation's most important asset--working 
Americans.
    As a parallel to enforcement, there is significant value in 
compliance assistance programs that help working Americans and American 
job creators understand their rights and responsibilities under the 
law. Cooperation between the private sector and government can yield 
strong results at a quicker pace and lower cost than adversarial 
enforcement actions. Parties acting in good faith should have the help 
of the government to do so and should not be penalized for proactively 
requesting assistance.
    In August 2018, the Department launched the Office of Compliance 
Initiatives (OCI) to bring together agencies' compliance assistance 
efforts into a single, concerted program. The office, led by a career 
employee team, will help working Americans and American job creators 
understand their rights and responsibilities under the law and has 
launched the websites employer.gov and worker.gov to provide plain 
language guidance.
    The Department's fiscal year 2020 budget request includes 
additional resources for this office, as well as funding increases for 
every worker protection agency.
Employee Benefits Security Administration
    EBSA helps ensure the security of the retirement, health, and other 
workplace related benefits of almost all American workers who have 
private-sector employer-sponsored plans. EBSA's enforcement authority 
extends to an estimated 694,000 private retirement plans, 2.2 million 
health plans, and similar numbers of other welfare benefit plans which 
together hold $9.5 trillion in assets. These plans provide critical 
benefits to America's workers, retirees, and their families.
    In safeguarding and clearly delineating fiduciaries' 
responsibilities on behalf of participants, on April 23, 2018, EBSA 
issued a Field Assistance Bulletin (FAB) laying out the Department's 
position that fiduciaries may not sacrifice investment returns, or 
assume greater risk, in order to promote collateral social goals, and 
must exercise care before incurring significant expenses to fund 
advocacy in the proxy voting space.
    In fiscal year 2018, EBSA recovered more than $1.16 billion in 
enforcement actions--a 70 percent increase over fiscal year 2017--and 
EBSA's criminal program resulted in 142 indictments. A large portion of 
this increase is attributable to EBSA's Terminated Vested Participants 
Program, which recovered over $807 million in benefit payments for 
participants and beneficiaries in defined benefit plans. During the 
same time period, EBSA's Benefits Advisors recovered an additional 
$443.2 million on behalf of participants and beneficiaries through 
informal dispute resolution, assisting 170,909 Americans.
    The President's fiscal year 2020 budget request for EBSA stands at 
$193.5 million, a nearly 7 percent increase from the fiscal year 2019 
revised enacted budget, and includes additional enforcement resources 
of $10.0 million and 45 FTE that will focus on investigating self-
insured AHPs and self-insured Multiple Employer Welfare Arrangements.
Mine Safety and Health Administration
    MSHA's enforcement strategy is grounded in its mandate to inspect 
all active mines in the United States and its territories regularly. 
MSHA's enforcement mandate is essential to protect miners and advance a 
culture of safety and health in the mining industry.
    In support of its mission, MSHA also provides grants and compliance 
assistance to the mining community. In fiscal year 2018, MSHA's annual 
Training Resources Applied to Mining (TRAM) conference drew more than 
300 mining stakeholders to learn about training techniques, new 
technology, and best practices in mining. The MSHA Academy provided 443 
course days of compliance assistance training to the mining community. 
Educational Field and Small Mine Services, with support from 
Educational Policy Development personnel, provided 69,186 hours of 
additional compliance assistance in the field.
    In fiscal year 2018, MSHA fulfilled its statutory mandate to 
inspect all underground mines four times per year and all surface mines 
twice per year which, combined with non-mandatory inspections, helped 
foster a more safe mining industry. Notably, the mining industry 
overall experienced the lowest number of fatalities in fiscal year 
2018. The Department remains focused on reducing the numbers of mining 
injuries and fatalities even more, because our goal must be zero mining 
deaths.
    The President's fiscal year 2020 Budget request for MSHA stands at 
$376 million, an increase over the fiscal year 2019 revised enacted 
budget, and proposes a new enforcement structure that combines the Coal 
Mine Safety and Health and Metal/Non-Metal Safety and Health budget 
activities. This consolidated budget activity will provide the 
flexibility to address industry changes and maximize the efficient use 
of MSHA's resources.
Occupational Safety and Health Administration
    OSHA helps ensure that employers provide safe and healthful working 
conditions for working men and women by setting and enforcing standards 
and by providing training, outreach, education, and assistance. OSHA 
also administers the whistleblower provisions of more than 20 
whistleblower statutes. Compliance assistance and enforcement--driven 
by workplace inspections and investigations--play a vital role in 
OSHA's efforts to reduce workplace injuries, illnesses, and fatalities.
    In fiscal year 2018, and in fiscal year 2017, OSHA conducted more 
than 32,000 inspections each year, exceeding the fiscal year 2016 
number. These results are impressive particularly given that OSHA 
dedicated substantial resources in fiscal year 2018 to hiring and 
training new inspectors. In August 2017, OSHA was provided blanket 
approval to hire needed inspectors to carry out its important work. The 
result was the hiring of 76 new inspectors in fiscal year 2018. The 
timeframe for new inspectors that join the Department to be prepared to 
conduct inspections can vary between one to 3 years depending on their 
prior experience and complexity of the inspections they may carry out. 
During this time, these new hires do not generally conduct independent 
inspections. OSHA has been hard at work to onboard and train new 
inspectors and expects to have a significant increase in inspectors in 
fiscal year 2019.
    In fiscal year 2018, in addition, OSHA personnel made 26,362 
compliance assistance visits covering more than 970,000 workers and 
ensuring that 135,021 hazards were identified/corrected. The estimated 
savings in injuries and costs prevented by this program exceed $1.3 
billion.
    Late in 2018, the Bureau of Labor Statistics released the injury 
and fatality data for calendar year 2017. Even as employment 
substantially increased and less-experienced workers were onboarded, 
the numbers and rates of fatal injuries and nonfatal injuries and 
illnesses in the workplace declined. With 43 fewer workplace fatalities 
in 2017, reversing a 3 year upward trend, the fatality rate fell to 3.5 
per 100,000 full-time equivalent workers. The incidence rate for 
private industry nonfatal cases fell to 2.8 per 100 full-time 
equivalent workers after employers reported 45,800 fewer cases. This 
overall decrease occurred against a backdrop of a substantial increase 
in fatalities due to unintentional overdose from nonmedical use of 
drugs or alcohol, which increased from 217 to 272 workplace fatalities 
nationwide.
    The Department is committed to fostering an environment that 
promotes disclosure of dangerous work conditions and protects 
whistleblowers. OSHA's Whistleblower Program prevents retaliation 
against workers that report injuries, safety concerns, or engage in 
other protected activity. In fiscal year 2018, OSHA implemented 
internal measures, such as expedited case processing and streamlined 
case documentation requirements, to increase the efficiency of the 
Whistleblower Protection Program. fiscal year 2018 saw 9,387 new 
complaints under the program, a 9 percent increase over fiscal year 
2017, and processed 9,308 complaints, an 8.4 percent increase over 
fiscal year 2017.
    The President's fiscal year 2020 budget request for OSHA stands at 
$557.5 million, a slight increase over the fiscal year 2019 revised 
enacted budget, and proposes additional funding for staff, including 30 
additional Compliance Safety and Health Officers and five additional 
whistleblower investigators.
Office of Federal Contract Compliance Programs
    OFCCP is tasked with ensuring that Federal contractors and 
subcontractors comply with their equal employment opportunity 
obligations.
    OFCCP supports compliance through assistance tools, resources, and 
incentives. Indeed, in fiscal year 2018, OFCCP held 346 events to 
inform and educate the regulated community and handled 2,797 help desk 
requests via telephone calls and email. Also in fiscal year 2018, OFCCP 
issued its ``Town Hall Action Plan'' and ``What Contractors Can 
Expect'' to engage with the regulated community and demystify OFCCP's 
work. Specifically, the agency sought to develop the broad 
understanding that contractors and subcontractors seeking OFCCP's 
assistance with satisfying their nondiscrimination and equal employment 
opportunity obligations can expect clear, accurate, and professional 
interactions with OFCCP's staff.
    In fiscal year 2018, the OFCCP conducted 812 compliance 
evaluations, entered into 168 conciliation agreements, and obtained 
over $16 million in monetary remedies for more than 12,000 affected 
employees and applicants.
    The President's fiscal year 2020 budget proposal for OFCCP stands 
at $103.6 million, a slight increase from the fiscal year 2019 revised 
enacted budget, and includes funding for IT modernization efforts which 
is largely offset by gains obtained through operational efficiencies in 
OFCCP.
Office of Labor Management Standards
    The Office of Labor Management Standards (OLMS) administers and 
enforces most of the provisions of the Labor-Management Reporting and 
Disclosure Act (LMRDA). The LMRDA promotes union democracy and 
financial integrity in private sector labor unions, and transparency 
for labor unions and their officials, employers, labor relations 
consultants, and surety companies through reporting and disclosure 
requirements. In fiscal year 2018, OLMS conducted 16,968 participant 
hours of compliance assistance instruction--the highest since fiscal 
year 2012.
    The Department is also currently working on a new transparency 
regulatory proposal for union trust accounts so that union members can 
see where their money is going when it becomes part of a covered trust.
    In fiscal year 2018, OLMS investigated 128 union elections after 
complaints of violations, supervised 28 rerun elections due to election 
violations, and conducted 223 criminal investigations which resulted in 
73 convictions.
    The President's fiscal year 2020 budget for OLMS stands at $49.1 
million, a 15.8 percent increase over the fiscal year 2019 revised 
enacted budget, and includes a proposed increase of $4.2 million in 
staffing increases to support enforcement programs that ensure union 
transparency and financial integrity, both of which inure to the 
benefit of the hardworking men and women that make up the membership of 
unions.
Office of Workers' Compensation Programs
    The Office of Workers' Compensation Programs (OWCP) administers 
four major disability compensation programs covering more than two 
million Federal employees, and a significant number of private sector 
workers, which provide wage replacement benefits, medical treatment, 
vocational rehabilitation, and other benefits to certain working 
Americans, or their dependents, who experience work-related injuries or 
occupational disease.
    Among those programs, OWCP oversees prescription benefits for 
injured Federal workers and is taking aggressive measures to control 
fraud. OWCP implemented measures in fiscal year 2018 to target and 
intercept abusive billing patterns, resulting in a $5 million per month 
average savings in overall pharmaceutical spending.\2\ These savings 
are in addition to the $19 million per month average savings in overall 
pharmaceutical spending realized in fiscal year 2017 from addressing 
compounded drugs.\3\
---------------------------------------------------------------------------
    \2\ Comparing the 7 months following implementation of measures in 
2018 (June 2018--December 2018) to the months prior in fiscal year 2018 
(October 2017--May 2018).
    \3\ Comparing the first 6 months of 2016 to the fiscal year 2017 
months after the primary compounded drug control was implemented 
(November 2016--September 2017).
---------------------------------------------------------------------------
    In 2017, the President rightfully declared the opioid crisis a 
public health emergency. Opioids are affecting how job creators hire, 
how job holders work, and how job seekers find family-sustaining jobs. 
This crisis is far-reaching and touches far too many Americans. The 
Department is doing its part to combat the opioids crisis. OWCP has 
taken aggressive steps to prevent the over-prescribing of opioids for 
the approximately 200,000 Federal employees or dependent beneficiaries 
each year who receive workers compensation benefits. Specifically, OWCP 
issued prescription guidelines for medical providers, and will monitor 
billing patterns and multi-party networks of interest using predictive 
analytics and risk metrics.
    OWCP is also updating its computer resources and acquiring a 
Pharmacy Benefit Manager to assist in these efforts. Since January 
2017, OWCP has seen a significant drop in the number of claimants 
prescribed high-dose opioids, with a 59 percent drop in claimants 
prescribed a morphine-equivalent dose (MED) of 500 or more, and a 31 
percent drop in claimants prescribed an MED of 90 or more as of the end 
of February 2019. Additionally, when comparing 20 months of data--
January 2017 to August 2018 and the same time period in 2015 to 2016--
there was a 24 percent drop in new opioid prescriptions and a 51 
percent decline in new opioid prescriptions lasting more than 30 days.
    The Department is resolute in its commitment to ensuring that 
injured Federal employees access opioids only with adequate medical 
supervision. OWCP now requires that the prescribing physician complete 
a medical evaluation and attest to the medical necessity of continued 
opioid treatment for all new opioid prescriptions that extend beyond an 
initial period of time, requires prior authorization and a letter of 
medical necessity for all new opioid prescriptions that extend beyond 
an initial grace period, and has imposed fill and re-fill prescription 
limits.
    OWCP has also worked closely with the OIG to eliminate Federal 
Employees' Compensation Act (FECA) fraud. In cooperation with the OIG, 
OWCP created documents that facilitate interagency investigation and 
prosecution efforts by providing guidance to the government-wide OIG 
community on how to request FECA data and submit reports of 
investigation that implicate waste, fraud, and abuse. In fiscal year 
2018, OWCP submitted 62 medical provider referrals to the OIG--covering 
more than 100 individual providers--for possible fraudulent medical 
billing. These referrals were due in large part to the establishment of 
OWCP's Program Integrity Unit housed in the Division of Federal 
Employees' Compensation.
    The President's fiscal year 2020 request for OWCP's discretionary 
salaries and expenses amount stands at $117.8 million, a slight 
increase over the fiscal year 2019 revised enacted budget.
Wage and Hour Division
    WHD is tasked with ensuring compliance with, and enforcement of, 
many of the Nation's fundamental Federal labor laws, including minimum 
wage, overtime, and child labor laws. To accomplish its mission, WHD 
employs enforcement and compliance assistance strategies, along with 
evidence-based and data-driven approaches to allocate resources in a 
manner that maximizes its impact on behalf of workers in the United 
States.
    Fiscal year 2018 also saw record enforcement numbers from WHD 
resulting in the recovery of more than $304 million in back wages for 
more than 265,000 workers across America. Enforcement is a critical 
part of WHD's overall strategy and is employed rigorously when 
compliance assistance, alone, is not enough. WHD's enforcement efforts 
are tailored to safeguard workers' rights and obtain due compensation 
for violations of the law.
    In fiscal year 2018, WHD conducted a record 3,643 outreach events 
and presentations, providing valuable information and compliance 
assistance to participants across the United States. As part of this 
effort, WHD employs Community Outreach and Resource Planning 
Specialists (CORPS) in nearly all district offices nationwide. The 
CORPS have been successful in establishing partnerships with industry 
associations and employers to offer compliance assistance and educate 
stakeholders on labor standards.
    In fiscal year 2018, WHD recovered more than $304 million in back 
wages for more than 265,000 working Americans and other workers--more 
than any other year in the agency's history, and an average of $1,147 
per person.
    The President's fiscal year 2020 budget request for WHD stands at 
$232.6 million, a slight increase over the fiscal year 2019 revised 
enacted budget, and proposes additional funding for staff to modernize 
compliance assistance efforts.
Helping Americans Get Back to Work After Natural Disasters
    This fiscal year, the states of Florida, Georgia, North Carolina, 
South Carolina, and territories of Northern Mariana Islands endured an 
active and destructive hurricane season. At the same time, Puerto Rico 
and the U.S. Virgin Islands continued their recovery from last year's 
storms. For a second year in a row, California suffered destructive 
wildfires.
    The Department of Labor worked with Federal, State, and local 
agencies to provide much-needed support to those affected. The 
Department:
  --provided more than $100 million in grants to help affected States 
        and territories assess their workforce needs;
  --sent personnel and donated equipment to assist in recovery efforts; 
        and
  --oversaw Disaster Unemployment Assistance aid to those unemployed as 
        a result of the hurricanes.
    In addition to funding and direct support, the Department also 
worked to reduce barriers to rebuilding and aid efforts, and reduce the 
burdens on survivors by providing much-needed regulatory flexibility. 
The Department:
  --temporarily waived certain retirement plan and group health plan 
        requirements and deadlines;
  --temporarily suspended select Federal contractor requirements, 
        allowing businesses involved in hurricane relief the ability to 
        prioritize recovery efforts;
  --temporarily eased reporting and other regulatory burdens on labor 
        organizations, labor relations consultants, and employers 
        affected by the hurricanes; and
  --provided other regulatory flexibility requested by individual 
        States.
    The Department continues to support the Federal Emergency 
Management Agency (FEMA) with hurricane and wild fire recovery efforts. 
In the wake of the 2017 and 2018 hurricanes, Department staff conducted 
more than 2,229 outreach activities, providing critical information and 
compliance assistance to more than 14,000 workers in affected areas; 
more than 2,276 safety and health interventions reaching more than 
11,494 workers, of which more than 6,391 individuals were removed from 
hazards; and served more than 24,907 working Americans. The Department 
is also conducting investigations to ensure workers employed in 
recovery efforts are receiving the wages to which they are legally 
entitled and ensure a level playing field for law-abiding businesses.
    The hardworking men and women of the Department also donated 13,659 
hours, or more than 1,707 days, and more than $47,000 in gift cards to 
their colleagues who suffered significant property damage or loss as a 
result; and more than 500 DOL employees volunteered to travel to 
affected areas to support the recovery efforts.
                               conclusion
    In closing, I hope my statement today makes clear the depth and 
breadth of the Department's accomplishments this past year. The 
Department is hard at work supporting Americans' efforts to find, and 
excel in good, safe, family-sustaining jobs.
    We look forward to working with Congress on these important goals.

    Senator Blunt. Well thank you. I was obviously eager to get 
to our question time, and always, I am glad to hear your 
comments, particularly the fact that those programs that have 
direct contact with workplace issues, that you have increased 
slightly the budget for those.

                       RURAL WORKFORCE INITIATIVE

    I want to talk a little bit about the Rural Workforce 
Initiative that this committee started in 2018, fiscal year 
2018, dealing with the Delta Regional Authority and the 
Appalachian Regional Commission, the unemployment rates and 
even in a good economy are still well higher than the national 
average.
    We have now appropriated $60 million for this initiative 
and you have asked for another $30, but none of that money has 
yet been spent. At least I do not believe it has been spent. My 
sense is since you are asking for more money, these programs 
can work. What are you doing to get that money out the door now 
and see that they work?
    Secretary Acosta. Mr. Chairman, thank you. Thank you for 
the question. I think we all agree that this is a good 
investment and that this, in fact, should go forward.
    The way the appropriation was written, in the opinion of 
our attorneys created difficulty, as it was written. I think 
this committee intended the money to go to the regional 
commissions and have those commissions disperse it to 
individual entities within the region.
    Our attorneys, however, said that based on the language we 
had to do the disbursement directly to the individual entities. 
We have entered into an MOU (memorandum of understanding) with 
the regional commissions where we are providing funds for the 
regional commissions to do technical assistance so that the 
individual entities can apply to us, with the assistance of 
those regional commissions. So, the individual entities will 
apply to us as our budget attorneys say they have to, but with 
the assistance of those regional commissions.
    Going forward I hope that our staffs can work together, and 
my understanding is they are working together, to develop 
appropriate language so we do not have to face this next year. 
It is a technical issue.
    Senator Blunt. Then you would hope we could put that 
language in this next appropriating bill?
    Secretary Acosta. Absolutely. I think everyone agrees on 
what this should look like. There is a technical legal issue 
that we are working around. We have issued the MOU and entered 
the MOU with both the Delta, and I apologize, I forget the 
other.
    Senator Blunt. Appalachian.
    Secretary Acosta. With both the Delta and the Appalachian 
regional commissions so that we can disburse the money with 
their assistance, as they work with their local grantees.

                            JOB CORPS BUDGET

    Senator Blunt. Let's move to what I think was about a 40 
percent proposed cut for Job Corps that is over $700 million. 
Does that mean you are going to eliminate 40 percent of the 
locations in the country, or what do you expect to do with 
that?
    Secretary Acosta. Mr. Chairman I think I mentioned to you 
when we spoke earlier this year, the debate over Job Corps is 
one that goes back several decades. This committee is going to 
determine the appropriate funding level for Job Corps as it did 
last year, and the year before that. We have concerns about the 
program, irrespective of funding level. We are proceeding based 
on those concerns with reforms to the program that we think may 
be helpful. So, we are using our pilot project authority 
working with governors that are interested too, to try 
different pilot projects in particular States.
    So yesterday for example, I shared that that we are 
starting a Job Corps Scholars Pilot Program. It is small, it is 
only $20 million, but we issued a request for proposal for 
community colleges to set up many job corps within those 
community colleges, cohorts of 40 students. They would receive 
funds that would cover tuition, that would cover housing, that 
would cover counseling services, and interestingly it would be 
at about half the cost per student, of a job corps center, 
because job corps centers depending on the particular center, 
sometimes $30-$40,000 per student, per year.
    We are also working with, in Idaho for example, with the 
governor, the Job Corps Center is now being managed, or about 
to be managed, by their local community college. So, we are 
trying different approaches to see what works and what does not 
work, and we will proceed as this committee sees fit on the Job 
Corps program.

                       USDA-RUN JOB CORPS CENTERS

    Senator Blunt. Now there are a couple of USDA (United 
States Department of Agriculture) run Job Corps Centers in the 
country, I know we have one in Missouri. I have been told that 
they are no longer interested in running those programs.
    Secretary Acosta. The USDA has indicated that they have 
concerns as to the effectiveness of those programs. And if they 
do withdraw, then we would look at program Job Corps Center by 
Job Corps Center and determine whether to close that center, 
whether to consolidate that center, or whether to convert that 
center into something different.
    Senator Blunt. And you are working with the States on that?
    Secretary Acosta. We would be working with the USDA and the 
States, yes.
    Senator Blunt. Thank you.
    Senator Murray.
    Senator Murray. Thank you Mr. Chairman.

                           HUMAN TRAFFICKING

    Before I ask about budget Mr. Secretary, I do need to ask 
you about when you served as U.S. Attorney and your office 
negotiated a ``deal of a lifetime'' for a serial sex abuser, 
Jeffrey Epstein, which allowed him to serve minimal jail time 
and avoid Federal prosecution for sex trafficking charges.
    What I want to know is why the non-prosecution agreement 
you negotiated was not stronger? Why just 13 months in jail 
for--when those young girls were victims of what you described 
as a quote ``very vile crimes?''
    Secretary Acosta. So, Senator Murray first, let me point 
out that this started and was, a State matter. The district 
attorney received the information, the evidence from the 
police. The district attorney took this to a grand jury. The 
grand jury in the county recommended a single charge that would 
have resulted in no jail time; that would have resulted in no 
registration at all. And on that basis Epstein was arraigned in 
State court.
    Now as Federal prosecutors we looked at this and we said, 
this is of concern. The way this is proceeding in State court, 
no jail time, no registration, is of concern to us. So, we 
weighed in and we said that a Federal prosecution and 
investigation could result, and would result, if the State did 
not negotiate something that was much stronger. And at the end 
of the day he entered a plea in State court that called for 18 
months; that called for registration as a sex offender.
    Senator Murray. 13 months.
    Secretary Acosta. 18 months, Senator. The way that the 
State then allowed him to serve the sentence, it was reduced to 
13, but it was 18.
    Senator Murray. Well as you know he was a serial sex 
offender, and this, it does not feel that he was appropriately 
punished at all.
    And earlier this year a Federal Florida judge said the non-
prosecution agreement violated the law. So, let me ask you, 
would you join with me calling for a thorough, independent 
investigation by career ethics officials into whether non 
prosecution agreements violated Federal law or Department of 
Justice policies?
    Secretary Acosta. Senator Murray, first let me say the 
Office of Professional Responsibility at the department is 
looking at this matter already.
    Secondly, if I could point out, the Department of Justice 
at the time, had a policy in place that did not--where the 
Crime Victim Notification's Act of the CBRA did not apply to 
non-prosecution agreements, and in fact, there was an Office of 
Legal Counsel decision.
    Senator Murray. Well, there is an investigation going on.
    I want to get to the budget. Do you agree with me that the 
investigation should be released to all members of the 
Congress?
    Secretary Acosta. Senator, I think that is a Department of 
Justice decision, they have protocols on that.
    Senator Murray. What is your opinion?
    Secretary Acosta. I think that this is a Department of 
Justice decision.
    Senator Murray. So, you do not have an opinion on whether 
we should see it?
    Secretary Acosta. Senator, I do not know what the protocols 
are at the Department of Justice. I think the Department of 
Justice has protocols, and that they should follow these 
protocols.

                          FEDERAL MINIMUM WAGE

    Senator Murray. All right, well let me turn to the budget. 
Yesterday you testified before the House, Education and Labor 
Committee that, ``We do not support a change to the Federal 
minimum wage at this time''. You know the Federal minimum wage 
has not been increased in a decade and low-wage workers now 
make less per hour than they did 50 years ago.
    So, I would like you to clarify that statement. If workers 
do not deserve, a quote, at this time, then, when do they?
    Secretary Acosta. Senator, the prior comments around that 
pointed out that 29 States have increased their State minimum 
wage above the Federal minimum wage. And within the remaining 
21 States there are some localities that also may have 
increased the minimum wage above the Federal.
    And so, part of this question, in fact the Washington Post 
had an editorial that pointed this out, should the 29 States 
that have raised the minimum wage above the Federal, impose 
their cost structures on the remaining 21 States? And so, the 
Post editorial, for example, pointed out that a one-size-fits-
all approach does not work and does not work well.
    Senator Murray. Well we have worked well under a Federal 
Minimum Wage Law that made sure that we did not have increasing 
disparities among workers. So, you and I are going to disagree 
on this.

                        APPRENTICESHIP PROGRAMS

    I do want to ask about apprenticeships. The Registered 
Apprenticeship Program is really highly effective in providing 
workers with good paying jobs. It long has had a history a 
bipartisan support from this Congress, so I have to say I am 
very deeply concerned about your implementation of this 
program, and your efforts to create a duplicative lower quality 
apprenticeship program. You call it IRAPs (Industry Recognized 
Apprenticeship Programs).
    Now despite your repeated public assurance that our 
appropriation can only legally fund the Registered program, 
earlier this year I learned that DOL (Department of Labor) 
spent $20 million on a contract to quote, ``Expand industry 
relevant apprenticeship programs that are recognized and/or 
registered''. And it was not until we had a congressional 
inquiry months after the agreement was signed, DOL backtracked, 
acknowledging this would be illegal and inconsistent with the 
committee's direction.
    I am also concerned by your failure to spend the fiscal 
year 2018 funding. We appropriated that more than a year ago 
with the majority of that $145 million still unspent, despite a 
fast approaching expiration date.
    And finally, I am very troubled at the department's clear 
intent to undermine the Registered Apprenticeship Program by 
proposing changes to its regulation to weaken fundamental labor 
standards and limit Federal oversight, over tens of millions of 
dollars of taxpayers. Oversight is our responsibility.
    So I just, I only have a few seconds left, if you could 
just answer yes or no. Given the highly questionable nature of 
the $20 million contract I just mentioned, I sent you a letter 
today requesting DOL provide all the contract documents related 
to this agreement. Will you respond to that in a timely and 
transparent manner?
    Secretary Acosta. Senator, I disagree with the 
characterization of that contract, and yes, I will respond.
    Senator Murray. Okay. Mr. Secretary given the White House's 
2017 Executive Order and your proposed regulatory changes, is 
it your position that DOL should be in the business of shifting 
tens of millions of dollars, of taxpayer dollars away from a 
proven Registered Apprenticeship Program to set up this 
unnecessary system with minimal Federal protections or 
oversights?
    Secretary Acosta. Senator, again I disagree with the 
characterization, and we are not in the process of shifting 
dollars from registered to industry recognized apprenticeships.
    Senator Murray. Okay. My time has expired, and we will 
follow-up with written questions.
    Senator Blunt. Thank you Senator, Senator Murray.
    Senator Alexander.
    Senator Alexander. Thank you Mr. Chairman.

                           HUMAN TRAFFICKING

    Mr. Secretary, welcome. Given the conversation that Senator 
Murray mentioned, let me ask you two questions about the plea 
agreement. At the time of the non-prosecution agreement that 
she mentioned, and you discussed, did the George W. Bush 
Justice Department, for whom you worked, approve the agreement 
as consistent with the Department of Justice policy?
    Secretary Acosta. The agreement was reviewed in main 
justice as high up as the Deputy Attorney General, yes.
    Senator Alexander. Is the answer yes?
    Secretary Acosta. Yes.
    Senator Alexander. By the Deputy Attorney General?
    Secretary Acosta. By him or his staff, yes.
    Senator Alexander. And second, since then has the 
Department of Justice under President George W. Bush, President 
Obama, and President Trump continued to support your decision 
on the non-prosecution agreement as consistent with Department 
of Justice policy?
    Secretary Acosta. Yes, Senator.
    Senator Alexander. So, the decision you made was consistent 
with the Department of Justice at that time and it was 
consistent with the Department of Justice policy under three 
administrations and what we have now is a judge who disagrees 
with three administrations Department of Justice policy. But 
that to me, does not reflect on your decision at all.

                        ASSOCIATION HEALTH PLANS

    Let me go to Association Health Plans. Obamacare is a big 
problem in our country and such a big problem that almost all 
members of Congress would like to substitute something else for 
it. Republicans would like to replace it with policies that 
would give States more flexibility and individuals more choices 
and lower cost, and a large number of Democrats would like to 
replace it with Medicare for All, which would take away 
insurance on the job from 181 million Americans. So, there is 
broad agreement on both sides of the aisle that Obamacare does 
not work and is a problem. We just have different views about 
what to replace it with.
    Now, perhaps the most extraordinary problem with Obamacare 
is in the individual market. Which Senator Murray and I worked 
on to try to reduce premiums, and in the end, there was not an 
agreement. But in Tennessee for example, you might make $50-
$60,000 if you are a farmer and be paying $20,000 for your 
insurance. You do not get any Obamacare subsidy.
    The best solution of that it seems to me, is your rule to 
reinstate Association Health Plans, which existed before 
Obamacare and which you reinstated in a fairly conservative 
way, and which basically give employees of smaller companies 
and some sole proprietors, the opportunity to buy the same sort 
of insurance that employees of big companies can buy with the 
same protections for such things as pre-existing condition.
    Now, your reinstatement of Association Health Plans has 
been popular, but a judge has stopped it. What happens for 
example, to the Las Vegas employee whose company organized 
insurance under the Association Health Plan rule? Does that 
employee lose her insurance as a result of the court decision? 
And what are the prospects for expanding Association Health 
Plans as a way of reducing outrageously high insurance 
premiums?
    In Tennessee since the start of Obamacare, individual 
insurance premiums are up more than 176 percent. So, what can 
you say about that?
    Secretary Acosta. Senator, thank you. First let me point 
out is, you are correct, they have been popular.
    The Washington Post ran two articles, one an article, one 
an editorial board member. These are the headlines: 
``Association health plans expanded under Trump looks promising 
so far'', talking about how they are quality plans, and 
``Experts hated this Trump healthcare policy. So far, they are 
wrong''. Those are from February 1st and 4th.
    These first, let me say, are quality plans, the same plans 
offered by IBM and other major corporations. Now, about 30 
associations around the Nation have set up these AHP's and they 
have thousands of individuals that are covered.
    We issued earlier this week a nonenforcement policy with 
respect to Association Health Plans that said that those plans 
under the courts order, they cannot receive new clients, but 
they have an obligation to continue to provide coverage to 
existing clients under the current insurance contracts.
    So those individuals in Las Vegas that are covered by the 
Las Vegas AHP should know that their insurance contract will 
continue through the end of that contract and renewals thereof.
    Senator Alexander. I am out of time, but is the decision by 
the District Court judge on appeal and when is that appeal 
going to be heard and when will it be decided?
    Secretary Acosta. It is appealed, we do not have a date and 
so I do not know when it will be decided.
    Senator Alexander [presiding]. Thank you Mr. Secretary.
    Senator Schatz.
    Senator Schatz. Thank you Mr. Chairman, ranking member. 
Secretary, thank you for being here.

                    CHANGES TO FEDERAL MINIMUM WAGE

    I want to follow up on Senator Murray's questioning about 
that minimum wage. Let us sort of set a baseline here. Do you 
believe that there should be a minimum wage?
    Secretary Acosta. Senator I do believe there should be a 
minimum wage, yes.
    Senator Schatz. A Federal minimum wage?
    Secretary Acosta. Yes.
    Senator Schatz. So, you think $7.25 is the right number?
    Secretary Acosta. Senator, I know that at least 29 States 
have increased----
    Senator Schatz. Hold on, hold on. It is a very simple 
question. You are the Secretary of Labor. You said there should 
be a minimum wage, so we got that, $7.25 is the current rate 
which annualizes to about $15,000 a year. What do you think the 
right number is?
    Secretary Acosta. $7.25 is the current Federal minimum 
wage.
    Senator Schatz. I got that.
    Secretary Acosta. And I do not believe the Federal minimum 
wage should be changed at this time.
    Senator Schatz. Because that is enough?
    Secretary Acosta. There are different wage structures 
throughout the Nation.
    Senator Schatz. Yes, I got all that. I mean, listen, we 
have 5 minutes; I am not trying to trap you, I just want to 
understand your thinking. Do you think $15,000 a year is enough 
for the 88 percent of minimum wage workers who are over 20 
years old?
    Secretary Acosta. Senator----
    Senator Schatz. It is yes or no. Do you think that is 
enough money for them?
    Secretary Acosta. Senator, the number of individuals that 
are on minimum wage varies depending which data you use between 
about .5 percent to a little over 1 percent. One question that 
I think is very important is, how long individuals continue to 
receive minimum wage; is this viewed as an entry-level wage, a 
training wage, a wage that is paid temporarily.
    Senator Schatz. Should I take that as a yes that it is 
enough as long as it is temporary?
    Secretary Acosta. Senator, I think you should take that as 
a--this area is a little more complicated than yes or no 
questions.
    Senator Schatz. But you have to set a number, right? So, I 
get that. I mean I understand the workforce I understand how 
wages work; I understand that some people who get a minimum 
wage, a job immediately ascend to a higher paying job. But I 
will say that if you start at $7.25, you do not immediately go 
to $15.25, you go from $7.25 to $9.25. Right? And then to 
$11.25 if you are lucky, over many, many, many, many years.
    So, it really very much matters what the base pay is 
because you are not going to double your pay from $15,000 a 
year to $20,000 a year.
    So, the question for the Secretary of Labor is, what is the 
right number? And I understand that you are a former professor, 
but I am asking you what you think the right number is.
    Secretary Acosta. And Senator, my response is at this time, 
I do not think that there should be change in the Federal 
minimum wage. I understand that localities may and are changing 
that, but if one was to look for example at the labor force 
participation rate of younger Americans, it has fallen 
dramatically. The unemployment rate among younger Americans is 
a challenge, and one question that we need to think about----
    Senator Schatz. But what about the adults who make the 
minimum wage? And I guess that the question I have is if you 
make minimum wage, if you make $15,000 a year, you are almost 
inevitably on a number of public subsidies. So, it seems to me 
that the Government is subsidizing the corporation's 
underpaying of the individual.
    Can you address that problem? Because there is just no 
doubt if you are paying someone $7.25, they are going to be on 
SNAP (Supplemental Nutrition Assistance Program) benefits, and 
any number of other Government paid taxpayer subsidized 
assistance. Which seems to me a crazy way to do these things, 
because if you just paid them enough, we could have the lower 
tax rate and a solid social safety net, but not one that 
required that we basically subsidize all the companies who were 
underpaying people.
    Secretary Acosta. Senator, what you are referencing is, the 
``cliff effect'', which is in essence the trade-off between 
Government benefits and wages, is something that I would be 
more than happy to talk, maybe after the hearing, at length 
about. Because I would much rather see individuals working and 
working with good wages, than being the recipient of Government 
benefits. I think it is better for the individual.
    Senator Schatz. And so just--let's try it this way. Why not 
raise the minimum wage? Other than sort of, like ideology, 
let's presume I am a progressive and you are a conservative and 
we have our ideological reasons coming into this. If we took 
off our partisan hats, why not pay everybody $10?
    We have a robust economy, we have a housing shortage, we 
have healthcare costs that continue to outpace inflation, you 
have prescription drugs going through the roof, you have people 
across the country struggling, and yet GDP (gross domestic 
product) and productivity and the stock market are not quite 
all time highs, but are doing quite well. And we still want to 
pay people seven dollars an hour?
    Secretary Acosta. Senator, I think I mentioned at my 
hearing yesterday, the overall wages are up, the highest, the 
fastest increase we have seen in more than a decade, but----
    Senator Schatz. But what about people making seven bucks?
    Secretary Acosta [continuing]. In particular, something 
that I think is very important is at the lowest decile last 
year, wages increased 6.5 percent, almost double, double the 
median, and that is a very, very good thing. And so, I think we 
share the desire to see wages go up at the lowest decile. The 
question is how do we go about doing that in a thoughtful way 
that does not generate a loss in jobs, particularly in lower 
cost areas of the Nation?
    Senator Schatz. Thank you.
    Senator Alexander. Thank you Senator Schatz.
    Senator Durbin.

                              WAGE GROWTH

    Senator Durbin. Thanks Mr. Secretary for being here. I am 
sorry I was at another hearing and unable to join you here.
    But just to follow up on Senator Schatz's questions, when 
you are starting at $7.25 an hour and there is a 6.5 percent 
increase, you realize that it does not have a very dramatic 
impact on your lifestyle. The cost of living is going up too, 
and I would agree with his premise that paying people a decent 
livable wage, not only gives them dignity in the work that they 
perform, but also may absolve us from some Government 
responsibilities that we assume for those who are on the 
margins in our economy.
    Maybe someone here can remind me, Senator Schatz, or 
yourself, when was the last time we raised the minimum wage?
    Secretary Acosta. I believe it was 2009.
    Senator Durbin. 10 years ago. So, 6 1/2 percent a year at 
10 years, it should go up what, 60 percent let's say from where 
it is, at currently $7.25. You start seeing the effect that we 
do not respond and let this thing languish, it just worsens the 
plight of many people.

                               CAREGIVERS

    I would like to ask you to consider something which we have 
never discussed, but I hope all of us will discuss more and 
more. I really started focusing on an aspect of the work force, 
of which we better pay closer attention to, and I called them 
generically, caregivers.
    Whether we are talking about daycare, and the desperate 
efforts of families to find safe quality, affordable daycare 
for that new infant and child, or the care for those who are 
disabled. The growing responsibility of individuals for caring 
for those later in life, many of whom are facing those serious 
health challenges. This segment of our population workforce is 
growing dramatically, at great sacrifice for many family 
members.
    And I think we ought to be looking at it in more honest 
terms about how we are going to deal with it in the future, to 
make sure that the people who care for those grandchildren we 
love, or those grandparents we love, are treated like the 
professionals that they need to be to do their jobs well.
    What is your response to that?
    Secretary Acosta. Senator, first I agree that this is a 
growing segment of the population. That if we just look at our 
demographic's individuals, we are having more and more 
individuals retire. And as the retiree population increases 
this is going to become more of an issue.
    I would very much welcome the opportunity to have a 
conversation. I think there is a push-pull here. We want to 
recognize the professionalism and the value of individuals that 
are caring for others, both formally and informally. At the 
same time, we want to make sure that we do not put in place 
regulations or rules that make it difficult for individuals to 
get the kind of care that they want or need.
    So, I would welcome the opportunity to sit down and to have 
that conversation. There may be areas where there is room for 
agreement, and we can move forward.

               CAREGIVER'S PROGRAM FOR DISABLED VETERANS

    Senator Durbin. Well I can give you an example. We have had 
a caregiver's program for disabled veterans for several years 
now. It is a bill that I picked up from then, Senator Hillary 
Clinton, and with the help of Danny Akaka and many others, it 
has become the law of the land. And over 20,000, I am not sure 
the exact number, but I think it is over 20,000 disabled 
veterans now have the help of caregivers.
    There are three things we provide. The basic training they 
need, medical training so they can respond to that disabled 
vets needs. Respite care there is a period of time we can give 
them, 2 weeks of the year for example, for their own relaxation 
and vacation, and then in extreme circumstances, financial 
assistance as well, so that they can take care of veterans. 
Which I might add is a great savings to the Federal Government 
if they are at home taking care of the veteran as opposed to an 
institutional setting.
    I think it is an interesting template for what I raised 
earlier. This spectrum of caregiving that is now growing 
dramatically in this country, that we ought to make sure that 
at least those three elements are part of any response to a 
caregiver's core or something like it.
    I hope that we look at this more seriously. The desperate 
situations that people face with infants, as well as aging 
parents, really call on us to be more mindful of this in the 
future.
    Secretary Acosta. Senator I have discretion over fees 
received from H-1B applications and we are directing those fees 
into three areas based on where the H-1Bs are being issued the 
most.
    One of those areas is healthcare. Not for physicians, not 
at the, what I will call the more expensive end of healthcare, 
but the more every day part of healthcare and education for 
individuals entering the profession. So, there is a need both 
on the workforce education side, and also on making sure that 
there are appropriate communications between those that can 
offer the skills and those that need the skills.
    Senator Durbin. Thank you sir.
    Secretary Acosta. Thank you.
    Senator Blunt [presiding]. Thank you Senator.
    Senator Baldwin.
    Senator Baldwin. Thank you Mr. Chairman.

              INDUSTRY RECOGNIZED APPRENTICESHIP PROGRAMS

    Secretary Acosta, on July 27 of last year the Department of 
Labor issued the Creating Industry Recognized Apprenticeship 
Programs to expand opportunity in America, often nicknamed the 
IRAP programs. It outlines the process that will allow trade 
associations and other nongovernmental entities to self-certify 
apprenticeship programs.
    In February of this year a number of my colleagues and I 
sent you a letter asking you to explain and show documentation 
for the department's rationale in the creation of the IRAP 
program. And recently I have had a number of compensations with 
Wisconsin stakeholders, who include business owners, and others 
who do not understand the departments move away from the 
registered apprenticeship system that they have used for years. 
They understand how to navigate the program, to comply with it, 
and it really has an 80-year track record of success in my home 
State of Wisconsin.
    So, can you provide this committee with any specific 
evidence that the proposed IRAP program model is needed? And 
also, how are the proposed IRAPs consistent with the National 
Apprenticeship Act provisions that state quote ``The Secretary 
of Labor is authorized and directed to formulate labor 
standards necessary to safeguard the welfare of apprentices''. 
In short where are the protections for apprentices in the IRAP 
system?
    Secretary Acosta. Senator, thank you for the question. 
First, let me dispel any notion that we are moving away from 
the Registered Apprenticeship Program, as this subcommittee and 
the full Senate and House appropriate dollars for Registered 
Apprenticeship Programs. Those dollars are dispersed to support 
Registered Apprenticeship Programs.
    So, we are not moving away from the registered program. We 
are setting up a parallel system primarily for those industries 
where Registered Apprenticeship Programs are not used. As you 
pointed out, there is an 80-year track record of these 
programs; these programs work well. The chairman and I, the 
chairman mentioned earlier, visited one in Missouri and I 
visited apprenticeship programs around the Nation that worked 
quite well and that have good results.
    We are not looking to take anything away from those, but 
there are industries that are not making use of that program 
and for those industries we are saying there is an alternative 
model, the industry recognized apprenticeship model.
    Now you asked how it is consistent with the act, and one 
way to sort of conceptualize this is in the education space. 
The Department of Education delegates accreditation authority 
to, for example, the American Bar Association or other national 
associations, that then look at law schools for example, and 
say this law school meets the appropriate standards.
    The concept of having third parties in essence, accredit 
and administer programs for particular industry, is not 
something that is new, but is something that is quite often 
used in the field of education, and workforce training is 
education.
    Senator Baldwin. Okay, I am going to cut you off there and 
I would like to continue this dialogue of how it is consistent 
with the act. But in terms of your statement and trying to 
reassure us that you are fully supportive still of registered 
apprenticeship, I wonder if you could explain why fiscal year 
2018 and 2019 funds have not been released to support 
registered apprenticeship; and what the department plans are 
going forward to rectify this situation. What is the deadline 
to spend fiscal year 2018 funds appropriated for apprenticeship 
training?
    Secretary Acosta. Senator, all the funds have been released 
with the exception of the funds that are going to the 
individual States. That particular portion of the funds is 
pending I believe at OMB (Office of Management and Budget) for 
final clearance and should be released fairly soon.
    Again, we are not, we are not trying in any way shape or 
form--we believe in apprenticeship programs. We are not trying 
to move away from this.
    Senator Baldwin. Okay, we are going to be tracking that 
closely because obviously we have heard concerns.

                         INFRASTRUCTURE PACKAGE

    On Tuesday the President agreed to begin work on a $2 
trillion infrastructure package. A few weeks ago, at the 
Building Trades Legislative Conference you said that 
infrastructure should, and will, include Davis-Bacon.
    Do you believe the President will support your position on 
Davis-Bacon, and have you spoken with the President about 
including Davis-Bacon in the infrastructure packet?
    Secretary Acosta. Senator this has been our position since 
last year's Senate hearing on infrastructure. Infrastructure 
will be bipartisan. That means infrastructure will include 
Davis-Bacon.
    Senator Baldwin. And has the President given you his 
commitment to include Davis-Bacon?
    Secretary Acosta. The President has not given--I have not 
spoken with the President about this in particular, but the 
White House is aware of this position and understands that 
apprenticeship--I am sorry that the infrastructure will be 
bipartisan.
    Senator Baldwin. And will include Davis-Bacon.
    Secretary Acosta. And will include Davis-Bacon.
    Senator Baldwin. All right. Thank you.

                CAREER PATHWAYS FOR HIGH SCHOOL STUDENTS

    Senator Blunt. Thank you Senator Baldwin.
    Mr. Secretary, I have four or five other things I would 
like to get on the record here before we make a determination 
about how we deal with the rest of this hearing.
    What can you do, what can we do, to work with the 
Department of Education to create a better sense in high school 
of the variety of paths that people have? The variety of career 
paths they have, and I am certainly not opposed to the focus on 
associate degrees and bachelor's degrees and graduate work.
    I think you and I have both seen a number of incidences 
now, where people get out of high school, they maybe do one 
semester of college and then kind of drift into various part-
time things that do not really lead them where they eventually 
figure out they need to be going.
    How can we get more information out there earlier?
    Secretary Acosta. Mr. Chairman I think this is incredibly 
important. I think one thing that matters, it is difficult to 
do from the Senate, but it is really a local issue is, how do 
counselors and high schools get rewarded. Do they get 
recognized solely based on how many of their students go to 
college? Or do they get recognized based on whether the maximum 
number of their students find a path forward to success?
    Because success can be very different things. Success can 
be a great welding job that can pay $60, $70, $80,000. I read 
an article last week about oil riggers that are making almost 
$200,000 a year; or success can be college. And that counselor 
is so critical early on.
    Senator Blunt. Well, I think that is right, in fact I told 
a group yesterday that maybe we ought to be evaluating high 
schools as opposed to how many people get into college, how 
many people 5 years after they are out of high school have a 
job that pays at least $60,000 a year. And obviously there is a 
window there that is not quite as quick as you have enrolled in 
college and the next fall, but it is a measurable window, and 
would be a much greater indication probably of whether people 
were prepared to where they eventually may wind-up headed in 
life; airplane mechanics, welders, electricians, all of those 
things.

   ELIMINATING EMPLOYMENT OBSTACLES FOR VETERANS AND MILITARY SPOUSES

    And on that topic, let's start with veterans and military 
spouses. What can we do to further encourage States to accept 
credential skills? Somebody for instance, in the military has 
been driving a truck for 3 years, it would seem to me that 
getting a commercial truck driving license should not be an 
obstacle; or if they have been an electrician or doing some 
kind of medical assistance work. Those kinds of things. We need 
to do a better job I think, transitioning them into what is now 
a very tight workforce where people are looking for people. 
What can we do to encourage eliminating needless obstacles 
there?
    Secretary Acosta. Mr. Chairman, I think you raise a very, 
very important point. Someone can be licensed to drive a truck 
in Falluja and literally not be licensed to drive a truck when 
they leave the military and come back to their home. States 
seem to have difficulty addressing this, these are often caught 
up in local issues and local politics.
    I think it would behoove this Congress to look at how it 
can encourage, should I say, States to really look at these 
licensing issues, their barriers to entry. I think of one State 
where a license to install fire alarms cost more than a license 
to be a practicing lawyer.
    And not only are they barriers to entry for individuals 
that are leaving the military and coming back home, but they 
are barriers for entry often for those who can least afford to 
pay these licenses.
    This is a real, real issue depending on studies, Federal 
Reserve estimates 1.5 million Americans are broke and 3 million 
Americans are not working because of licensing issues. They 
just decided we are not going to pursue this license.
    Senator Blunt. Now some States, and Missouri is one of 
those, is getting pretty aggressive in this area on the topic 
of military spouses, who of course, the strength of the 
military families and military spouses getting credentialed 
quickly when they move as the person who is serving is 
transferred to a new base.
    I think we had the first person sworn in immediately as a 
member of the Missouri Bar when one of the military spouses was 
sworn-in in January, and immediately was going to work as a 
lawyer. Something that in our State would not have happened 
before without substantial time being involved. And whether it 
is that or teaching, or healthcare provider, or whatever. I 
think that is another area that is fairly easy to open that 
door. Everybody understands why that door and the veteran's 
door should open.
    But it also seems to me in this kind of economy, States 
should want to compete with each other to see who can make it 
the easiest for skilled people to move to your State, and 
frankly, I hope my State leads the way on that.
    Secretary Acosta. Mr. Chairman, I have heard it said that 
we recruit an individual, but we retain a family in the 
military. Military spouses sacrifice a lot so that the service 
person can be in the military and defend us. And to ask them to 
choose between maintaining the integrity of the family unit, or 
their career I think, is just an inappropriate and wrong 
choice.
    Military spouses--the military service person has to move 
on orders typically every 2 years. And the military spouse then 
has to decide, do I move, or do I keep my career. And to have 
to relicense every time someone moves and wait to get that 
license and go through that process, and pay those fees, and 
that bureaucracy, seems wrong.
    So, some mechanism of recognition where if a spouse is 
temporarily in a State, that State recognizes the license in 
the home State, I think would be a wonderful idea, and 
something I am working with some governors to encourage States 
to adopt.
    Senator Blunt. I am glad to hear that. Senator Gillibrand 
and I worked on some legislation a couple of years ago where 
military families now have new capacity to either stay a little 
longer and have the family support where they are or leave a 
little earlier if they want to do that because of education or 
job. You know, if there is a month left in school, if there is 
a month left in a contract, if you need to get there a little 
earlier. I think that is working well.
    But this is an area where I think letting military spouses 
use the skills they have as soon as you possibly can once they 
move, makes a big difference in whether people continue to 
serve. Retaining families is a good way to look at that.

                               H-2B VISAS

    Let me ask a question about H-2B workers. Across the 
country and in Missouri in amusement parks, and hotels, and 
resorts, and tourism there is a particular need there. That 
number is much lower than the applications for those workers.
    In fiscal year 2019 the Department of Homeland Security 
Bill included a provision to allow for as many as 69,000 
additional visas with consultation with the Department of 
Labor. I think those visas are now going to be available, but I 
have not seen the rule yet. Does your department process that 
rule, and are you in the place to do that?
    Secretary Acosta. Mr. Chairman, we have processed the rule 
I believe that OMB has concluded review, and I believe 
publication should commence--should occur, shortly.
    Senator Blunt. If you find out anything differently than 
that, let me know.
    Senator Lankford.
    Senator Lankford. Mr. Chairman thank you very much.

              PROCEDURE FOR ISSUING SUBREGULATORY GUIDANCE

    Secretary, thank you for being here in conversation, I am 
ping-ponging both between votes and two other committees, so if 
you have already been asked this I apologize, but I wanted to 
be able to drill down on little bit.
    The Inspector General had looked at some of the guidance 
that is been done specifically by OSHA and it asked about 
procedures in place and if those procedures are working. They 
found that OSHA did not have a lot of procedures in place for 
issuing guidance, and the procedures they did have in place 
only 80 percent of the time they did not follow it. That is an 
issue.
    I am sure you have looked at this trying to be able to 
figure out where this goes from here, what is happening with 
just basic structural; when we put out guidance, how we can 
give some sort of certainty to companies that are out there. 
How they can get insight because they need a question answered. 
But do you still also need to know this could make consistent 
process, so some other company does not ask a question and they 
get hit.
    Secretary Acosta. Senator thank you for the question. Let 
me break it down into a few parts. The Inspector General, in 
fact, did look at the use of guidance, subregulatory guidance, 
guidance that does not undergo APA rulemaking process as by 
OSHA. So, this goes to a broader issue within the Department of 
Labor that also goes to the Wage and Hour Division and others 
that used subregulatory guidance for example to issue new 
interpretations for Joint Employer, and many other issues that 
fundamentally changed the department's approach.
    One of the problems with this is often this guidance is 
directives to the field and are not even published. So how is 
the employer to even know what is expected of them.
    In other areas, because it is not formal public guidance, 
the public does not have input and often the public does not 
have the opportunity to challenge these new, they are not 
technically rules, but they have the effect of rules, in court.
    And so, two things, first, we do not use subregulatory 
guidance in the same way. So, for example on the Joint Employer 
Rule, in the joint employer area we have chosen to go through 
full APA rulemaking, we believe that is the better approach. It 
allows the public input.
    Second, we are in the process of looking internally at how 
we can develop a rule, and apologies that this sounds so 
bureaucratic, but it is almost a rule on how to issue rules.
    Senator Lankford. Right. There is a process.
    Secretary Acosta. Yes, a process only in Washington, but it 
is important, because we need to check our own ability in my 
opinion, to impose restrictions on the American public that 
they do not even know about, or restrictions that do not fully 
accord with the law.
    So, we are developing our own internal mechanism that will 
look at all guidance documents and determine whether this is 
something that should appropriately be a guidance document, or 
whether this would require rulemaking.
    Senator Lankford. Okay. That is going to be on all 
entities, that is not just an OSHA issue. Though the Inspector 
General is looking at OSHA, you are talking about broadening 
that out to everyone to make sure everyone follows basic 
process.
    Secretary Acosta. That is right Senator. The Inspector 
General focused on OSHA, but I do not think that this is an 
issue that is limited to OSHA, and I think that this should be 
not an OSHA matter, but a department wide approach.
    Senator Lankford. So, can I ask a question, how does this 
get maintained long-term? This is a practice that you put in 
place. Ten years from now is that still a practice in place or 
is this something that we need to be able to speak to.
    Secretary Acosta. Well, certainly Congress can speak to 
whether or not subregulatory guidance should be used. Apart 
from that, the rulemaking process itself could set out 
standards by which something is not given effect if it does not 
undergo the APA process.

                          JOINT EMPLOYER RULE

    Senator Lankford. So, you mentioned the Joint Employer 
conversation going through the Administrative Procedures Act, 
and the journey through that. What is the status on that right 
now, and specifically what is your sense of how this will 
affect franchises?
    Secretary Acosta. Senator that is currently pending public 
comment. A notice of proposed rulemaking was issued. And what 
this does is two things, first it provides clarity. The Federal 
Courts of Appeals had so many different tests, it was very 
difficult for particularly national franchises, to know what 
they could and could not do because it might vary by circuit.
    So, what the interim rule does is it says, there is a 
plurality approach and the plurality approach is this. These 
are the factors that are considered. And we are proposing that 
these are the factors that be adopted, so that there is 
clarity, so that is predictability.
    It is also important, I read an interesting article with 
respect to franchises and it pointed out that franchises want 
to provide technical assistance for example, on sexual 
harassment policy, but they are concerned that doing so would 
make them a Joint Employer.
    This is important so that franchises can provide 
information to their franchisees on any number of issues that 
will help those franchisees operate, understanding that it is 
ultimately the franchisees choice whether to follow that are 
not.
    Senator Lankford. Right. Ultimately the franchise--who owns 
the franchise itself, has also responsibility to be able to 
protect their own trademark, protect their own name, and 
protect some semblance of quality in the process. Though the 
franchisees out there, the owners, that local entity, that is 
their best step to be able to get into owning a business rather 
than working at a business.
    So, whatever is done at this long process, I look forward 
to trying to protect the American dream. Quite frankly, as you 
have the opportunity to be able to do, allow people to move 
from ``I work here'' to ``I own here''.
    And that is through the franchise process often so, I 
appreciate and look forward to that being finalized.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Blunt. Thank you Senator Lankford, thank you 
Secretary Acosta.
    The record will stay open for one week for additional 
questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Roy Blunt
   workforce opportunity grants for appalachian and delta regions--a
    Question. The fiscal year 2018 and fiscal year 2019 LHHS bills each 
included $30 million for a new dislocated worker training initiative to 
provide reemployment and training assistance to workers in rural areas 
of the country hit hardest by the recession and recovering more slowly. 
During the hearing, Secretary Acosta, you said that the fiscal year 
2018 funding opportunity announcement is forthcoming for the new 
Workforce Opportunity for Rural Communities (WORC) grants for the DRA 
and ARC regions. The Committee looks forward to seeing the FOA and 
encourages the Department to ensure the fiscal year 2019 funds are 
obligated in a timely manner. You also said that transferring the funds 
directly to the DRA and ARC would have sped up the process for getting 
funds on the ground in these rural communities.
    Aside from transferring the funds directly to the DRA and ARC, what 
else should the Committee consider to ensure these funds are 
expeditiously obligated in future years?
    Answer. Earlier this year, ETA, DRA and ARC signed a Memorandum of 
Understanding (MOU), detailing our cooperative efforts and allowing for 
the transfer of technical assistance funds to support rural communities 
in the Appalachian and Delta regions. In developing the MOU and the 
initial funding opportunity announcement for the Workforce Opportunity 
for Rural Communities Grant Initiative, ETA, DRA, and ARC worked 
through a variety of questions that covered many foundational, 
logistical, and policy-related matters. Future funding opportunities 
will be more efficient as we build on these cooperative efforts. ETA, 
DRA, and ARC published the jointly drafted funding opportunity 
announcement on May 15, 2019, with a closing date of July 15, 2019.\1\ 
The funding will be awarded to entities in these regions based on the 
appropriations language included in the fiscal year 2018 appropriation. 
ETA, DRA, and ARC are all actively publicizing the grant opportunity 
with stakeholders through email distribution lists, website updates, 
social media, and webinars for potential applicants and plan to award 
grants by September 30, 2019. In addition, utilizing funds transferred 
through the MOU, ARC and DRA are providing in-person technical 
assistance and pre-application workshops to potential applicants.
---------------------------------------------------------------------------
    \1\ https://www.grants.gov/web/grants/search-
grants.html?keywords=Workforce%20
Opportunity%20for%20Rural%20Communities%20(WORC)%3A%20A%20Grant%20Initia
tive%20
for%20the%20Appalachian%20and%20Delta.
---------------------------------------------------------------------------
                     transition assistance program
    Question. The fiscal year 2019 National Defense Authorization Act 
requires reforms to the Transition Assistance Program and the budget 
request includes funding to begin implementation of the TAP reforms, 
with plans to expand DOL's role in future years.
    Please provide a detailed projection of the Department's long-term 
plan for implementation of these reforms and the range of resources 
that may be needed over the next 3 years to meet the Department's 
objectives?
    Answer. Transitioning service members are invaluable to American 
communities, bringing technical skills and leadership traits that job 
creators need. The Transition Assistance Program (TAP) for separating 
and retiring service members and their spouses, provided under 10 
U.S.C. 1144, helps to smooth the transition from active duty to 
civilian life. TAP is a cooperative effort among between the Department 
of Labor (the Department), the Department of Defense (DoD), the 
Department of Homeland Security, the Department of Veterans Affairs 
(VA), the Small Business Administration, and the Office of Personnel 
Management.
    The Veterans' Employment and Training Service (VETS) estimates that 
approximately 150,000 transitioning service members will attend the 
Department's Employment Workshops this year. President Trump signed 
H.R. 5515, the John S. McCain National Defense Authorization Act (NDAA) 
for fiscal year 2019, (Public Law 115-232), into law on August 13, 2018 
that included requirements to improve TAP.
    In fiscal year 2019, the Department is laying the groundwork to 
implement fiscal year 2019 NDAA requirements with a focus on improving 
outcomes, including providing one day of required instruction on 
employment preparation and two days of elective instruction on 
vocational training and employment preparation. VETS is updating and 
reformatting curricula accordingly. Beginning on June 24, 2019, the 
Department, will pilot the NDAA curricula at selected military 
installations.
    In fiscal year 2020, VETS will begin implementing required 
improvements, including career counseling, resume preparation, and job 
search assistance. These changes to TAP are designed to help 
transitioning service members make the best career choices available to 
them, taking into account individual skills and high-demand career 
fields. Better matching veterans to career opportunities prior to 
transition could reduce job turnover rates among recently-transitioned 
veterans. VETS receives data on transitioning service members from DoD. 
This growing database contains demographic information, highest 
education level achieved, military base geographic data, and a full 
list of all the courses each service member participated in during the 
transition process. This information, when matched with wage data, will 
allow the Department to better understand outcomes achieved.
    The Department is also developing a course curriculum specific to 
the employment needs of military spouses who are transitioning with 
their service member. The course curriculum will continue the 
Department's efforts to address obstacles present in a military 
spouse's career such as the complexities presented by State licensing 
and credentialing requirements associated with relocations across State 
lines. As an example, last year, the Department developed a military 
spouse web portal where military spouses can efficiently search for 
specific points of contact, guidelines, and State laws on professional 
licensing, including information on how occupational licenses from one 
State can be recognized in another. While developing the new course 
curriculum, VETS will evaluate delivery options with DoD to determine 
the most effective and efficient format, likely hybrid models that 
allow face-to-face programming and digital delivery.
    Over the next 3 years, VETS will continue to implement TAP 
improvements. The Administration will evaluate resources needs on an 
annual basis and provide estimates of that need in the VETS annual 
budget request.
                      h-2b visa application surges
    Question. Across the country, H-2B workers play a vital role in the 
timber industry, hospitality, and landscaping. In Missouri, H-2B 
workers are employed throughout the State at amusement parks, in 
hotels, and resorts supporting our robust tourism industry. This 
Committee has provided resources to help the Department process labor 
certifications in a timely manner.
    How have these resources been deployed to address the surge of H-2B 
applications?
    Answer. The Department received a $20 million transfer to reduce H-
2A and H-2B processing delays with funding made available in fiscal 
year 2017 and fiscal year 2018. However, since this transfer, 
application volumes across labor certification programs in the H-2A and 
H-2B program have continued to rapidly spike. The Department used the 
funding made available under the transfer to temporarily increase 
staffing for H-2 case processing, modernize technology supporting 
electronic filing and processing of H-2 applications, and increase 
grants to State Workforce Agencies (SWAs) to fulfill State-level 
activities required in the H-2 programs (e.g., posting job orders to 
recruit U.S. workers).
    In fiscal year 2017, the Department obligated $6.56 million of the 
$20 million transfer, with $5.14 million dedicated to increase the 
Department's staffing in support of H-2 case processing and $1.42 
million to provide additional grants to SWAs.
    In fiscal year 2018, the Department obligated the remaining $13.44 
million with funds allocated as follows: $7.37 million to increase 
staffing in support of H-2 case processing; $5.17 million to initiate 
development of a modernized information technology (IT) system to 
support electronic filing and processing of H-2 applications; and 
$900,000 to maintain the legacy IT system and enhance program integrity 
until the new system could be launched.
    For several years, the Department has requested the authority to 
collect and retain user fees to cover the full cost of operating 
Foreign Labor Certification programs. The ability to charge fees for 
these programs would give the Department a more reliable, workload-
based source of funding that would eventually eliminate the need for 
congressional appropriations. In addition to helping the Department 
handle the workload and limit potential backlogs during peak times, a 
fee would also discourage illegitimate employers from abusing the 
system and potentially depriving American workers of job opportunities 
as well as appropriately allocating financial responsibility for the 
program to the entities that utilize and benefit from the program.
    Question. What feedback has the Department received from 
stakeholders regarding efforts to prevent future surges of 
applications, such as the unprecedented volume of applications that 
crashed the iCERT system on January 1, 2019?
    Answer. As a result of stakeholder comments and the most recent 
filing period, in which the Department experienced a service disruption 
due to the large volume of system user requests, the Department's 
Office of Foreign Labor Certification (OFLC) reassessed its procedures 
for processing H-2B applications. On February 26, 2019, the Department 
announced updates to its standard procedures for processing H-2B labor 
certification applications. Because of the intense competition for H-2B 
visas in recent years, in concert with the limited number of H-2B visas 
permitted by Congress on a semi-annual basis, the Department's 
technology and available staff resources have been challenged to handle 
the increasingly large volume of H-2B applications filed on January 1 
of each year.
    Pursuant to the new procedures, all H-2B applications filed on or 
after July 3, 2019, will be randomly ordered for processing based on 
the date of filing and the start date of work requested. Those 
applications filed during the first three calendar days of the 
regulatory time period for filing H-2B applications, and requesting the 
earliest start date of work permitted under the semi-annual visa 
allocation (i.e., October 1 or April 1), will be randomly ordered and 
assigned for processing. Once first actions are issued on this initial 
group of filings, OFLC will randomly assign for processing all other 
applications filed on a single calendar day.
    As a result, the transition from a first-come, first-served basis 
to random ordering should devalue the motivation for applicants to 
submit their applications immediately after midnight on the first day 
of the filing period. These processing changes will create more 
fairness to all applicants when the difference in submission to the IT 
system could be only thousandths of a second, and accordingly, reduce 
the likelihood of a surge in filing.
                   impacts of 2015 ifr housing policy
    Question. The fiscal year 2019 Senate Report 115-289 directed the 
Department to provide a detailed report with an assessment of the 
impacts of the 2015 Interim Final Rule [IFR] housing policy in 
industries that require a mobile workforce. The Committee received the 
Department's report, however, the Department failed to provide any data 
regarding the impact of the policy.
    Please provide an analysis of the economic impact of the housing 
policy on the affected employers and workers, by industry, including 
the costs incurred by employers as a result of the housing policy.
    Answer. The Fair Labor Standards Act (FLSA) requires that wages be 
paid to employees, free and clear, and that employer deductions be 
reasonable. In accordance with the statute, deductions or costs 
incurred for facilities (including housing) that are primarily for the 
benefit or convenience of the employer are not considered reasonable 
under the FLSA and therefore may not be charged to the worker. The 
Department has long applied these FLSA principles to employers covered 
by the FLSA, including H-2B employers.
    Accordingly, this longstanding position was set forth in the 
Department's 2012 H-2B rulemaking (2012 Rule), predating the 2015 
Interim Final Rule (2015 Rule), and the Department responded to 
comments on this very issue.\2\ The preamble to the 2015 Rule simply 
reiterated that lodging for workers in industries requiring a mobile 
workforce is primarily for the H-2B employer's benefit and convenience, 
and therefore cannot be charged to the workers either directly or 
indirectly, to the extent it would reduce the worker's pay below the 
offered wage.
---------------------------------------------------------------------------
    \2\ See 77 Fed. Reg. 10038, 10067 (Feb. 21, 2012).
---------------------------------------------------------------------------
    As such, there was no change in policy in that the Department 
continued to apply longstanding FLSA principles in the 2015 Rule. 
Therefore, the Department did not quantify the economic impact on the 
H-2B program under the premise that no change created no impact.
    The Department, through its national and local outreach and 
compliance assistance efforts, regularly hears from stakeholders 
regarding the impact of Department's policies on its operations. The 
Department will continue to assess whether there are any other impacts 
of its mobile housing policy through these efforts.
                 job corps construction and renovation
    Question. Earlier this year, the Employment and Training 
Administration stated that there is an estimated $700 million in 
facilities maintenance projects at Job Corps centers. According to the 
fiscal year 2020 Congressional Budget Justification: ``Job Corps will 
prioritize its CRA funds to address the most critical issues, including 
leaking roofs that if not repaired result in facility damage and 
unhealthy living conditions; heating, ventilation, and air conditioning 
(HVAC) systems that no longer provide adequate air quality; emergency 
repairs that affect center operations; and environmental and Executive 
Order compliance matters.''
    How does the Department prioritize CRA projects?
    Answer. Facility surveys are conducted at each Job Corps center 
every 3 years to document the condition of the facilities, identify 
deficient conditions, and provide recommendations and cost estimates 
for correcting deficiencies. Each deficiency is classified based on its 
severity and its impact on the facility and the program, and 
categorized based on the affected building system.
    Each deficiency is initially scored based on the classification, 
category, and building type (e.g., dormitory, education). Those 
deficiencies that receive a higher score have higher priority for 
repair. Deficiencies classified as Life Safety and Health are funded 
soon after the facility survey, while the remaining deficiencies and 
resulting projects become candidates for future funding.
    Candidates for future funding are scored based on the operational 
impact, degree of degradation, impact to the building, remaining useful 
life, and programmatic impact. Deficiencies and projects are considered 
for funding to prioritize the safety of students and staff, address 
asset preservation, improve the facility condition index (FCI), and 
bring Job Corps facilities into compliance with program guidelines and 
overall Job Corps and Departmental priorities.
    Question. Please provide a breakdown by center and project type of 
the $700 million backlog of construction and renovation projects.
    Answer.

                                         JOB CORPS REPAIR BACKLOG BREAKDOWN BY PROJECT TYPE--AS OF MAY 14, 2019
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                               HVAC,        Other Rehab
                         Center                           Electrical and     Building        Interior      Plumbing, and        and        Total Repair
                                                            Fire Alarm       Envelope        Finishes       Mechanical     Miscellaneous      Backlog
--------------------------------------------------------------------------------------------------------------------------------------------------------
ALASKA..................................................        $505,207      $1,254,693        $372,229        $827,596        $483,214      $3,442,938
ALBUQUERQUE.............................................        $299,575        $939,151         $95,272      $1,556,770        $442,211      $3,332,979
ANACONDA................................................        $376,856        $736,953      $1,187,741        $582,668      $1,652,584      $4,536,802
ANGELL..................................................      $1,402,110        $242,305         $15,938        $592,722        $988,983      $3,242,059
ARECIBO.................................................        $717,053        $243,713        $366,491      $1,073,306      $1,308,975      $3,709,538
ATTERBURY...............................................        $973,713     $10,228,921      $6,094,485      $1,243,522      $1,140,217     $19,680,858
BAMBERG.................................................        $977,587        $261,297        $292,024        $591,790      $2,988,455      $5,111,154
BENJAMIN L. HOOKS.......................................      $1,350,005        $481,261        $103,164      $2,162,952      $1,427,348      $5,524,729
BLACKWELL...............................................         $93,889        $219,716        $296,708        $324,286        $970,504      $1,905,103
BLUE RIDGE..............................................        $118,491        $458,440        $483,806        $270,014        $266,448      $1,597,200
BOXELDER................................................        $781,050        $619,430        $228,594        $403,227      $1,490,988      $3,523,288
BRUNSWICK...............................................      $2,462,106        $735,189      $1,265,299      $5,432,312      $2,640,445     $12,535,350
CARL D. PERKINS.........................................        $207,484         $96,896          $7,436        $976,418        $913,701      $2,201,936
CARVILLE................................................      $1,027,061        $181,167         $79,428        $166,250        $356,334      $1,810,240
CASCADES................................................        $119,925      $1,412,884              $0        $401,241      $2,133,061      $4,067,111
CASS....................................................        $172,620      $1,034,922        $173,783        $233,301        $583,187      $2,197,813
CASSADAGA...............................................      $1,165,310      $1,011,140        $142,573      $2,184,245      $1,781,197      $6,284,465
CENTENNIAL..............................................         $27,746      $2,214,739        $492,788        $370,379         $92,376      $3,198,027
CHARLESTON..............................................         $97,356        $764,096         $64,617      $1,233,686        $471,159      $2,630,914
CINCINNATI..............................................          $7,117         $42,579         $49,647        $527,750      $7,741,649      $8,368,741
CLEARFIELD..............................................        $584,232     $27,225,090        $520,083      $6,725,764        $777,815     $35,832,983
CLEVELAND...............................................          $2,009          $6,042            $619         $13,168         $76,375         $98,213
COLLBRAN................................................         $54,752         $30,042        $213,617        $142,841      $5,709,388      $6,150,640
COLUMBIA BASIN..........................................         $81,723      $1,753,665        $391,991      $1,450,577      $1,365,946      $5,043,902
CURLEW..................................................        $557,851        $276,485      $1,922,510      $1,338,366        $350,528      $4,445,740
DAVID L. CARRASCO.......................................        $204,177        $156,272        $405,999        $511,044         $88,092      $1,365,585
DAYTON..................................................      $2,144,277      $1,656,731      $1,333,410      $1,941,567      $8,349,008     $15,424,993
DELAWARE  VALLEY........................................        $307,957      $2,724,002        $574,329        $132,824      $5,827,567      $9,566,679
DENISON.................................................         $12,652      $1,813,271         $42,466      $1,030,083        $912,079      $3,810,551
DETROIT.................................................          $1,642         $79,323          $1,300         $38,003      $1,100,310      $1,220,578
EARLE C. CLEMENTS.......................................      $1,761,537      $3,782,991      $2,529,900        $538,815      $3,731,852     $12,345,095
EDISON..................................................      $2,338,661        $184,887      $3,430,921      $6,980,784      $6,131,187     $19,066,440
EXCELSIOR SPRINGS.......................................        $292,888      $1,970,541        $211,645        $871,812        $362,665      $3,709,551
EXETER..................................................         $18,680         $18,235         $37,134        $103,279              $0        $177,328
FINCH-HENRY.............................................         $51,390        $107,483         $96,702        $253,472      $2,366,617      $2,875,664
FLATWOODS...............................................        $779,556        $410,876      $1,337,632      $1,068,830        $244,311      $3,841,204
FLINT HILLS.............................................      $2,054,804         $27,250         $11,344      $1,007,800        $310,400      $3,411,599
FLINT/GENESEE...........................................        $250,739         $29,982        $736,405      $2,044,369      $1,116,644      $4,178,139
FORT SIMCOE.............................................        $195,077         $46,376          $7,800        $629,685         $45,864        $924,802
FRED ACOSTA.............................................        $205,086      $1,726,960        $156,648        $610,351      $1,636,513      $4,335,558
FRENCHBURG..............................................        $384,783        $948,694          $9,299        $700,615        $399,824      $2,443,215
GADSDEN.................................................        $441,115      $1,133,859        $133,643         $94,222        $229,958      $2,032,798
GARY....................................................        $609,488      $2,744,704      $1,451,923      $4,184,037     $14,231,175     $23,221,327
GERALD R. FORD..........................................          $9,957        $113,920              $0         $43,999        $214,733        $382,609
GLENMONT................................................      $1,384,802      $1,766,469        $714,206      $2,248,870        $753,246      $6,867,592
GRAFTON.................................................      $1,053,737      $3,693,675        $136,805     $10,862,412      $3,153,902     $18,900,531
GREAT ONYX..............................................        $178,628        $202,142      $1,203,864        $258,967        $106,041      $1,949,641
GULFPORT................................................        $789,113      $2,595,386      $1,421,977      $8,340,931        $748,222     $13,895,629
GUTHRIE.................................................      $1,244,747        $411,497        $255,866        $994,633        $618,857      $3,525,600
HARPERS FERRY...........................................        $296,666        $751,737         $70,306        $247,909      $2,754,417      $4,121,035
HARTFORD................................................         $16,211              $0        $163,157         $50,332        $940,551      $1,170,251
HAWAII..................................................        $580,931      $1,445,679        $108,361        $265,067        $192,025      $2,592,063
HAWAII/MAUI.............................................        $519,124        $676,853        $552,111        $113,195        $451,593      $2,312,876
HUBERT H  HUMPHREY......................................        $488,751      $1,109,703         $16,687      $3,022,337      $1,348,301      $5,985,779
INLAND EMPIRE...........................................        $577,403      $1,721,383        $251,804        $589,691        $852,086      $3,992,367
IROQUOIS................................................        $219,918        $390,163          $8,885        $796,556        $561,874      $1,977,396
JACKSONVILLE............................................        $579,606        $262,577         $62,367      $1,299,822        $435,516      $2,639,888
JACOBS CREEK............................................      $1,045,463        $506,280        $348,920        $711,259        $836,604      $3,448,527
JOLIET..................................................      $5,828,003      $7,773,687        $353,120      $4,766,682      $9,288,844     $28,010,336
KEYSTONE................................................        $184,642      $1,535,844        $135,071      $1,539,998      $2,657,644      $6,053,199
KICKING HORSE...........................................        $440,682        $153,922         $21,330        $455,517        $741,072      $1,812,522
KITTRELL................................................      $1,188,951        $552,410        $678,530        $745,472        $553,543      $3,718,905
LAREDO..................................................        $277,438      $1,640,533         $57,420        $582,769      $1,133,813      $3,691,974
LITTLE ROCK.............................................        $309,948              $0          $1,059        $250,649      $1,029,149      $1,590,804
LONG BEACH..............................................        $941,709      $1,309,042        $106,922        $308,043         $65,076      $2,730,792
LORING..................................................        $550,811      $1,752,410      $1,059,063     $11,547,828      $2,312,674     $17,222,786
LOS ANGELES.............................................        $259,538         $36,063         $14,219        $664,224        $391,917      $1,365,960
LYNDON B.  JOHNSON......................................        $435,177        $526,542        $284,416        $468,125        $315,788      $2,030,049
MIAMI...................................................        $197,762        $473,301         $42,582        $677,004        $474,367      $1,865,016
MILWAUKEE...............................................            $201            $122              $0          $2,900            $242          $3,465
MINGO...................................................        $388,490        $349,781        $686,433        $499,874      $1,204,577      $3,129,155
MISSISSIPPI.............................................      $1,196,785      $1,399,786        $207,410      $2,449,507        $279,073      $5,532,560
MONTGOMERY..............................................          $7,962      $1,820,518        $391,727        $658,163        $211,664      $3,090,034
MUHLENBERG..............................................        $259,720        $545,456      $1,333,441         $84,702      $2,046,072      $4,269,390
NEW HAMPSHIRE...........................................        $196,708      $1,629,172              $0        $386,035         $68,084      $2,280,000
NEW HAVEN...............................................         $32,207        $141,756        $437,210        $606,771        $313,959      $1,531,903
NEW ORLEANS.............................................         $35,149         $23,796          $1,579         $22,120         $29,933        $112,577
NORTH TEXAS.............................................      $2,869,337      $2,993,026        $256,396        $633,113      $1,248,097      $7,999,970
NORTHLANDS..............................................         $39,229        $399,820        $293,862      $1,105,036      $3,496,773      $5,334,720
OCONALUFTEE.............................................        $455,828        $829,774         $50,759        $297,689        $190,824      $1,824,874
OLD DOMINION............................................         $64,296      $3,586,475        $253,810        $275,823        $231,878      $4,412,281
ONEONTA.................................................      $1,559,691      $1,084,330      $1,693,835      $2,103,104      $2,376,763      $8,817,723
OTTUMWA.................................................              $0              $0              $0          $4,645          $5,458         $10,103
PAUL SIMON..............................................        $183,963        $136,914         $48,856        $899,642        $206,792      $1,476,166
PENOBSCOT...............................................        $123,974        $631,106        $108,143        $344,018        $260,995      $1,468,236
PHILADELPHIA............................................          $6,776          $8,301         $32,735         $16,220         $14,715         $78,746
PHOENIX.................................................        $590,472      $2,771,873        $510,281        $429,704        $533,552      $4,835,882
PINE KNOT...............................................         $52,263        $260,516        $216,289      $1,012,482      $1,138,158      $2,679,707
PINE RIDGE..............................................        $348,528        $379,333         $94,181        $599,631        $483,733      $1,905,405
PINELLAS COUNTY.........................................         $61,248         $21,812              $0         $27,658         $60,843        $171,560
PITTSBURGH..............................................        $256,448      $1,403,877        $661,790      $9,535,700        $958,794     $12,816,609
POTOMAC.................................................      $1,096,858      $2,188,884      $1,485,593      $3,025,755      $1,526,352      $9,323,443
QUENTIN  BURDICK........................................        $102,117      $2,508,720         $34,720        $274,336        $112,087      $3,031,981
RAMEY...................................................          $2,616        $173,046        $892,820      $1,671,770      $3,375,624      $6,115,875
RED ROCK................................................        $313,753        $785,433        $316,917      $2,866,358      $2,154,073      $6,436,534
ROSWELL.................................................      $1,544,558      $1,966,771        $516,366      $4,098,531      $1,131,979      $9,258,205
SACRAMENTO..............................................        $479,918      $2,407,551         $22,367        $569,073        $356,732      $3,835,641
SAN DIEGO...............................................      $1,671,428      $1,279,605      $3,077,565      $1,374,783      $1,022,549      $8,425,930
SAN JOSE................................................        $280,480      $2,314,607        $162,185      $1,159,465        $139,857      $4,056,594
SARGENT  SHRIVER........................................        $290,166      $2,592,874        $166,062        $782,641        $230,264      $4,062,007
SCHENCK.................................................        $521,477        $411,901        $359,924      $2,023,464        $452,089      $3,768,854
SHREVEPORT..............................................      $3,564,634      $5,888,064        $580,520      $2,961,211      $1,024,581     $14,019,011
SIERRA NEVADA...........................................        $226,635        $551,463         $68,281      $2,951,308      $2,227,334      $6,025,020
SOUTH BRONX.............................................      $1,328,741        $959,613        $846,261     $10,387,119      $4,401,634     $17,923,367
SPRINGDALE..............................................      $1,125,713        $473,586        $273,045        $363,132        $601,821      $2,837,297
ST LOUIS................................................        $982,696        $493,722     $11,924,959        $303,430      $1,363,770     $15,068,576
TALKING LEAVES..........................................        $554,057        $204,858         $89,315        $144,344        $673,147      $1,665,721
TIMBER LAKE.............................................        $593,792        $749,327        $202,692      $1,935,872        $602,572      $4,084,255
TONGUE POINT............................................        $361,156        $724,251     $12,020,144      $2,941,892        $628,280     $16,675,723
TRAPPER CREEK...........................................         $82,435         $16,392          $6,136        $460,748        $668,545      $1,234,256
TREASURE ISLAND.........................................      $1,213,377      $2,293,261      $5,740,365      $1,656,315     $16,273,694     $27,177,013
TULSA...................................................        $316,318        $171,525              $0      $2,333,195        $125,816      $2,946,854
TURNER..................................................      $4,385,492      $3,360,190        $628,117      $6,712,792      $6,334,748     $21,421,340
WEBER BASIN.............................................        $189,208      $1,628,485        $634,073        $529,972      $1,172,787      $4,154,525
WESTOVER................................................      $1,543,339      $5,090,633        $320,108      $2,339,452      $9,742,914     $19,036,445
WHITNEY M. YOUNG........................................        $137,543        $356,501        $315,163      $1,148,088        $506,864      $2,464,158
WILMINGTON..............................................            $996          $1,477              $0            $259         $10,498         $13,230
WIND RIVER..............................................         $45,749          $9,447          $3,334         $16,018          $1,107         $75,655
WOLF CREEK..............................................        $509,238        $268,743         $26,870        $415,842      $1,969,381      $3,190,074
WOODLAND................................................        $493,440        $237,362        $618,740        $126,987      $3,259,511      $4,736,041
WOODSTOCK...............................................        $672,366        $801,846        $459,234      $3,243,436      $4,547,722      $9,724,604
                                                         -----------------------------------------------------------------------------------------------
                                                             $79,575,023    $164,920,154     $84,580,918    $191,549,404    $200,653,027    $714,847,251
--------------------------------------------------------------------------------------------------------------------------------------------------------

                         job corps procurement
    Question. In response to a question for the record submitted in 
June 2017 regarding short-term contracts and the impact on staff 
turnover, the Department indicated it had reduced the backlog with 
intentions to address the remaining 13 contracts by June 2018.
    What is the status of the procurement backlog?
    Answer. The procurement backlog was completely eliminated in 2018.
    Question. Since June 2017, how many short-term contracts have been 
awarded, including bridge contracts, sole sources awards, or indefinite 
delivery/indefinite quantity (IDIQ) contingency awards? Please provide 
the number of each type of contract.
    Answer. Since June 2017, ETA has awarded six short-term IDIQ Task 
Orders and 14 short-term sole source/bridge contracts for Job Corps 
center operations.
    Question. What is the Department's rationale for the issuance of 
IDIQ contracts, as opposed to short-term noncompetitive bridge 
contracts?
    Answer. The Department's goal is to comply with the Competition in 
Contracting Act of 1984 by maximizing competition to the fullest extent 
practicable. The Department has worked to minimize the use of short-
term ``noncompetitive'' bridge contracts by competitively awarding 12 
IDIQ contracts in late 2016 that could, in turn, be used to compete 
short-term task orders during exigency situations.
    Question. Have IDIQ contracts ever been awarded at a lower funding 
level than the incumbent operator's contract and, if so, how does the 
Department ensure such funding reductions do not negatively impact 
student outcomes?
    Answer. An Independent Government Cost Estimate is always developed 
for the short-term period of performance of any proposed task order. A 
competitive short-term task order (issued against the contractor's IDIQ 
contract) is then awarded to the offeror, whose proposal represents the 
best overall value to the government after considering all price/cost 
and non-price/cost related factors. Prior to award, offerors' cost 
proposals are evaluated to ensure that their proposed costs are 
realistic for the work to be performed and do not present a risk to 
performance that would negatively impact student outcomes.
                         compliance initiatives
    Question. The Department has launched several compliance-related 
initiatives, including the establishment of new websites and an Office 
of Compliance Initiatives.
    How is the Department measuring the return on these investments and 
the economic impact?
    Answer. The Office of Compliance Initiatives (OCI) is fulfilling 
its mission of collaborating and partnering with DOL agencies to 
protect the wages, safety and health, health benefits, retirement 
security, and union democracy for American workers. OCI's four 
strategic goals include (1) enhancing and expanding stakeholder 
outreach and engagement; (2) identifying and implementing innovative 
best practices to link with enforcement strategies; (3) fostering and 
institutionalizing a culture of compliance assistance as a complement 
to enforcement; and (4) conducting data analysis and developing 
behavioral insights to facilitate compliance. This effort builds upon 
and creates opportunities for the important compliance work DOL 
agencies have accomplished to date.
    DOL agencies track a number of compliance assistance measures and 
outputs. OCI is coordinating with DOL agencies to refine their metrics 
to ensure the efficacy of DOL's compliance assistance activities.
    Question. Since launching the compliance initiatives what have been 
the outcomes for workers, employers, and perhaps even the economy?
    Answer. Since OCI launched in August 2018, DOL agencies have rolled 
out, expanded, or enhanced their compliance assistance offerings. These 
tools and resources run the gamut and include Office of Federal 
Contract Compliance Programs' (OFCCP) ombud \3\ service for external 
stakeholders to share concerns and provide feedback and recommendations 
to improve the administration of the agency, and Wage and Hour 
Division's animated videos to facilitate compliance with the Fair Labor 
Standards Act (FLSA). For example, Employer.gov and Worker.gov are new 
companion tools to DOL's existing Employment Laws Assistance for 
Workers and Small Businesses (elaws) Advisors tool. The three tools 
serve the needs of different types of users seeking assistance 
navigating various Federal employment laws. Collectively, Employer.gov 
and Worker.gov received over 140 thousand page views since OCI's 
inception. Elaws Advisors were viewed over six million times since 
OCI's launch.
---------------------------------------------------------------------------
    \3\ https://www.dol.gov/ofccp/regs/compliance/directives/Dir2018-
09-ESQA508c.pdf.
---------------------------------------------------------------------------
    A number of DOL agencies have introduced voluntary compliance 
programs designed to educate employers and workers about their 
obligations and rights under the laws DOL administers. For example, 
Wage and Hour Division's Payroll Audit Independent Determination (PAID) 
pilot program facilitates resolution of potential overtime and minimum 
wage violations under the FLSA. The primary goals of the PAID program 
are identifying and correcting non-compliant practices so employees 
receive 100 percent of their back wages due in a fraction of time of a 
typical investigation. To that end, the PAID program requires employers 
to review their pay practices, accept compliance assistance, and 
correct the practices that led to the errors. This is a win for 
employees, a win for employers, and a win for taxpayers.
    Another example is the OFCCP's Voluntary Enterprise-wide Review 
Program (VERP). This program is designed to enable OFCCP to blend its 
compliance evaluation and compliance assistance activities to work with 
high-performing contractors toward a mutual goal of sustained, 
enterprise-wide compliance, outside of OFCCP's neutral establishment-
based scheduling process. VERP will provide meaningful cost-saving 
compliance incentives to Federal contractor participants and a path for 
companies who are close to excellence but want individualized 
compliance assistance from OFCCP to reach the top level. This will 
allow DOL to focus its enforcement resources on willful violators and 
other bad actors. VERP is in development consistent with the VERP 
Directive issued on February 13, 2019.
    WHD and OFCCP will evaluate the effectiveness of these pilot 
programs, including their impact on enforcement activity, before 
determining next steps, including whether any changes to the programs 
are warranted.
                               youthbuild
    Question. The YouthBuild program has more than 200 sites in 46 
States, and the program experiences strong bipartisan support. The 
fiscal year 2020 budget request notes YouthBuild program's pre-
apprenticeship component and efforts to expand training to include 
locally in-demand industries, known as the Construction Plus model.
    To better understand this trend, please provide data for 2016, 
2017, and 2018 outlining how many grant applications were submitted to 
the Department, the percentage of applications for Construction Plus 
models, and the percentage of awards granted for Construction Plus 
models. Please also include the percentage of rural applicants and 
awardees for 2016, 2017, and 2018.
    Answer. YouthBuild applicants responded positively to the 
Department's focus on local in-demand industries. For the fiscal year 
2018 YouthBuild competition, the Department reviewed 204 applications. 
Of those applications, 158 applications (78 percent) were Construction 
Plus models. Of the 81 awards in 2018, 65 applications (80 percent) 
were Construction Plus models. A total of 38 applications received in 
fiscal year 2018 were from rural applicants, which resulted in 21 rural 
awards (26 percent of all YouthBuild awards). The Department reviewed 
173 applications in 2016 and 186 applications in 2017. Additional 
information regarding fiscal year 2016 and fiscal year 2017 applicants 
will take additional time to gather and report. The Department would be 
happy to follow up with your staff later this summer with that 
information.
                                 ______
                                 
            Questions Submitted by Senator Cindy Hyde-Smith
     workforce opportunity grants for appalachian and delta regions
    Question. It is important we continue to make investments in our 
workforce by supporting special skills training for individuals to fill 
vacant jobs in rural communities. I am pleased that Congress has 
provided funding to assist with career and training services for our 
rural workforce. I understand the Department has been working closely 
with Delta Regional Authority and Appalachian Regional Commission to 
develop a grant program around this initiative.
    Please provide the Committee an update on these efforts. What is 
the Department doing to boost community engagement and awareness of 
this grant program?
    Answer. The Department's Employment and Training Administration 
(ETA) continues to work collaboratively with the Delta Regional 
Authority (DRA) and Appalachian Regional Commission (ARC) to develop 
funding opportunities for entities in these regions. ETA, ARC, and DRA 
signed a Memorandum of Understanding (MOU) detailing our cooperative 
efforts and allowing for the transfer of technical assistance funds to 
support those efforts. The agencies published a jointly-drafted Funding 
Opportunity Announcement titled, ``Workforce Opportunity for Rural 
Communities (WORC): A Grant Initiative for the Appalachian and Delta 
Regions'' on May 15, 2019, with a closing date of July 15, 2019, and 
plan to award grants by September 30, 2019.\4\ The funding is required 
to be awarded to entities in these regions based on the appropriations 
language included in the fiscal year 2018 appropriation. ETA, DRA and 
ARC are all actively publicizing the grant opportunity with 
stakeholders through email distribution lists, website updates, social 
media, and webinars for potential applicants and plan to award grants 
by September 30, 2019. In addition, with funds transferred to ARC and 
DRA through the MOU, ARC and DRA are providing in-person technical 
assistance and pre-application workshops to potential applicants.
---------------------------------------------------------------------------
    \4\ https://www.grants.gov/web/grants/search-
grants.html?keywords=Workforce%20
Opportunity%20for%20Rural%20Communities%20(WORC)%3A%20A%20Grant%20Initia
tive%20for%20the%20Appalachian%20and%20Delta.
---------------------------------------------------------------------------
                        gulfport job corp center
    Question. The Department has been working to rebuild the Gulfport 
Job Corps Center for many, many years. The rebuilding of this Center 
was important to my predecessor, and I will continue to work toward its 
completion to benefit my constituents in South Mississippi. I commend 
the Department for prioritizing this project in recent years and 
appreciate the monthly progress updates. I understand the Department 
has been working on the design phase since September 2018, and the 
design completion date is expected in April 2020.
    Please explain to the Committee why the design phase is so lengthy.
    Answer. The design phase for a project of this magnitude and 
technical complexity can typically take 1 year. However, the design 
phase for this project was extended to approximately 18 months due to 
the historic preservation process and the resulting Memorandum of 
Agreement (MOA) signed by the Department and the Advisory Council on 
Historic Preservation, to which the City of Gulfport is an invited 
signatory. Significant public review and involvement is required by the 
MOA at two major design phases, and the periods of time allowed for 
public comment and potential implementation for resulting modifications 
to the design is approximately four to 6 months. These additional 
review periods account for the difference in time between the typical 
design period and the design period for this project.
    Question. How long do you expect the construction phase will be? 
Should my constituents expect a prolonged construction process?
    Answer. The construction phase is expected to take approximately 19 
months. Technical complications related to temporarily supporting the 
existing facfade during demolition and then permanently attaching the 
facfade to the new buildings lengthen the typical construction period 
by at least 6 months.
                    h-2a and h-b visa filing systems
    Question. The H-2A and H-2B seasonal worker programs are vital for 
the success of many American farmers and business owners. My 
constituents rely on the timely processing of seasonal worker 
applications. Failure to fill the positions often result in shortened 
seasons, cancelled contracts, and even closed businesses. Over a number 
of years, the Appropriations Committee has invested significant funding 
to upgrade the Department's processing system. However, the filing 
system experienced technical issues this January during peak filing 
season.
    What is the Department doing to correct ongoing technical issues 
and ensure the timely processing of applications?
    Answer. Under the leadership of the Office of the Chief Information 
Officer, the Department is well underway with efforts to implement a 
new electronic filing and case management system that will replace the 
legacy iCERT System. This modernized solution--the Foreign Labor 
Application Gateway System (FLAG)--leverages proven enterprise, cloud-
based technology that can quickly scale up or down to meet peak filing 
demands. Both the H-2A and H-2B programs have been a primary focus in 
the rollout of the FLAG System (https://flag.dol.gov), which will 
foster efficiencies in the processing of employer applications and 
create a streamlined user experience. In addition, the Department is 
working to upgrade and eliminate legacy technology infrastructure by 
modernizing functions that currently rely on outdated technologies to 
create processing efficiencies, reduce maintenance costs, and minimize 
security risks. In June 2019, the Department implemented the FLAG 
System for employers seeking temporary labor certification to employ H-
2B workers beginning in fiscal year 2020, with further staggered 
rollouts for other temporary programs, including H-2A, through the end 
of calendar year 2019.
    Furthermore, the Department has taken rapid action on occasions 
where technical issues have been encountered, such as in January 2019. 
On January 1, 2019, the volume of users who accessed the system to file 
an H-2B temporary labor certification was thirty times the number of 
users that accessed the system on January 1, 2018, overwhelming the 
system and triggering a multi-day service disruption in the iCERT 
system. In response to the system disruption, the Department 
immediately assembled a team to expeditiously restore service. Once 
service was restored on January 7, 2019, the Department processed all 
applications based on the date and time received into the system, in 
accordance with H-2B processing procedures in effect at that time, as 
announced on June 1, 2018. The Department's goal is to issue H-2B 
temporary labor certifications covering enough jobs to fill the semi-
annual cap as efficiently as possible. Despite the delays caused by the 
technical issues and service disruption, the Department was still able 
to issue certifications for enough worker positions to fill the second 
half of the fiscal year 2019 visa cap by February 12, which represents 
a 9-day reduction in processing time over the same mark for fiscal year 
2018. As a result, employers received certifications with ample time to 
complete the remainder of the H-2B visa process and have their H-2B 
workers available on their requested start date of need.
    Question. What can Congress and the Department do to facilitate a 
less complex and more efficient and effective seasonal worker system?
    Answer. Congress can best facilitate a more efficient and effective 
system by supporting the Administration's two legislative proposals in 
the fiscal year 2020 Budget, which would establish cost-based fees for 
employers filing Foreign Labor Certification (FLC) applications and 
increase the existing American Competitiveness and Workforce 
Improvement Act (ACWIA) fee collected by the Department of Homeland 
Security for H-1B applications. These proposals would link the supply 
of FLC case processing resources to the demand for labor 
certifications, reduce the risk of processing delays, enhance fraud 
protection, and eventually eliminate the need for FLC appropriations.
          water industry registered apprenticeship programs--b
    Question. Water and wastewater utilities are important to the 
economic development and health of our rural communities. With the 
current workforce nearing retirement, skilled workers are vital to 
maintaining our water infrastructure, especially in rural areas. I have 
heard from constituents who are concerned with the lack of skilled 
labor to meet the needs of the industry.
    What is the Department doing to support industry Registered 
Apprenticeship Programs (RAPs) that support this water utilities need, 
especially in rural areas?
    Answer. The Department is committed to expanding apprenticeship 
opportunities across a broad range of sectors and occupations, 
particularly in those industries where a shortage of skilled workers 
threatens the long-term safety and economic growth of rural 
communities. Over the next decade, the water sector is expected to lose 
between 30 to 50 percent \5\ of its workforce to retirement. The 
establishment and growth of quality apprenticeship programs in the 
water and wastewater utilities industries can provide an effective 
workforce strategy for addressing the emerging skills gap in these 
critical fields.
---------------------------------------------------------------------------
    \5\ GAO Report 18-102, ``Water and Wastewater Workforce: Recruiting 
Approaches Helped Industry Hire Operators, but Additional EPA Guidance 
Could Help Identify Future Needs,'' 
January 2018, p. 17.
---------------------------------------------------------------------------
    Through its National Guidelines Standards of apprenticeship, the 
Department has assisted stakeholders and industry associations in 
developing nationally-recognized education and training standards for 
specific water utility occupations. On November 14, 2017, at a signing 
ceremony at the Department's headquarters in Washington, D.C., the 
National Rural Water Association (NRWA) formally announced an 
apprenticeship program for rural water utilities (the ``WaterPro 
Apprenticeship Program'') with the Department's Office of 
Apprenticeship (OA). Bulletin 2017-47 publicized the WaterPro 
apprenticeship program, which establishes a set of National Guideline 
Standards of apprenticeship that are tailored to the specific 
occupational requirements of water systems operations specialists and 
wastewater system operations specialists. As a leading provider of 
training for rural water and wastewater systems, NRWA is currently 
collaborating with State and local leaders to accelerate the 
development of RAPs covering these critical occupations.
    At present, a total of 17 NRWA state affiliates have successful 
RAPs that conform to these NRWA National Guideline Standards, and 
registration applications from NRWA affiliates in 12 additional states 
are currently in process. Nationally, 140 active apprentices are 
enrolled in the NRWA-sponsored apprenticeship program. Local NRWA-
affiliated program sponsors include Pentair, Inc. (based in Aurora, 
Illinois) and the West Virginia American Water Joint Apprenticeship and 
Training Committee (based in Charleston, West Virginia). The 
groundbreaking NRWA RAPs directly address the concerns raised by GAO 
Report 18-102 (January 2018) about the current and growing nationwide 
shortage of well-trained drinking water and wastewater management 
professionals. For more information concerning the NRWA national 
apprenticeship program, please visit the following links:
  --https://nrwa.org/initiatives/apprenticeship-program
  --https://nrwa.org/2017/11/nrwa-partners-with-department-of-labor-on-
        apprenticeship-program/
    In the fall of 2018, the U.S. Department of Agriculture (USDA) 
awarded a $6 million grant to the NRWA for further development of its 
national apprenticeship program. With this new funding from USDA, NRWA 
will have additional means to help States develop RAPs for water and 
wastewater system operations specialists.
    In addition, in May 2019, the Department released a funding 
opportunity through the Apprenticeship Expansion and Modernization Fund 
to support the development of innovative tools and strategies that, 
while relatively untested, hold promise to transform Registered 
Apprenticeship and support the expansion of RAPs throughout the Nation. 
This opportunity allows applicants to propose innovative projects that 
best meet the specific challenges and needs in their area, their 
industry, or the local population. Vendor proposals are in development 
and may include projects that support workforce development in rural 
areas.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                    most hazardous workplace hazards
    Question. You highlighted in your testimony the 32,000 inspections 
conducted by OSHA. However, you failed to acknowledge that within this 
level OSHA has shifted its enforcement priorities away from those that 
OSHA acknowledges are ``resource-intensive enforcement activity . . . 
focused on some of the most hazardous work place hazards.'' Ergonomics 
is one of those hazards, yet such inspections have dropped by almost 70 
percent over the past 2 years, even though musculoskeletal disorders 
are a leading work-related illness reported by the Bureau of Labor 
Statistics.
    Why has OSHA reduced inspections of the most hazardous workplace 
hazards?
    Answer. Ergonomic inspections are primarily based on complaints, 
and vary from year to year. While the number of ergonomic related 
inspections has declined over the last 5 years, OSHA believes that 
number will increase as a result of its Site Specific Targeting Program 
(SST), which was launched in the first quarter of fiscal year 2018. 
Under SST, OSHA uses employer provided injury and illness data to 
direct enforcement resources to those workplaces with the highest rates 
of injury and illness. With more than one third of the non-fatal 
incidents reported by the Bureau of Labor Statistics related to 
ergonomics, OSHA expects the SST to find more ergonomic violations.
                  federal enforcement staffing levels
    Question. Mr. Secretary, OSHA's Federal Enforcement staffing level 
is down by 191, or 13 percent, since 2016. I understand some hiring 
actions are in process, but OSHA needs to do more to get its staffing 
up and quickly. Please provide an update on OSHA's actions to hire, 
train, and deploy compliance safety and health officers.
    What is OSHA's plan for maintaining its enforcement workforce and 
ensuring that vacancies are filled in a timely way?
    Answer. The Occupational Safety and Health Administration (OSHA) 
has taken several steps to increase its Federal Enforcement staffing 
levels. Beginning in 2017, the agency received approval to fill all 
funded Compliance Safety and Health Officers (CSHO) positions. All 
vacancies are being recruited for, and OSHA is in the process of on-
boarding the inspectors. The agency begins the recruitment process as 
soon as a vacancy occurs, or an upcoming retirement is announced. OSHA 
advertises and recruits individuals to fill all current vacancies, and 
the new inspectors then begin the on-boarding process. The recruitment 
and on-boarding process can take from three to 6 months, which includes 
the time necessary for advertisement, application, screening and 
interviews, and completing the required clearance of applicants under 
consideration, such as security and CSHO physicals. OSHA has also begun 
recruiting for a larger number of positions than available vacancies to 
ensure there is a continuous pool of CSHO applicants for selection when 
future vacancies occur.
                           workplace violence
    Question. It's been more than 3 years since the Government 
Accountability Office (GAO) made recommendations that would help reduce 
the risk of workplace violence for approximately 15 million healthcare 
workers in the United States. I, along with Representatives Bobby 
Scott, Joe Courtney and Frederica Wilson, requested GAO undertake this 
work. I am concerned about the pace of OSHA's actions to implement 
these recommendations. OSHA updated its voluntary guidelines on 
preventing workplace violence in healthcare and social services and its 
enforcement procedures for addressing workplace violence under OSHA's 
general duty clause. However, OSHA has yet to issue its report that 
will help compliance officers develop citations in workplace violence 
cases. And, it is still considering information from its December 2016 
Request for Information (RFI).
    When will OSHA implement this report?
    Answer. On January 10, 2017, the Occupational Safety and Health 
Administration (OSHA) issued the enforcement directive ``Enforcement 
Procedures and Scheduling for Occupational Exposure to Workplace 
Violence.'' This directive provides detailed guidance and procedures 
for compliance officers when conducting inspections and issuing 
citations related to workplace violence.
    Question. When will OSHA act on the information it has received 
from the RFI?
    Answer. OSHA is in the process of analyzing the information it has 
gathered from petitioners for a standard, participants of the 
stakeholder meeting, comments received in response to its Request for 
Information (RFI), and experts. OSHA will use this information to 
develop regulatory alternatives and cost and benefit analyses required 
to initiate the SBREFA process in Fall 2019. The enforcement directive 
can be found at https://www.osha.gov/enforcement/directives/cpl-02-01-
058.
    Question. When will OSHA convene a SBREFA panel so that it can 
finally issue a workplace violence standard, and what is delaying that 
process?
    Answer. There is not a delay. OSHA is in the process of analyzing 
the information it has gathered from petitioners for a standard, 
participants of the stakeholder meeting, comments received in response 
to the RFI, and experts. OSHA will use this information to develop 
regulatory alternatives and cost and benefit analyses required to 
initiate the small business review process required by the Small 
Business Regulatory Enforcement Fairness Act (SBREFA). OSHA anticipates 
initiating the SBREFA process in Fall 2019.
    Question. For each of the past 5 years, how many citations under 
the General Duty clause has OSHA issued related to workplace violence 
in healthcare settings?
    Answer. The following table provides the number of citations under 
the General Duty clause for workplace violence by fiscal year:

------------------------------------------------------------------------
     2014           2015           2016           2017          2018
------------------------------------------------------------------------
      4              6              7              9              5
------------------------------------------------------------------------


    Question. Additionally, what is the Department doing more generally 
to address harassment and violence in workplaces across the Nation?
    Answer. OSHA regional and area office staff provide guidance to 
employers and employees concerning workplace violence. Each region has 
a workplace violence coordinator who can respond to questions 
concerning workplace violence and provide guidance to employers on 
developing policies and procedures to protect workers from violence. 
Similarly, these workplace violence coordinators support area office 
staff who respond to employee and employer questions about workplace 
safety. Employee training concerning workplace violence has been 
provided through Susan Harwood training grants, and those training 
materials are available on the OSHA website. In addition, workplace 
violence prevention is a current topic in the fiscal year 2019 Susan 
Harwood Grants funding opportunity announcement.
               highest-impact and highest-risk workplaces
    Question. The OSHA Congressional Budget Justification states that 
OSHA plans to begin ``shifting the focus to the highest-impact and most 
complex inspections at the highest-risk workplaces.''
    Please describe in more detail these plans, including how OSHA will 
identify the highest-impact and highest-risk workplaces.
    Answer. The Occupational Safety and Health Administration (OSHA) is 
revising its enforcement weighting system. The updated system will 
include a greater emphasis on the impact of inspections, rather than 
the current system's emphasis on the resources expended in an 
inspection. With this revision, OSHA can emphasize inspections that are 
not resource intensive, but save more lives and reduce exposure to 
hazards. These inspections include those addressing fall and trenching 
hazards.
    Question. Further, what additional steps will OSHA take to 
publicize and promote its inspection findings and citations so that the 
regulated community understand that OSHA will vigorously enforce 
employer obligations under the Occupational Safety and Health Act?
    Answer. OSHA makes use of a variety of tools to disseminate 
information on inspection findings, citations, and the importance of 
enforcement. OSHA's website has several resources that provide 
enforcement information, including data on annual inspection activity; 
a map of enforcement cases with initial penalties of $40,000 or more, 
and a search tool that allows users to access OSHA inspection data by 
establishment name, North American Industry Classification System code, 
or inspection number. The agency also maintains a webpage that provides 
data on work-related fatalities that occurred under Federal OSHA and 
State Plan jurisdiction. The page is updated regularly, as data become 
available. Additionally, any page on the OSHA website can be auto-
translated into Spanish with the simple click of a button.
    Information about enforcement cases and programs is also shared 
through OSHA's twice-monthly QuickTakes newsletter, which reaches more 
than 257,000 subscribers; the agency's Twitter feed; and a trade media 
email list through which news releases are distributed. The importance 
of strong, fair, and full enforcement is also shared in speeches and 
presentations by OSHA leadership and staff to a wide variety of 
audiences.
    OSHA continuously looks for opportunities to improve its website 
and outreach tools, and make information--including enforcement 
information--more accessible, understandable, and usable.
                             osha reporting
    Question. Last year's Committee report instructed ``OSHA to resume 
timely and public reporting on its website of fatalities that occur at 
workplaces, regardless if a citation is issued.'' This directive has 
not been followed.
    Why is OSHA not in compliance?
    Answer. The Occupational Safety and Health Administration (OSHA) is 
in compliance with this directive. Since October 2017, OSHA has 
published on its website a list of all inspections initiated in 
response to a workplace fatality that occurred on or after January 1, 
2017. The list includes all fatality inspections under Federal OSHA or 
State Plan jurisdiction regardless of whether citations were issued. 
The list can be reached from anywhere on the agency's website through 
the ``Fatality Reports'' link under the main ``Data'' menu. The 
fatality reports page is updated approximately every two weeks to allow 
OSHA staff time to manually review each fatality report description and 
ensure that it does not include personally identifiable information. In 
order to provide the most accurate information possible about the 
hazards related to a fatality, inspection data is added to the fatality 
reports page after OSHA concludes the inspection.
    Question. Why is OSHA opposed to recognizing those workers that 
have been killed on the job and the impact unsafe working conditions 
have on individuals and families?
    Answer. OSHA takes every workplace fatality seriously. As a result, 
the agency maintains a dedicated page on its website listing all 
inspections that were conducted in response to a workplace fatality 
that occurred on or after January 1, 2017. The list includes a 
description of the hazard that led to each fatality, as well as an 
indicator of whether OSHA issued any citations related to the fatality. 
OSHA believes this publicly available data source is an important tool 
to better understand the impact that workplace hazards can have on 
individuals and their families. The hyperlink to the fatality data is: 
https://www.osha.gov/dep/fatcat/dep_fatcat.html.
       improving timeliness and accuracy of prevailing wage rates
    Question. I am glad that you have stated clearly your support for 
the application of Davis Bacon wage protections to any infrastructure 
package that Congress considers. As you are aware, the Department of 
Labor Inspector General issued a report in March of this year that 
found the ``Wage and Hour Division needs better strategies to improve 
the timeliness and accuracy of prevailing wage rates'' and made eight 
recommendations to improve the overall quality and accuracy of 
prevailing wage rates.
    Please describe planned actions and associated timelines to address 
each of the report's recommendations.
    Answer. The Wage and Hour Division (WHD) submitted a comprehensive 
response to the Department of Labor Office of Inspector General (OIG) 
report and its eight specific recommendations. In that response, WHD 
generally agreed with OIG's recommendations and committed to numerous 
actions that are intended to effectively and efficiently implement 
OIG's recommended improvements to the Davis-Bacon Act wage 
determinations program. WHD subsequently submitted its official 60-day 
response to OIG's final report on May 31, 2019. The response included 
detailed information regarding WHD's planned actions and associated 
timelines to address each of the report's eight recommendations. WHD 
has already taken some steps to address OIG's recommendations. Further, 
WHD is convening a cross-functional task force to reassess 
comprehensively WHD's wage determination process and to determine the 
best way to implement each of OIG's recommendations.
      payroll audit independent determination (paid) pilot program
    Question. Mr. Secretary, as you are aware, I am concerned that the 
Wage and Hour Division's Payroll Audit Independent Determination (PAID) 
pilot program is nothing more than amnesty for employers engaged in 
wage theft. In response to a question I asked last year about your 
evaluation of the PAID pilot program, it was stated that ``At the end 
of the pilot period, WHD will review lessons learned . . . and use a 
balanced approach in assessing all aspects of this pilot phase of the 
program, including quantitative and qualitative measures, as well as 
feedback from employees, employers, and WHD staff.''
    Given that PAID was announced as an approximately six month 
program, that was subsequently extended for another 6 months, please 
provide the reasons for the subsequent extension, lessons learned, the 
data and information collected from the qualitative and quantitative 
measures, and feedback from employees, employers and WHD staff that are 
informing current and future implementation of this pilot program.
    Answer. The Wage and Hour Division's (WHD) Payroll Audit 
Independent Determination (PAID) pilot program facilitates resolution 
of potential overtime and minimum wage violations under the Fair Labor 
Standards Act (FLSA). The primary goals of the PAID program are 
identifying and correcting non-compliant practices so employees receive 
100 percent of their back wages due in a fraction of time of a typical 
investigation. To that end, the PAID program requires employers to 
review their pay practices, accept compliance assistance, and correct 
the practices that led to the errors. This is a win for employees, a 
win for employers, and a win for taxpayers.
    The Occupational Safety and Health Administration's Voluntary 
Protection Program and the Employee Benefits Security Administration's 
Voluntary Fiduciary Correction Program are similar to PAID. These long-
standing programs encourage correction of possible violations of the 
law and expand worker protection.
    Questions regarding program outcomes will be addressed in a report 
in response to S. Rept. 115-289--language which accompanied the Senate 
Appropriations Committee-passed version of Labor, Health and Human 
Services, Education, and Related Agencies Appropriation Act, 2019. The 
language directed the Wage and Hour Division (WHD) to submit a report 
to the Committee no later than 12 months after the date of the act 
detailing the outcomes of the PAID pilot program.
    Until that report becomes available, early testimonials from 
employees and employers alike indicate that the results are 
overwhelmingly positive. The program's goal is to get back wages into 
the hands of employees more quickly, and that is what has been 
happening. Providing this platform for well-intentioned employers to 
resolve violations frees the Division to commit more resources to 
investigating the more egregious, willful violators, affecting even 
more employees and bringing those violators into compliance moving 
forward. Under this program, the Department expects more employers to 
proactively conduct audits that otherwise may not occur. As a result, 
more employees will be paid the back wages they have rightfully earned.
    At the conclusion of the pilot phase in September 2018, most PAID 
cases remained open, but cases with back wages due appeared to require 
fewer investigator hours than full investigations. Since then, WHD has 
worked to implement PAID consistent with existing protocols and 
procedures for compliance actions, which has allowed district offices 
to incorporate the program into enforcement and compliance assistance 
tools already in place. WHD has continued collecting and assessing 
administrative enforcement data throughout the program's implementation 
and will be addressed in a report in response to S. Rept. 115-289, no 
later than 12 months after the date of the Act.
                    modernized compliance assistance
    Question. The budget proposal for the Wage and Hour Division 
includes an increase of 7 FTE and $1,068,000 ``to implement modernized 
compliance assistance that will enable the agency to develop and 
deliver employer-focused resources and tools.''
    Please describe the assistance, associated staffing levels, and 
budgetary resources you are providing to workers on recognizing when 
and how they are being victimized by their employers?
    Answer. The Wage and Hour Division (WHD) uses a multi-pronged 
approach to meet its mission of promoting and achieving compliance: 
investigations in high-violation industries, engagement and education 
of private and public stakeholders, and the use of communications tools 
and compliance assistance. In addition, WHD takes an evidence-based 
approach to ensure that it prioritizes providing compliance assistance 
and using enforcement resources in areas where the agency is most 
likely to uncover violations. This process, informed by data, research, 
and evaluation, allows the agency to make the most of its limited 
resources. WHD set a record in fiscal year 2018 recovering $304 million 
for workers, as well as setting a record in fiscal year 2018 with more 
than 3,600 outreach events. WHD staff are generalists and focus on the 
multi-pronged approach to achieving compliance with the laws we 
enforce.
    WHD continues to conduct extensive outreach to employee 
organizations, and that outreach focuses not only on workers' rights, 
but also on explaining how to get in touch, confidentially with the 
Department if they have questions, or if they want to file a complaint. 
Our website offers clear information on how to reach us, as well as on 
how to file a complaint. Our compliance assistance materials include a 
wide range of plain language materials explaining worker's rights, and 
WHD publishes hundreds of press releases each year identifying 
employers found in violation through our investigations. Those press 
releases explain the nature of the violations so that employees of 
other employers may recognize if the same practices are affecting them, 
and reach out to WHD for confidential assistance.
              whd continuous business process improvements
    Question. The Wage and Hour Division budget also refers to learning 
from other government enforcement agencies that will be leveraged to 
design a system that will support continuous business process 
improvements at the Division.
    Please describe the evidence and learning that support these 
changes and the specific plans and investments needed for the agency to 
implement this transformation.
    Answer. The Wage and Hour Division's (WHD) existing applications 
are nearly 20 years old. They are difficult and costly to maintain. As 
a result, WHD is leveraging the Department's Case Management Platform, 
an Appian-based Business Process Management System to modernize its 
suite of applications. This system provides the flexibility to adapt 
quickly to policy and process changes that naturally evolve over time. 
These investments in technology and capacity-building will sustain the 
agency's strong performance results and is expected to have an outsized 
impact on long-term organizational effectiveness and efficiency.
    Additionally, this year, WHD spearheaded an effort to stand up an 
Appian Business Users Forum to facilitate sharing of information and 
best practices across agencies. WHD will continue to collaborate across 
agencies to ensure success of the program. The agency is working 
closely with the Department's Chief Information Office to modernization 
efforts to promote, reuse, and leverage lessons learned from other 
Appian development efforts.
    In modernizing its suite of applications, WHD will decouple legacy 
data structures from programmatically siloed software and allow for the 
establishment of an enterprise data management and analytics platform. 
The resulting technical architecture will enable WHD to manage data as 
a valuable, strategic business asset, thereby evolving the treatment of 
data as just administrative outputs. A dynamic, user-centric system is 
expected to significantly increase operational efficiencies, reduce 
costs, and allow for greater innovation in meeting the mission. 
Investigators and programmatic staff can dedicate more time towards 
higher value work while agency leadership can focus resources where 
data and evidence show WHD can have the greatest impact.
                       women's bureau budget cuts
    Question. I am greatly concerned about the significant reduction of 
$10.225 million for the Women's Bureau. This would cause the number of 
policy and research deliverables to fall from 16 in fiscal year 2018 to 
7 under the fiscal year 2020 budget request. It would slash by 60 
percent the number of staff working at the Women's bureau. This would 
diminish the bureau's work on the full range of issues facing women 
seeking entry to the workforce and in addressing other challenges of 
working women, such as equal pay for equal work.
    Don't you agree that we should be creating greater opportunities 
for women?
    Answer. Women are nearly fifty percent of the workforce and the 
President's fiscal year 2020 budget and previous budget requests 
reflect the importance of women in the workforce.
    The Women's Bureau serves an important role at the Department of 
Labor, promoting and advancing the interests of working women by 
convening stakeholders, advising on policy change, and starting 
conversations around topics that are critical to women, their families, 
and our Nation's prosperity. Success for the Women's Bureau is achieved 
when the issues it champions move beyond the Bureau, because that means 
the problems and opportunities identified through its work are being 
addressed.
    Next year, the Women's Bureau will celebrate its Centennial year, 
which provides an opportunity to reflect on how far women have come 
over the past 100 years. Over the past century, the Women's Bureau has 
successfully advocated for workplace safety standards, family leave 
benefits, and pay equality protections.
    The Women's Bureau has recently taken a number of actions to 
advance women's workplace policies and influence the current state of 
women in the workforce. Since the beginning of 2017, the Women's Bureau 
has:
  --Partnered with the Department of Health and Human Services to help 
        increase working families' access to affordable, quality child 
        care;
  --Worked with the Small Business Administration (SBA) and the 
        Treasury Department to grow opportunities for women in 
        entrepreneurship;
  --Coordinated with the Employment and Training Administration (ETA) 
        to increase opportunities for women to access and thrive in 
        apprenticeship programs;
  --Joined the Veterans' Employment and Training Service (VETS), the 
        Department of Defense, and others to address employment 
        opportunities and reducing occupational licensing barriers for 
        military spouses, 92 percent of whom are women; and
  --Supported the Trump Administration's commitment to address the 
        opioid crisis with a focus on helping women who have been 
        impacted by the opioid crisis.
    None of these efforts will be negatively affected by the fiscal 
year 2020 budget. Instead, the Department will more effectively support 
and advance the mission of the Women's Bureau by focusing the Bureau's 
resources on conducting research and collaborating with agencies and 
departments across the government. In the coming year, the Women's 
Bureau will collaborate with ETA and VETS to support grant work on 
State licensing and promoting employment for military spouses; with the 
White House to identify innovative solutions to childcare; and with SBA 
to expand opportunities for women to thrive in entrepreneurship.
    As mentioned previously, the Women's Bureau provides research and 
analysis on the issues of interest to working women. Following a 
request by members of the Senate, the Women's Bureau commissioned a 
study, which is still in the early stages of analysis, to produce an 
independent, more precise and current estimate of the gender wage gap. 
The commissioned work will update a study on the gender wage gap issued 
by the Department in 2009. The 2009 study, which was funded by the 
Department and produced by the CONSAD Research Corporation, 
systematically reviewed then-available research on gender differentials 
in earnings and used data from the Current Population Survey to 
identify factors (including education, occupation, industry, work 
experience, and career interruptions) that contributed to the gender 
wage gap.
    In addition to the CONSAD update research study, the Women's Bureau 
is partnering with the Census Bureau to link administrative and survey 
data to produce a more precise and current estimate of the gender wage 
gap. The study will include an in-depth examination of variables such 
as industry, occupation, education and work experience that contribute 
to the gender wage gap. Findings from both projects are expected by the 
end of the 2019 calendar year.
    While recognizing that many factors go into determining wages, 
data-driven information concerning the wage gap provides a baseline for 
women planning careers to learn about prospective occupations, and as a 
comparison point for women already in the labor force to evaluate their 
wages. The Women's Bureau has an interactive visualization tool 
available on the Women's Bureau website, which shows average wages for 
women and men in more than 300 occupations.
    ETA also supports programs to provide workforce development 
services for female workers. For example, the Women's Bureau is 
collaborating with the Office of Apprenticeship (OA) to recruit and 
retain women in pre-apprenticeship and apprenticeship programs as 
potential pathways for women to non-traditional occupations that may 
have higher average salaries. Through WIOA, ETA supports programs that 
provide workforce development services for individuals with barriers to 
employment, including over two million women workers in Program Year 
2017. In addition, WIOA emphasizes providing services and placing women 
in non-traditional occupations, such as apprenticeships, that may have 
higher average salaries.
    Question. Won't this diminished workforce and the significant 
reduction of policy and research deliverables mean fewer opportunities 
for women?
    Answer. Please see the response to the prior question.
                            ilab budget cuts
    Question. Mr. Secretary, in the foreword to your Department's 2018 
List of Goods Produced by Child Labor or Forced Labor, you wrote: 
``these reports show us that we need to accelerate progress toward 
ending child labor, forced labor, human trafficking, and modern 
slavery. This is vital if we are to make trade fair for all.''
    How will you accelerate progress on these critical issues when your 
budget proposes a 79 percent reduction for the key agency of the 
Department involved in this work?
    Answer. With these resources ILAB will continue to pursue the 
Administration's priority of combatting child labor, forced labor, 
human trafficking, modern slavery, and other important humanitarian 
issues. United States trading partners receive an unfair subsidy when 
they fail to comply with their trade-related labor commitments, 
including not doing enough to prevent and address cases of forced labor 
and child labor. This puts workers and businesses in the United States 
at a competitive disadvantage. ILAB will use its expertise to address 
these issues and ensure that U.S. workers and businesses are able to 
compete on a fair global playing field.
    ILAB will continue to monitor and enforce the labor provisions of 
free trade agreements and trade preference programs. The Department's 
approach will include prioritizing proactive monitoring of labor 
conditions in key countries; reviewing trade complaints; using ILAB 
experts to provide targeted direct technical support to trading 
partners to improve laws and enforcement; and aggressively engaging 
with trade partners that are deemed to be out of compliance.
    ILAB will provide direct technical support to our trading partners 
to improve laws and enforcement and will use its existing technical 
assistance portfolio to combat forced labor and child labor and improve 
labor enforcement and working conditions around the world. At the same 
time, we are asking our trading partners to invest more of their own 
resources to enforce their labor laws and fund initiatives to combat 
child labor, forced labor, and modern slavery. ILAB will also increase 
its impact by strengthening partnerships with other U.S. government 
agencies, such as the Office of the U.S. Trade Representative, the 
Department of State, and Department of Homeland Security, as well as 
with private sector stakeholders to prevent the importation of goods 
made with forced labor and child labor and make trade more fair for 
workers and businesses in the United States.
              dol's work with the department of education
    Question. The Department of Education budget includes $60 million 
to support State efforts to create pre-apprenticeship programs that 
increase the number of adults who are able to meet the basic entrance 
requirements of apprenticeship programs.
    What plans does the Department have to work with the Department of 
Education on this program?
    Answer. The Department of Labor is working with the Department of 
Education and plans to release a Training and Employment Guidance 
Letter that will define a pre-apprenticeship program, describe the pre-
apprenticeship program pathways that may connect to apprenticeship 
programs, and ensure alignment with current Workforce Innovation and 
Opportunity Act (WIOA) guidance. This upcoming guidance will help 
inform the Department of Education on how pre-apprenticeship programs 
could serve as a pathway to apprenticeships.
    Question. Is it the Department of Labor's understanding that the 
purpose of such pre-apprenticeship programs is to enable participants 
to qualify for and participate in existing registered apprenticeship 
programs?
    Answer. In addition to defining a pre-apprenticeship program, 
describing the pre-apprenticeship program pathways that may connect to 
apprenticeship programs, and ensuring alignment with current Workforce 
Innovation and Opportunity Act (WIOA) guidance, the above-mentioned 
Training and Employment Guidance Letter will also explain how quality 
pre-apprenticeship programs can play a valuable role in providing work-
based learning to prepare adults for an entry-level Registered 
Apprenticeship Program.
    Question. If not, why would this initiative ignore the existing 
infrastructure around such high-quality registered apprenticeship 
programs and instead propose pathways into duplicative, lower quality 
programs?
    Answer. The Department strongly encourages the development of pre-
apprenticeship programs to better prepare individual to enter 
apprenticeship programs that lead to skilled jobs that pay family-
sustaining wages.
    While alignment of pre-apprenticeship programs to Registered 
Apprenticeship Programs remains a best practice, advancement to 
employment opportunities and other advanced training opportunities that 
result in portable, industry-recognized credentials are also viable 
pathways, particularly in fields where apprenticeships are still 
emerging (including, IT, cyber security, financial services, healthcare 
and manufacturing).
    Accordingly, the Department is considering actions to update 
guidance in order to expand pre-apprentices' opportunities to gain a 
foothold in the successful apprenticeship model.
              msha's combined enforcement budget activity
    Question. The budget request for the Mine Safety and Health 
Administration (MSHA) proposes a single enforcement budget activity, 
combining Coal Mine Safety and Health with Metal and Nonmetal Mine 
Safety and Health.
    Please explain the basis for the Department's determination that 
such a consolidation is needed and would bolster, rather than diminish, 
MSHA's ability to enforce the Mine Safety and Health Act. Please also 
describe how the enforcement consolidation will be implemented, 
monitored, and evaluated in ensuring that inspections at different 
types of mines will consistently adhere to MSHA policies and 
procedures. The Congressional Budget Justification also states that 
``The merger will consist of two program areas, while still 
accommodating situations unique to certain types of mines.'' Please 
elaborate on MSHA's thinking about the merger and such accommodations.
    Answer. The Mine Safety and Health Administration's (MSHA) ``One 
MSHA'' initiative began by creating the unified position of 
Administrator, Mine Safety & Health over all of Enforcement. MSHA then 
evaluated all mines for distance from MSHA offices, and identified 90 
mines where it made sense to train a coal inspector to inspect a metal/
nonmetal mine, or vice versa. The Mine Academy in Beckley, WV 
established and revised our curriculum, with input from the National 
Council of Field Labor Locals (NCFLL). MSHA provided up to 56 hours of 
classroom training for those inspectors, plus up to 24 hours on-the-job 
training with a seasoned inspector or manager.
    During the 6 months beginning last October, inspectors for those 90 
mines spent 41 percent less time driving than previously. This saves 
taxpayer dollars on vehicles, fuel, food and lodging. But ultimately 
this is about more effectively achieving MSHA's core mission: instead 
of spending time driving in a car, our inspectors can spend more time 
on site interacting with miners and observing safety conditions.
    Based on the success of phase one, starting July 1st MSHA will add 
117 more mines. Understand that MSHA will retain specialists in their 
current roles to cover specific mining conditions, such as ventilation 
experts inspecting underground coal mines prone to hazardous conditions 
like combustible coal dust and methane inundation.
    In keeping MSHA's promise to House and Senate Appropriations 
Committees, MSHA's Office of Accountability will audit crossover mine 
inspections to ensure that enforcement personnel adhered to MSHA's 
policies and procedures.
                     dol's chief evaluation office
    Question. Earlier this year, the President signed into law a bill I 
co-wrote with former Speaker Paul Ryan called the ``Foundations for 
Evidence-Based Policymaking Act of 2018'' (Public Law 115-435).
    Given the Department of Labor already has in place a Chief 
Evaluation Officer and produces a regular evaluation plan--please 
describe any changes to that position or process that will occur 
following enactment of Public Law 115-435?
    Answer. As noted in the question, the Department has in place 
already several key provisions of the new legislation. Per Section 
101(a) of Title 1, the Department's Chief Evaluation Officer position 
is a career official with demonstrated methodological and subject-
matter expertise. This office is staffed with highly-skilled evaluation 
professionals who ensure robust and meaningful coordination with the 
Department's evaluation program. The Department has an evaluation 
policy and learning agenda/annual evaluation plan, which ground 
evaluation in a broader portfolio of evidence-building that includes 
analytical, statistical, and research activities.
    These key foundational practices will be augmented by updates to 
the Department's evaluation plan and planning process to ensure full 
compliance with the law. The following are key updates to the current 
planning process: to demarcate the ``significant'' studies in the 
evaluation portfolio and their anticipated research questions, to 
describe the key information collections and acquisitions, and to align 
the plan with any other requirements as specified in yet-to-be-released 
guidance. The Department will also modify the planning process timeline 
to align with the reporting cycle of its performance plan.
    Question. In addition, please describe the steps the Department is 
taking to prioritize implementation of the bill's other key provisions, 
including those related to tapping senior leaders to fulfill the law's 
goals (e.g., the Chief Data Officer and the Statistical Officer--in 
addition to the Chief Evaluation Officer), improving coordination of 
data within the Department, and ultimately improving accessibility of 
Labor data?
    Answer. On March 12, 2019, a Secretary's Order \6,7\ was signed, 
creating a Chief Data Officer (CDO) and the Department of Labor's Data 
Board in the Office of the Assistant Secretary for Policy. The Data 
Board, led by the CDO, will serve as the Department's enterprise 
oversight body for the development of coordinated Department-wide 
positions on data strategy, data management, standards management, and 
implementation of the data responsibilities under the new legislation.
---------------------------------------------------------------------------
    \6\ https://www.Federalregister.gov/d/2019-05720 (signed 03/12/
2019, published 03/26/2019).
    \7\ https://www.dol.gov/newsroom/releases/osec/osec20190313, 
published 03/13/2019.
---------------------------------------------------------------------------
    Question. The Department did not include a request for additional 
resources to support implementation; how does the Department intend to 
ensure the capacity exists to implement this new law?
    Answer. Given that the Department has existing infrastructure and 
resources to leverage for implementation, the current priority is on 
adapting established roles and processes. Additionally, the Department 
will use the interim evidence capacity assessment planning process to 
strategically assess, align, and potentially augment internal assets to 
ensure full implementation of the new law.
    Question. What is the Department's timeline for designating the 
senior leaders?
    Answer. Public Law115-435 requires the Department designate the 
evaluation, data, and statistical officer within 180 days of enactment. 
The Department has named an acting CDO who is organizing the newly 
formalized data board and developing plans and structures to implement 
the legislation and Secretary's Order. The Department is working to 
designate a Statistical Officer by the end of fiscal year 2019.
    Question. Finally, how does the Department see the interagency 
Chief Data Officer Council and the Advisory Committee on Data for 
Evidence Building as helping to improve the sharing of and access to 
data for purposes of evidence building?
    Answer. The Department sees these interagency committees as 
critical for advancing evidence building, particularly in an era of 
limited budgets and the need for rapid insights. The interagency 
committees identified by the statute could fill an important gap in 
identifying efficient, streamlined, and cost-effective solutions for 
data sharing to answer mission critical questions.
                     dol's policies and rationales
    Question. Secretary Acosta, you have repeatedly criticized the use 
of sub-regulatory guidance by the Department and other administrative 
agencies as using ``administrative fiat'' to make significant policy 
changes. You have said that any change in substantive law should be 
made by Congress or through notice and comment rulemaking. At the 
hearing, you reiterated this Administration's position that full 
rulemaking is the better approach, and stated that the Department is 
developing its own internal mechanism to decide whether something is 
appropriate as a guidance document or as a rulemaking.
    Please provide a detailed explanation for this new internal 
mechanism, including a statement of the Department's official policy 
and rationale for developing and implementing the policy.
    Answer. The Department of Labor believes that the best practice is 
generally to use the Administrative Procedure Act's (APA) prescribed 
rulemaking process, allowing for the American public's input and 
ability to access and challenge new policies or interpretations of the 
law. The Department is concerned that in the past, sub-regulatory 
guidance has been issued, without notice and comment, with the purpose 
or effect of binding outside parties. The Department is also concerned 
that American workers and employers may not know when an agency issues 
sub-regulatory guidance, which could expose them to potential 
enforcement actions under requirements about which they may not be 
aware. At the same time, sub-regulatory guidance can, in certain 
limited fact-specific circumstances, serve as a useful tool for 
conveying the Department's interpretation of the law to the regulated 
community or for educating American employers and workers about rights 
and obligations that flow from the law.
    The Department is committed to ensuring that the APA's rulemaking 
requirements are consistently followed, while utilizing sub-regulatory 
guidance judiciously and where appropriate under the law. The 
Department is working on developing a standard internal mechanism to 
appropriately assess guidance to determine whether it should go through 
a rulemaking or be issued as guidance.
                           job corps funding
    Question. I am deeply concerned by your proposal to gut funding for 
the Job Corps --our Nation's flagship youth employment program, which 
has had strong bipartisan support for more than half a century. Despite 
your proposed cuts, the Appropriations Committee has protected funding 
for the program with the expectation that it would continue to offer 
the same number of training opportunities. Yet several centers have 
closed and overall training slots are declining. I understand that you 
are proceeding with amendments to the USDA-DOL agreement, which could 
equate to closing 20 percent of Job Corps centers, without 
congressional approval.
    The Department has stated its intention to ``unwind'' the agreement 
between USDA and Job Corps that allows for the operation of CCCs. Have 
the Departments begun this process? Please provide a copy of the 
current agreement, the updated agreement, and the current budget of the 
USDA Forest Service Job Corps. Please also provide a fulsome 
explanation of the Department's legal authority for transferring 
operation of the CCCs from USDA to DOL, and for closing the CCCs 
without congressional approval.
    Answer. On May 24, 2019, the Department of Agriculture (USDA) 
announced that it was withdrawing from operating Job Corps Civilian 
Conservation Centers (CCCs) and transferring operations of those 
centers to DOL. As a result, DOL reviewed the portfolio of CCCs and 
proposed deactivation of nine CCCs and its intent to enter into 
procurement or partnership as to the remaining 15 centers. USDA has 
reconsidered and no longer intends to transfer these centers to DOL. 
Therefore, DOL announced on June 24, 2019, that it is withdrawing its 
previously published Federal Register notice proposing the deactivation 
of nine CCCs.
    The Department will provide a copy of the Interagency Agreement, 
executed in 2008, by the Department and the USDA to the Committee.
    Question. What are your plans for the 24 currently operating Job 
Corps Civilian Conservation Centers, including the three in my home 
State of Washington, and those training slots?
    Answer. The USDA will continue to operate the 24 Job Corps CCCs, 
including the three in your home State of Washington. DOL, working with 
USDA, will explore ways to improve the performance of the CCCs and 
results they achieve for the students. There are no plans to reduce 
student training slots at the CCCs
    Question. If they close, will the training slots that Congress has 
funded be shifted to other Job Corps centers?
    Answer. The 24 CCCs will remain open and operated by the USDA 
Forest Service. The Federal Register Notice proposing deactivation of 
nine CCCs was withdrawn. There are no plans to reduce student training 
slots at these CCCs.
    Question. If they close, please explain how the Department will 
handle students enrolled at those centers. Will they be transferred to 
another Center, or will they be separated from the Job Corps program 
altogether?
    Answer. The Federal Register Notice proposing to deactivate nine 
CCCs has been withdrawn. As a result, given these CCCs are not closing, 
there is no need to transfer or reassign students.
    Question. If they close, what will happen to the USDA Forest 
Service employees who operate and staff the centers?
    Answer. Given USDA no longer intends to transfer the 24 CCCs to 
DOL, USDA's Forest Service employees will continue to serve students 
enrolled at these locations.
    Question. If they close, how will DOL or USDA address the loss of 
Forest Service Job Corps camp crews who are trained to assist during 
national emergencies, including those caused by wildfires, floods, 
hurricanes, and tornadoes?
    Answer. We expect that USDA Forest Service will continue to support 
activities in response to national emergencies. It is important to note 
that community service assistance in national emergencies is an 
important aspect of the Job Corps experience. Annually, Job Corps 
students are engaged in a wide range of these kinds of volunteer 
activities across the country.
    Question. Will you attempt to enable private operators to run them? 
What land-use permitting and additional costs will be required of 
private operators to run these facilities on Federal lands?
    Answer. As a result of the USDA decision, a land-use permit will 
not be necessary.
              use of job corp centers to shelter migrants
    Question. Has the Department considered--or engaged with the 
Department of Homeland Security, any other Federal agency, or any 
private entity regarding--using Job Corps Center facilities to house or 
shelter migrants?
    Answer. The Department has had an agreement with the Department of 
Health and Human Services (HHS), which allows HHS to use a former Job 
Corps facility in Homestead, Florida, for their Administration for 
Children and Families' Unaccompanied Youth program.
                       job corps staffing levels
    Question. Job Corps operational slots have steadily declined since 
the start of this Administration despite Congress having provided 
stable funding levels. Job Corps' on-board strength remains around 80 
percent compared to a historical average in the high 90s, even during 
economic expansions.
    Given Job Corps' low on-board strength, how much, if any, surplus 
operational funding does ETA anticipate Job Corps having in PY 2018 and 
PY 2019?
    Answer. The Department does not anticipate any surplus operational 
funding in Program Year (PY) 2018 or PY 2019.
    Job Corps recently increased its oversight and accountability over 
the implementation and adequacy of required Outreach and Public 
Education Plans created by outreach and admissions providers. These 
plans include, among other elements, outreach strategies to achieve and 
maintain center capacity; plans to ensure coordination of efforts 
between contractors and centers; and a description of the public 
education and outreach methods that the contractor will develop. By 
increasing accountability, the Job Corps program has increased overall 
enrollment during the past year. Job Corps continues to monitor follow-
up activities associated with potential applicants expressing interest 
in the program by conducting weekly teleconferences with outreach and 
admissions providers to review potential applicant and new applicant 
information in detail.
    Currently, Job Corps is using a digital media campaign to increase 
Job Corps' On-Board Strength (OBS) at many of its largest centers. This 
campaign includes using a digital outreach strategy for each of the 
targeted centers and requires frequent coordination among regional Job 
Corps staff, a media consultant, outreach and admissions providers, and 
center operators. Regular meetings are used to review and analyze OBS-
related data, identify and resolve barriers to increasing student 
enrollment and retention, and provide feedback on center-specific media 
outreach.
    Job Corps is transitioning stand-alone outreach and admissions 
activities into center operations contracts. By consolidating these 
activities into the center operations contract, Job Corps center 
operators assume a more direct responsibility for ensuring that their 
centers are operating at full capacity
    Before the end of the year, Job Corps will finalize its new 
methodology for creating the Geographic Assignment Plan (GAP). This new 
plan, referred to as the National Enrollee Assignment Plan (NEAP), will 
apply a standard formula to all Job Corps centers to determine the 
number of new students each center must enroll to maintain full 
capacity. Historically, Job Corps used a fixed national average of 
students it anticipated would leave the program each year to help 
calculate the arrival goals for each admissions provider. The new NEAP 
approach utilizes center-specific separation rates to set contract 
arrival goals. Centers with higher separation rates will have higher 
arrival goals in order to align with actual recruitment needs. These 
revised goals will be included in each admissions provider's contract 
to ensure that Job Corps centers are closer to full capacity.
    As part of its new NEAP strategy, Job Corps is reestablishing its 
defined recruitment areas so that they align with each State's Local 
Workforce Development Areas (LWDA). As a result of aligning recruitment 
efforts with LWDAs, Job Corps' outreach and admissions providers will 
have the opportunity to work in collaboration with partners in the 
workforce system, including receiving and providing referrals for 
individuals who express interest in the Job Corps program or are in 
need of other workforce development assistance.
    Finally, in 2019, Job Corps plans to launch a new student 
enrollment services system to identify and minimize delays and 
bottlenecks in the enrollment and center assignment processes. The new 
system will also improve the quality of career counseling provided, 
resulting in better matching of enrollee interests and/or aptitudes 
with a skills instruction program. The net results should be improved 
enrollments, student arrivals, and retention.
    Each month, approximately 18,000 youth express some interest in Job 
Corps' education and skills instruction program. This interest is 
primarily expressed through Job Corps' website. Prospective applicant 
information is provided directly to outreach and admissions contractors 
for follow-up. To capitalize on this interest and increase enrollment 
in the program, Job Corps is currently developing a new student 
enrollment services system, which will include a new information 
technology (IT) platform.
    The IT upgrades in the new enrollment services system will be 
designed to ensure that the eligible at-risk youth in the enrollment 
pipeline are promptly processed and enrolled. The new enrollment 
services system will seek to leverage technology to improve 
efficiencies in the system by monitoring the processing of applicants, 
and quickly resolving delays and bottlenecks, which will reduce 
application processing times. Job Corps' expanded use of technology 
will also create greater transparency by making application and 
enrollment data available in real time to those involved in the 
outreach, admissions, and center assignment processes. These changes 
will also provide tech-savvy youth easy access to Job Corps' 
application and a better user experience during the enrollment process. 
Finally, the new enrollment services system will provide meaningful 
career counseling during the admissions process. This will allow Job 
Corps to better manage enrollee expectations and better match enrollee 
interests and aptitudes with a skills instruction program. All of these 
efforts will support improved student recruitment and retention, 
resulting in full utilization of Job Corps centers.
    Question. What will this funding be redirected towards?
    Answer. The Department does not anticipate any surplus operational 
funding in Program Year (PY) 2018 or fiscal year 2019.
    Question. Please provide a detailed spend plan for the PY 2018 
operational funds.
    Answer. Below is the PY 2018 Job Corps Operational Funds Spend 
Plan.

                  PY 2018 OPERATIONAL FUNDS SPEND PLAN
 
 
------------------------------------------------------------------------
Contractor Operated Job Corps Centers..........        $1,152,040,482.82
Regional Grant Demonstration Projects..........           $17,336,914.00
USDA Transfer..................................          $145,810,489.00
National Administrative Support and Contracts..          $286,345,558.52
                                                ------------------------
    TOTAL SPEND PLAN:..........................        $1,601,533,444.34
                                                ------------------------
    TOTAL APPROPRIATION:.......................        $1,603,325,000.00
                                                ------------------------
    TOTAL PLANNED REMAINING BALANCE:...........            $1,791,555.66
------------------------------------------------------------------------

                     job corps financial reporting
    Question. The OIG has stated that ETA has recently allowed Job 
Corps funding to expire.
    WIOA requires ETA to submit periodic financial reports; have these 
plans been submitted?
    Answer. Pursuant to section 161(a) of the Workforce Innovation and 
Opportunity Act, the Department submitted three such reports to 
Congress: first and second quarters of Program Year (PY) 2014 (July 1, 
2014 to December 31, 2014), third and fourth quarters of PY 2014 
(January 1, 2015 to June 30, 2015), and the first and second quarters 
of PY 2015 (July 1, 2015 to December 31, 2015). No additional reports 
were provided due to the following reasons:
  --The OIG recommendations referenced in section 161(a)(1)(A) were 
        closed out as of March 24, 2015.
  --There has not been a budgetary shortfall as referenced in section 
        161(a)(1)(B).
  --There has not been any instances of contract expenditures in excess 
        of the amounts provided for under the contract as referenced in 
        section 161(a)(1)(C).
    Question. What controls do you have in place to ensure that all the 
funding Congress has appropriated for Job Corps is being spent on Job 
Corps' students and mission prior to expiration?
    Answer. The Department is committed to using funds appropriated by 
Congress for the Job Corps program effectively and efficiently. Job 
Corps currently incrementally funds 98 contract centers all with 
varying contract periods, which requires additional monitoring and 
oversight to account for the status of funds. The Department has 
improved financial controls to more timely account for spending and 
maximize the use of available funds. Several initiatives were recently 
implemented to strengthen financial controls of Job Corps funding:
  --Job Corps established standard procedures to ensure timely and 
        accurate monitoring of the status of funds. These procedures 
        established new levels of detail in the current financial 
        system of record, which has allowed Job Corps to monitor and 
        report on current year obligations and expenditures in real-
        time across multiple fiscal, program and contract years.
  --Job Corps validates unexpended funds on a quarterly basis to 
        determine if funds are available.
  --Job Corps' program officials meet regularly with financial and 
        procurement staff to discuss the status of funds and to ensure 
        any unobligated balances are being used to serve the program's 
        mission.
                  job corps geographic assignment plan
    Question. The Workforce Innovation and Opportunity Act requires the 
Department to produce a geographic assignment plan for Job Corps every 
2 years.
    Please share the current geographic assignment plan.
    Answer. Before the end of the year, Job Corps will finalize its new 
methodology for creating the Geographic Assignment Plan (GAP). This new 
plan, referred to as the National Enrollee Assignment Plan (NEAP), will 
be Job Corps' first comprehensive assignment plan and will replace the 
GAPs developed by each Job Corps Regional Office. The NEAP will apply a 
standard formula to all Job Corps centers to determine the number of 
new students each center must enroll to maintain full capacity. 
Historically, Job Corps used a fixed national average of students it 
anticipated would leave the program each year to help calculate the 
arrival goals for each admissions provider. The new NEAP approach 
utilizes center-specific separation rates to set contract arrival 
goals. Centers with higher separation rates will have higher arrival 
goals in order to align with actual recruitment needs. These revised 
goals will be included in each admissions provider's contract to help 
ensure that Job Corps centers achieve and maintain full capacity.
    As part of its new NEAP strategy, Job Corps is reestablishing its 
defined recruitment areas so that they align with each State's Local 
Workforce Development Areas (LWDA). As a result of aligning recruitment 
efforts with LWDAs, Job Corps' outreach and admissions providers will 
have the opportunity to work in collaboration with partners in the 
workforce system, including receiving and providing referrals for 
individuals who express interest in the Job Corps program or are in 
need of other workforce development assistance.
    Once complete, additional information regarding the NEAP will be 
provided to the Committee.
                          job corps marketing
    Question. How does DOL measure the efficacy and effectiveness of 
its national marketing efforts?
    Answer. Job Corps continues to refine the measures used to 
determine whether its marketing is effective. Marketing is handled by a 
contract marketing firm and is primarily digital (i.e., online) in 
nature. Digital platforms used include Facebook, Google, Instagram, and 
YouTube. However, print materials are also widely distributed.
    Currently, Job Corps initially measures the efficacy and 
effectiveness of its national marketing by tracking the number of 
people who indicate initial interest in the Job Corps program (i.e., 
prospects). Prospects come into the system for tracking purposes via 
the recruitment website or by telephone via 800-733-JOBS. Effectiveness 
is also measured by the number of landing page `clicks' Job Corps 
advertisements generate, the number of online enrollment interest forms 
`clicks' generated, the number of interest forms submitted and, when 
known, the number of applications submitted resulting from contact with 
one or more of our digital platforms. Job Corps has used focus groups 
and surveys to determine what advertising is most effective with its 
target audience. Accordingly, Job Corps develops its outreach in 
consideration of this information. Each month, approximately 18,000 
youth express some interest in Job Corps' education and skills 
instruction program.
    A comparison of the results of Job Corps' national marketing 
efforts from calendar year 2017 to 2018 shows a 36 percent increase in 
the number of individuals `clicking' on the enrollment interest form 
and an increase in females expressing interest.
             job corps construction rehabilitation projects
    Question. WIOA requires the Department to annually submit a list of 
construction and rehabilitation projects at Job Corps centers.
    Please provide a full accounting of the construction and 
rehabilitation projects for PY 2017 and 2018.
    Answer. The Department's Construction, Rehabilitation and 
Acquisition resources are available for Federal obligation for 3 years. 
Resources appropriated for PY 2017 and PY 2018 are not fully obligated 
yet. In fiscal year 2018, the Department obligated $70.4 million in 
Construction, Rehabilitation, and Acquisition funds. This included 
resources that were appropriated in fiscal year 2016, fiscal year 2017, 
fiscal year 2018, and fiscal year 2019.
    In fiscal year 2017, the Department obligated $123.5 million in 
Construction, Rehabilitation and Acquisition funds. This includes 
resources that were appropriated in fiscal year 2014, fiscal year 2015, 
fiscal year 2016, and fiscal year 2017.
    See the embedded PDF file below for the amounts spent and types of 
construction and rehabilitation projects during fiscal years 2017 and 
2018.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       job corps center statuses
    Question. What is the status of the Kicking Horse Job Corps Center 
in Montana?
    Answer. In March 2019, CSKT, as the lessor of the property on which 
the Kicking Horse Job Corps Center (KHJCC) operates, invoked its right 
to cancel the land-use lease with the Department. At the time of the 
lease termination notice, KHJCC and the Department were engaged in 
discussion about the center's performance and the Department's options 
in light of that performance. Cancellation of the land-use lease by 
CSKT requires the Department to vacate the premises within 180 days of 
the notice, which will effectively end Job Corps center operations at 
that location. ETA, in consultation with legal counsel, is currently 
considering options for the appropriate path forward for the KHJCC.
    Question. What is the status of the Centennial Job Corps Civilian 
Conservation Center in Idaho?
    Answer. In May 2019, the Centennial Job Corps Center began 
transitioning into a demonstration project operated by the State of 
Idaho. The State of Idaho began to occupy the Centennial center in July 
2019. All Centennial Job Corps students either completed their training 
prior to the transition beginning or were transferred to other Job 
Corps centers nearby that also offer the students' trades.
    Question. When do you anticipate the Arecibo Job Corps Center in 
Puerto Rico will be reopened?
    Answer. The Arecibo Job Corps Center in Garrochales, Puerto Rico, 
was damaged by Hurricane Maria in September 2017. Rehabilitation of the 
center was initiated in June 2018, and the center is anticipated to 
reopen by February 2020.
    Question. When do you anticipate the Atlanta Job Corps Center will 
be reopened?
    Answer. On June 22, 2017, the Department awarded a contract to 4K 
Global-ACC Joint Venture, LLC (4K Global), to construct a new Job Corps 
center in South Fulton, an incorporated area near Atlanta, Georgia. The 
new center will be built to accommodate 472 students, primarily from 
the Atlanta area. Early during the course of construction, the 
Department identified serious concerns regarding 4K Global's 
performance, and it communicated those concerns to 4K Global in 
accordance with the contract's terms and conditions. The construction 
concerns are being addressed through an agreement between the 
Department and 4K Global. This agreement established increased quality 
assurance measures, including requiring third party inspections of some 
of the construction work previously completed. The Department reached 
an agreement with the third-party inspector, that is, the U.S. Army 
Corps of Engineers, on July 18, 2019. The contractor, 4K Global cannot 
resume construction in some areas until the inspector deems the prior 
work sound. The impact of the delays and inspections on the completion 
date is undetermined.
    Question. What is the status of the reconstruction of the Gulfport 
Job Corps Center?
    Answer. The Department remains committed to, and continues to 
prioritize, the construction of the Gulfport Job Corps Center. The 
Department also continues to submit the required 30-day update reports 
to Congress and to stakeholders on the progress of the Gulfport center 
construction. As recently reported, the Architect/Engineering (A/E) 
firm, Eley Guild Hardy Architects, submitted the schematic design for 
the Gulfport Job Corps Center Redevelopment Project to DOL, as 
scheduled, on March 22, 2019. The Department reviewed and accepted 
various Value Engineering (VE) changes to the schematic design. The VE 
discussions have focused on alternatives for materials and other 
project elements to identify opportunities for cost savings, which has 
thus far identified approximately $5 million in cost-saving design 
changes, all of which have been evaluated with respect to both cost and 
quality, and deemed appropriate for implementation. The Department will 
memorialize these changes in a document to be sent to the A/E firm. 
Subsequent to preparation of changes to the schematic design documents 
by the A/E firm, the Department will schedule a public meeting.
    The revised statement of work for a consultant to conduct the 
Historic American Building Survey (HABS), interview the high school 
alumni, and design the lobby exhibit was posted on the FedBizOpps web 
site (www.fbo.gov) on March 19, 2019. The deadline for offers was May 
1, 2019. DOL received and reviewed seven proposals, and held a 
reconciliation meeting with its selection team to discuss the proposals 
and continue with the selection process. The design phase is scheduled 
to conclude in April 2020. The construction phase is estimated to take 
an additional 19 months.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                job training services for at-risk youth
    Question. Chicago has experienced a heartbreaking wave of gun 
violence--in many cases, the areas in the city with the highest 
unemployment rates are the same as those with the highest rates of 
violence. I've spoken with you several times about the importance of 
Federal support for programs that help reduce violence and create 
economic opportunity in areas like Chicago, where youth disconnection 
is extremely chronic and concentrated. In the Chicago metro area, more 
than 24 percent of Black youth and more than 11 percent of Latino youth 
ages 16-24 both out of school and out of work. I am very concerned that 
this Administration has repeatedly spoken of eliminating certain 
workforce development programs. This year's budget proposes a 10 
percent decrease in funding for the Department of Labor overall. 
Federal programs play a role in creating economic opportunity for 
youth, and we should be working to build up these programs, not reduce 
and eliminate them.
    Do you agree that Federal funding plays a critical role in creating 
job training and employment opportunities for at-risk youth in 
underserved communities? If yes, how do you justify consistently 
requesting cuts to programs that help train at-risk youth and other 
vulnerable populations?
    Answer. Federal funding plays a critical role in creating 
employment opportunities for at-risk youth in underserved communities, 
but Federal investment alone is not sufficient. The fiscal year 2020 
Budget requests the same level as the fiscal year 2019 enacted level 
for the Workforce Innovation and Opportunity Act (WIOA) Youth formula 
program, which serves primarily out-of-school youth. The Department 
also serves at-risk youth under Reentry Employment Opportunities, 
YouthBuild, and Job Corps. YouthBuild currently has five active grants 
within the Chicago metropolitan area that provide training, through a 
pre-apprenticeship model, for in-demand industries, including 
construction, information technology, healthcare, and logistics. In 
Chicago, the Reentry Employment Opportunities (REO) program has one 
project that focuses on serving at-risk and offender youth. Further, 
the fiscal year 2020 Budget prioritizes evidence-based strategies, such 
as apprenticeship, which serve youth in Chicago and throughout the U.S.
    Question. In Chicago, Community Based Organizations have developed 
training programs that offer a combination of job skills training, 
wage-paid work, and support services such as counseling for at-risk 
youth. What steps has your Department taken to support organizations 
that provide these types of transitional jobs services?
    Answer. The WIOA formula youth program is designed specifically to 
provide all three of these activities for youth, and requires local 
areas to spend a minimum of 20 percent of their youth funds on work 
experience, which is one of the program's ten elements. Older youth can 
also be served through the WIOA Adult program, where local areas can 
use up to 10 percent of funds to support transitional work experience. 
In addition, YouthBuild awards grants to community-based organizations 
and requires hands-on work experience in a real-world employer setting 
for all industry training provided, while providing supportive 
services, and stipends and wages. The WIOA Youth program, REO program, 
and Job Corps also engage employers to provide these meaningful work 
experience opportunities for at-risk youth. The Department works with 
industry groups, companies, non-profit organizations, unions, and joint 
labor-management organizations to develop workforce development 
programs, such as pre-apprenticeship, apprenticeship, and career 
pathways that allow young people to earn and learn simultaneously, 
leading to family-sustaining jobs.
    The Department provides support to States to administer the Work 
Opportunity Tax Credit (WOTC) and the Federal Bonding Program (FPB). 
WOTC provides a tax credit to employers that hire formerly-incarcerated 
youth and young adults. FPB just launched a demonstration project to 
expand the use of Federal bonds across the country through the use of 
bonds to employers that hire formerly-incarcerated individuals, 
including youth and young adults.
                       women's bureau budget cuts
    Question. From Alzheimer's disease, to the chronic care needs of an 
aging parent, or the emotional or physical health need of a child, tens 
of millions of Americans are pressed into service to care for their 
loved ones. The average family caregiver spends $7,000 of their own 
money every year to provide care to loved ones, with an average 
commitment of 24 hours per week. And millions more serve as 
professional home care aides, child care workers, and early childhood 
educators--providing important forms of care for Americans from birth 
to death. More needs to be done to support our Nation's caregivers and 
recognize the heroic job that they perform every day. More than 60 
percent of caregivers are women, and the Women's Bureau plays an 
important role in improving workplace practices for women who currently 
lack adequate flexibility, benefits, and supports such as equal pay, 
paid family leave, and childcare. I am very concerned that the fiscal 
year 2020 budget request would cut funding for the Women's Bureau by 74 
percent.
    Even without these budget cuts, the Federal Government is 
dedicating far too few resources to policies that meet the challenges 
faced by the caregiving workforce. Did you approve the proposed cuts to 
the Women's Bureau budget?
    Answer. Women are nearly fifty percent of the workforce and the 
President's fiscal year 2020 budget and previous budget requests 
reflect the importance of women in the workforce.
    The Women's Bureau serves an important role at the Department of 
Labor, promoting and advancing the interests of working women by 
convening stakeholders, advising on policy change, and starting 
conversations around topics that are critical to women, their families, 
and our Nation's prosperity. Success for the Women's Bureau is achieved 
when the issues it champions move beyond the Bureau, because that means 
the problems and opportunities identified through its work are being 
addressed.
    Next year, the Women's Bureau will celebrate its Centennial year, 
which provides an opportunity to reflect on how far women have come 
over the past 100 years. Over the past century, the Women's Bureau has 
successfully advocated for workplace safety standards, family leave 
benefits, and pay equality protections.
    The Women's Bureau has recently taken a number of actions to 
advance women's workplace policies and influence the current state of 
women in the workforce. Since the beginning of 2017, the Women's Bureau 
has:
  --Partnered with the Department of Health and Human Services to help 
        increase working families' access to affordable, quality child 
        care;
  --Worked with the Small Business Administration (SBA) and the 
        Treasury Department to grow opportunities for women in 
        entrepreneurship;
  --Coordinated with the Employment and Training Administration (ETA) 
        to increase opportunities for women to access and thrive in 
        apprenticeship programs;
  --Joined the Veterans' Employment and Training Service (VETS), the 
        Department of Defense, and others to address employment 
        opportunities and reducing occupational licensing barriers for 
        military spouses, 92 percent of whom are women; and
  --Supported the Trump Administration's commitment to address the 
        opioid crisis with a focus on helping women who have been 
        impacted by the opioid crisis.
    None of these efforts will be negatively affected by the fiscal 
year 2020 budget. Instead, the Department will more effectively support 
and advance the mission of the Women's Bureau by focusing the Bureau's 
resources on conducting research and collaborating with agencies and 
departments across the government. In the coming year, the Women's 
Bureau will collaborate with ETA and VETS to support grant work on 
State licensing and promoting employment for military spouses; with the 
White House to identify innovative solutions to childcare; and with SBA 
to expand opportunities for women to thrive in entrepreneurship.
    As mentioned previously, the Women's Bureau provides research and 
analysis on the issues of interest to working women. Following a 
request by members of the Senate, the Women's Bureau commissioned a 
study, which is still in the early stages of analysis, to produce an 
independent, more precise and current estimate of the gender wage gap. 
The commissioned work will update a study on the gender wage gap issued 
by the Department in 2009. The 2009 study, which was funded by the 
Department and produced by the CONSAD Research Corporation, 
systematically reviewed then-available research on gender differentials 
in earnings and used data from the Current Population Survey to 
identify factors (including education, occupation, industry, work 
experience, and career interruptions) that contributed to the gender 
wage gap.
    In addition to the CONSAD update research study, the Women's Bureau 
is partnering with the Census Bureau to link administrative and survey 
data to produce a more precise and current estimate of the gender wage 
gap. The study will include an in-depth examination of variables such 
as industry, occupation, education and work experience that contribute 
to the gender wage gap. Findings from both projects are expected by the 
end of the 2019 calendar year.
    While recognizing that many factors go into determining wages, 
data-driven information concerning the wage gap provides a baseline for 
women planning careers to learn about prospective occupations, and as a 
comparison point for women already in the labor force to evaluate their 
wages. The Women's Bureau has an interactive visualization tool 
available on the Women's Bureau website, which shows average wages for 
women and men in more than 300 occupations.
    ETA also supports programs to provide workforce development 
services for female workers. For example, the Women's Bureau is 
collaborating with the Office of Apprenticeship (OA) to recruit and 
retain women in pre-apprenticeship and apprenticeship programs as 
potential pathways for women to non-traditional occupations that may 
have higher average salaries. Through WIOA, ETA supports programs that 
provide workforce development services for individuals with barriers to 
employment, including over two million women workers in Program Year 
2017. In addition, WIOA emphasizes providing services and placing women 
in non-traditional occupations, such as apprenticeships, that may have 
higher average salaries.
    Question. How do cuts to the Women's Bureau help improve working 
conditions and opportunities for employment for women, especially our 
Nation's caregiving workforce?
    Answer. Please see the response to the prior question.
                  addressing the impact of automation
    Question. In your testimony, you note that the ``dedication, 
ingenuity, and innovation of our American workforce . . . is 
unparalleled''. I agree. And that is why I'm committed to finding ways 
the Federal Government can be an engaged partner in providing American 
workers with the tools they need to upskill and prepare for jobs of the 
future. A 2017 study from Ball State University estimated that between 
50 and 60 percent of jobs in my home State of Illinois could be at risk 
of becoming automated. And low-income workers and women are at greater 
risk of being impacted by these changes in the nature of work.
    Has the Department taken steps to better understand the impact of 
automation--and best retraining practices--on specific populations such 
as women, minorities, or low-income workers?
    Answer. The Department is actively taking steps to better 
understand the impact of automation on the American workforce. 
Specifically, the Department is exploring additional ways to use 
existing or new data collection efforts to identify and track the 
workforce effects of advanced technologies. In fiscal year 2020, the 
Department's Bureau of Labor Statistics (BLS) plans to complete several 
relevant work products, including: a literature review that summarizes 
and synthesizes economic theory on the interaction between labor and 
capital in the workplace and how this is affected by new technologies; 
an analysis that identifies how the key constructs are currently 
captured by domestic and international statistical agencies and ways to 
supplement the data that BLS currently collects; and a final report 
that recommends data collection options to fill those gaps as well as 
methodologies for leveraging existing BLS data to the fullest extent. 
Once finalized, BLS plans to report this work to Congress as well as 
make information publicly available on the DOL website. Through this 
comprehensive approach, BLS will be able to fully consider the complex 
nature of how technology might interact with labor from both an 
economic measurement and survey methodology perspective.
    The Department's Employment and Training Administration (ETA) will 
also leverage the work of BLS in considering whether and how to adjust 
the Occupational Information Network (O*NET) survey or products. O*NET 
will continue to provide information to the general public and 
researchers through the O*NET database and supporting websites, which 
offer a variety of occupational characteristics and requirements data. 
For example, the tasks and detailed work activities of occupations 
listed on O*NET have been used to assess the impact of automation. 
O*NET also updates the tools and technology skills of occupations more 
frequently--twice yearly--than the entire occupation profile.
    Question. Is the Department coordinating with other Federal 
agencies, especially other agencies that support job training efforts, 
to comprehensively address the potential workforce effects of advanced 
technologies?
    Answer. The Department is working with the White House's Office of 
Science and Technology Policy, which is supporting the Administration's 
efforts to help Americans adjust to economic changes, including those 
stemming from automation. BLS has already begun exploring the potential 
impact of advanced technologies and is coordinating with the Census 
Bureau on research activities in this area. The Department is also 
supporting the Department of Commerce's Network for Manufacturing 
Innovation Program (Manufacturing USA), which includes work on advanced 
robotics, by proactively sharing informational resources, websites, and 
other information developed by BLS.
    Further, the Department has and continues to collaborate with the 
Department of Transportation (DOT) to assess economic changes in the 
trucking industry. In the Consolidated Appropriations Act of 2018 
(Public Law 115-141), Congress provided funding to DOT to conduct a 
comprehensive analysis of the impact of Advanced Driver Assist Systems 
and Highly Automated Vehicles technologies on drivers and operators of 
commercial motor vehicle, including the potential for any labor 
displacement. Further, the Department and DOT organized multiple 
stakeholder outreach events with industry, labor, technologists, and 
users in order to gather and share information regarding the potential 
effects of the adoption of advanced technologies. The Department and 
DOT held a stakeholder meeting on March 20, 2019, and plan to hold 
another one in calendar year 2019. The Department and DOT anticipate 
the comprehensive analysis and recommendations to address potential 
displacement will be available in summer 2019.
               increasing enrollment in job corps centers
    Question. According to data from the Aspen Institute, there are 
approximately 4.6 million disconnected youth in America--youth ages 16-
24 who do not have a job and are not in school. Youth of color, youth 
with disabilities, youth living in poverty and young mothers are more 
likely to be part of this group. Given the number of youth in need of 
high quality job training, there is no reason a program like Job Corps 
should be underenrolled. I find it concerning that the Department of 
Labor has not undertaken significant proactive measures, including 
increasing the number of Admissions Counselors, using effective marking 
strategies that target youth on social media and more effectively 
leveraging its Centers and operators, in order to better reach youth. 
It is my understanding, for instance, that media outreach has been 
highly restricted for months, including banning positive newspaper and 
television interviews with staff and students, limiting Job Corps 
Centers' ability to gain positive press that can lead to enrollment.
    What proactive steps is the Department now undertaking to ensure 
Job Corps Centers are fully enrolled in the near term?
    Answer. Job Corps recently increased its oversight and 
accountability over the implementation and adequacy of required 
Outreach and Public Education Plans created by outreach and admissions 
providers. These plans include, among other elements, outreach 
strategies to achieve and maintain center capacity; plans to ensure 
coordination of efforts between contractors and centers; and a 
description of the public education and outreach methods that the 
contractor will develop. By increasing accountability, the Job Corps 
program has increased enrollment during the past year. Job Corps 
continues to monitor follow-up activities associated with potential 
applicants expressing interest in the program by conducting weekly 
teleconferences with outreach and admissions providers to review 
potential applicant and new applicant information in detail.
    Currently, Job Corps is using a digital media campaign to increase 
Job Corps' On-Board-Strength (OBS) at many of its largest centers. This 
campaign includes using a digital outreach strategy for each of the 
targeted centers and requires frequent coordination among regional Job 
Corps staff, a media consultant, outreach and admissions providers, and 
center operators. Regular meetings are used to review and analyze OBS-
related data, identify and resolve barriers to increasing student 
enrollment and retention, and provide feedback on center-specific media 
outreach.
    Job Corps is transitioning stand-alone outreach and admissions 
activities into center operations contracts. By consolidating these 
activities into the center operations contract, Job Corps center 
operators assume a more direct responsibility for ensuring that their 
centers are operating at full capacity.
    Before the end of the year, Job Corps will finalize its new 
methodology for creating the Geographic Assignment Plan (GAP). This new 
plan, referred to as the National Enrollee Assignment Plan (NEAP), will 
apply a standard formula to all Job Corps centers to determine the 
number of new students each center must enroll to maintain full 
capacity. Historically, Job Corps used a fixed national average of 
students it anticipated would leave the program each year to help 
calculate the arrival goals for each admissions provider. The new NEAP 
approach utilizes center-specific separation rates to set contract 
arrival goals. Centers with higher separation rates will have higher 
arrival goals in order to align with actual recruitment needs. These 
revised goals will be included in each admissions provider's contract 
to ensure that Job Corps centers are closer to full capacity.
    As part of its new NEAP strategy, Job Corps is reestablishing its 
defined recruitment areas so that they align with each State's Local 
Workforce Development Areas (LWDA). As a result of aligning recruitment 
efforts with LWDAs, Job Corps' outreach and admissions providers will 
have the opportunity to work in collaboration with partners in the 
workforce system, including receiving and providing referrals for 
individuals who express interest in the Job Corps program or are in 
need of other workforce development assistance.
    Finally, in 2019, Job Corps plans to launch a new student 
enrollment services system to identify and minimize delays and 
bottlenecks in the enrollment and center assignment processes. The new 
system will also improve the career counseling that occurs resulting in 
better matching of enrollee interests and/or aptitudes with a skills 
instruction program. The net results should be improved enrollments and 
student arrivals, and retention.
    Each month, approximately 18,000 youth express some interest in Job 
Corps' education and skills instruction program. This interest is 
primarily expressed through Job Corps' website. Prospective applicant 
information is provided directly to outreach and admissions contractors 
for follow-up. To capitalize on this interest and increase enrollment 
in the program, Job Corps is currently developing a new student 
enrollment services system and a new information technology (IT) 
platform will be developed accordingly.
    The IT upgrades in the new enrollment services system will be 
designed to ensure that the eligible at-risk youth in the enrollment 
pipeline are promptly processed and enrolled. The new enrollment 
services system will seek to leverage technology to improve 
efficiencies in the system by monitoring the processing of applicants, 
and quickly resolving delays and bottlenecks, which will reduce 
application processing times. Job Corps' expanded use of technology 
will also create greater transparency by making application and 
enrollment data available in real time to those involved in the 
outreach, admissions, and center assignment processes. These changes 
will also provide tech-savvy youth easy access to Job Corps' 
application and a better user experience during the enrollment process. 
Finally, the new enrollment services system will provide meaningful 
career counseling during the admissions process. This will allow Job 
Corps to better manage enrollee expectations and better match enrollee 
interests and aptitudes with a skills instruction program. All of these 
efforts will support student recruitment and retention, as well as 
result in full utilization of Job Corps centers.
           water industry registered apprenticeship programs
    Question. The Illinois rural water utilities industry must fill 
open positions left behind by the aging water industry workforce. 
According to the Bureau of Labor Statistics, it is expected that 
employment in Drinking Water and Wastewater Treatment Plant System 
Operations will decline by 3 percent between 2016 and 2026. The water 
and wastewater utilities industry is in need of a pipeline of skilled 
workers to help ensure clean and safe water for the public and to 
maintain the water infrastructure necessary to keep service areas 
economically viable. This is especially important in rural America, 
where 92 percent of systems serve communities of 10,000 or less. Water 
and wastewater utilities are the backbone of economic development. It 
is crucial that this industry not fall behind because of a lack of 
qualified employees.
    Has the Department considered prioritizing funding for water 
industry registered apprenticeship programs? If so, how does the 
Department plan to use Federal funds to enhance water industry 
apprenticeship programs?
    Answer. On May 3, 2019, the Department announced apprenticeship 
expansion funding to States via Training and Employment Guidance Letter 
17-18. Through an allotment process, the funding is available to all 
States, and allows the flexibility for efforts targeted in rural areas. 
States, in coordination with industry partners, are encouraged to 
identify the most pressing workforce areas where apprenticeship 
expansion strategies will make the greatest impact. More specifically, 
funds are to be aligned with sectors identified as priorities in the 
Workforce Innovation and Opportunity Act (WIOA) and in broader economic 
development plans. In order for investments to be successful, industry 
must be a key driver.
    To provide support for industry, States, and other key 
stakeholders, the Department developed National Guideline Standards of 
Apprenticeship with the National Rural Water Association (NRWA) for 
water utility jobs and will continue to support the industry's need for 
any future apprenticeship program expansion.
    In the fall of 2018, the U.S. Department of Agriculture (USDA) 
awarded a $6 million grant to the NRWA for further development of its 
national apprenticeship program. With this new funding from USDA, NRWA 
will have additional means to help States develop Registered 
Apprenticeship Programs (RAPs) for water and wastewater system 
operations specialists.
    In addition, in May 2019, the Department released a funding 
opportunity through the Apprenticeship Expansion and Modernization Fund 
to support the development of innovative tools and strategies that, 
while relatively untested, hold promise to transform Registered 
Apprenticeship and support the expansion of RAPs throughout the Nation. 
This opportunity allows applicants to propose innovative projects that 
best meet the specific challenges and needs in their area, their 
industry, or the local population. Vendor proposals are in development 
and may include projects that support workforce development in rural 
areas.
    Question. Has the Department consulted with stakeholders and rural 
communities to address staffing issues within the water and waste water 
utilities industry?
    Answer. The Department is committed to expanding apprenticeship 
opportunities across a broad range of sectors and occupations, 
particularly in those industries where a shortage of skilled workers 
threatens the long-term safety and economic growth of rural 
communities. Over the next decade, the water sector is expected to lose 
between 30 to 50 percent \8\ of its workforce to retirement. The 
establishment and growth of quality apprenticeship programs in the 
water and wastewater utilities industries can provide an effective 
workforce strategy for addressing the emerging skills gap in these 
critical fields.
---------------------------------------------------------------------------
    \8\ GAO Report 18-102, ``Water and Wastewater Workforce: Recruiting 
Approaches Helped Industry Hire Operators, but Additional EPA Guidance 
Could Help Identify Future Needs,'' 
January 2018, p. 17.
---------------------------------------------------------------------------
    Through its National Guidelines Standards of apprenticeship, the 
Department has assisted stakeholders and industry associations in 
developing nationally-recognized education and training standards for 
specific water utility occupations. On November 14, 2017, at a signing 
ceremony at the Department's headquarters in Washington, D.C., the 
National Rural Water Association (NRWA) formally announced an 
apprenticeship program for rural water utilities (the ``WaterPro 
Apprenticeship Program'') with the Department's Office of 
Apprenticeship (OA). Bulletin 2017-47 publicized the WaterPro 
apprenticeship program, which establishes a set of National Guideline 
Standards of apprenticeship that are tailored to the specific 
occupational requirements of water system operations specialists and 
wastewater system operations specialists. As a leading provider of 
training for rural water and wastewater systems, NRWA is currently 
collaborating with State and local leaders to accelerate the 
development of RAPs covering these critical occupations.
    At present, a total of 17 NRWA State affiliates have successful 
RAPs that conform to these NRWA National Guideline Standards, and 
registration applications from NRWA affiliates in 12 additional States 
are currently in process. Nationally, 140 active apprentices are 
enrolled in the NRWA-sponsored apprenticeship program. Local NRWA-
affiliated program sponsors include Pentair, Inc. (based in Aurora, 
Illinois) and the West Virginia American Water Joint Apprenticeship and 
Training Committee (based in Charleston, West Virginia). The 
groundbreaking NRWA RAPs directly address the concerns raised by GAO 
Report 18-102 (January 2018) about the current and growing nationwide 
shortage of well-trained drinking water and wastewater management 
professionals. For more information concerning the NRWA national 
apprenticeship program, please visit the following links:
  --https://nrwa.org/initiatives/apprenticeship-program
  --https://nrwa.org/2017/11/nrwa-partners-with-department-of-labor-on-
        apprenticeship-program/
    In the fall of 2018, the U.S. Department of Agriculture (USDA) 
awarded a $6 million grant to the NRWA for further development of its 
national apprenticeship program. With this new funding from USDA, NRWA 
will have additional means to help States develop RAPs for water and 
wastewater system operations specialists.
    The Department recently attended the NRWA annual meeting in Fort 
Worth, Texas and met with key stake holders attending the conference in 
our efforts to promote to the industry the benefits to the 
apprenticeship system. This included open discussion with various 
stakeholders on what they as an industry see as their biggest 
challenges and how the apprenticeship system can work to help eliminate 
those issues. Departmental staff members across the country continue to 
meet with local employers to assist in getting their individual 
programs registered.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                  addressing the impact of automation
    Question. The fiscal year 2018 Omnibus provided funding for the 
Department of Transportation to conduct a study with the Department of 
Labor to better understand the consequences of automation for middle-
class workers, whose jobs involve driving. The study is now overdue.
    When will it be submitted? What steps does the Department plan to 
take to address potential displacement in driving-related occupations?
    Answer. The Department has and continues to collaborate with the 
Department of Transportation (DOT) to assess economic changes in the 
trucking industry. In the Consolidated Appropriations Act of 2018 
(Public Law 115-141), Congress provided funding to DOT to conduct a 
comprehensive analysis of the impact of Advanced Driver Assist Systems 
and Highly Automated Vehicles technologies on drivers and operators of 
commercial motor vehicle, including the potential for any labor 
displacement. Further, the Department and DOT organized multiple 
stakeholder outreach events with industry, labor, technologists, and 
users in order to gather and share information regarding the potential 
effects of the adoption of advanced technologies. The Department and 
DOT held a stakeholder meeting on March 20, 2019, and plan to hold 
another one in calendar year 2019. The Department and DOT anticipate 
the comprehensive analysis and recommendations to address potential 
displacement will be available in summer 2019.
    In a March 7, 2019, report ``Automated Trucking: Federal Agencies 
Should Take Additional Steps to Prepare for Potential Workforce 
Effects,'' the Government Accountability Office recommended that: ``The 
Secretary of Labor should consult with the Secretary of Transportation 
to share information with key stakeholders on the potential effects of 
automated trucking on the workforce as the technology evolves. These 
stakeholders could include representatives of other relevant Federal 
agencies, technology developers, the trucking industry, organizations 
that represent truck drivers, truck driver training schools, State 
workforce agencies, and local workforce development boards.''
    Question. What specific outreach is the Department making to 
industry and labor organization stakeholders on this issue? How will 
the Department sustain its outreach?
    Answer. The Government Accountability Office (GAO) extensively 
reviewed the Department's outreach, and summarized some of those 
efforts in its March 7, 2019, report. As noted by GAO, the Department 
and DOT organized multiple stakeholder outreach events with industry, 
labor, technologists, and users in order to gather and share 
information regarding the potential effects of the adoption of advanced 
technologies. Building on these efforts, the Department and DOT held a 
stakeholder meeting on March 20, 2019, which included multiple industry 
and labor organizations, and plan to hold another one in calendar year 
2019.
    GAO also noted in the same report that it does ``not have 
information to identify the number of long-haul truck drivers, whose 
jobs may be the most likely to be affected by automation. Specifically, 
the occupational code DOL uses to classify heavy and tractor-trailer 
truck drivers captures drivers who operate any type of heavy truck. 
Along with long-haul drivers, this code includes other drivers whose 
jobs may be harder to automate, such as tow truck operators.''
    Question. What steps is the Department taking to develop data that 
will better identify and track occupations that will be affected by 
automation?
    Answer. The Department is actively taking steps to better 
understand the impact of automation on the American workforce. 
Specifically, the Department is exploring additional ways to use 
existing or new data collection efforts to identify and track the 
workforce effects of advanced technologies. In fiscal year 2020, the 
Department's Bureau of Labor Statistics (BLS) plans to complete several 
relevant work products, including: a literature review that summarizes 
and synthesizes economic theory on the interaction between labor and 
capital in the workplace and how this is affected by new technologies; 
an analysis that identifies how the key constructs are currently 
captured by domestic and international statistical agencies and ways to 
supplement the data that BLS currently collects; and a final report 
that recommends data collection options to fill those gaps as well as 
methodologies for leveraging existing BLS data to the fullest extent. 
Once finalized, BLS plans to report this work to Congress as well as 
make information publicly available on the DOL website. Through this 
comprehensive approach, BLS will be able to fully consider the complex 
nature of how technology might interact with labor from both an 
economic measurement and survey methodology perspective.
    The Department's Employment and Training Administration (ETA) will 
also leverage the work of BLS in considering whether and how to adjust 
the Occupational Information Network (O*NET) survey or products. O*NET 
will continue to provide information to the general public and 
researchers through the O*NET database and supporting websites, which 
offer a variety of occupational characteristics and requirements data. 
For example, the tasks and detailed work activities of occupations 
listed on O*NET have been used to assess the impact of automation. 
O*NET also updates the tools and technology skills of occupations more 
frequently--twice yearly--than the entire occupation profile.
    Question. Has the Department reviewed this report and what steps is 
it taking to address the issues raised in this report in its policies 
and programs?
    Answer. The Department is aware of the report, which was published 
on April 25, 2019. The Department will take information provided by 
interested stakeholders, such as the OECD, into consideration as it 
continues to support the Administration's efforts to help Americans 
adjust to economic changes, including those stemming from automation.
                        job corp pilot programs
    Question. Please provide a list of all stakeholders that the 
Department consulted in developing the proposal for pilot programs.
    Answer. The Job Corps Job ChalleNGe Demonstration Project will 
serve Job Corps eligible youth, providing them access to a high school 
diploma or equivalency as well as skills instruction. The Department 
engaged the Department of Defense, National Guard Bureau and others in 
the Department of Defense, and State officials about collaborating to 
serve at-risk youth through the National Guard in the various States 
interested in participating in such a Job ChalleNGe demonstration 
project.
    The Department has engaged governors and other State officials by 
exploring their interest in participating in a State-operated Job Corps 
demonstration project. A State-operated Job Corps program involves 
engagement of State officials who have expressed interest in 
alternative approaches to serving Job Corps eligible youth. The 
demonstrations, such as the Idaho JOBCorps project at the Centennial 
Job Corps Center, explore whether providing flexibility to States to 
develop and implement customized, State-based approaches to serving Job 
Corps eligible students is an effective model. Once fully operational, 
the Idaho demonstration project will serve more students than the 
number served by the center when it was operated as a traditional Job 
Corps center. Moreover, the majority of these students will be from the 
State of Idaho.
    In addition, in May, the Department announced the Job Corps 
Scholars Program, designed to serve Job Corps eligible youth by 
providing extensive counseling and employment related services through 
existing educational institutions rather than a traditional Job Corps 
center facility. In addition to engaging the Department of Education 
about the program, Job Corps sought public comments through a Notice of 
Intent in order to engage as many stakeholders as possible. The comment 
period closed on July 3, and DOL is now in the process of reviewing the 
comments, after which we will make any necessary revisions and publish 
the funding opportunity announcement and begin accepting grant 
applications.
    Question. How will the pilot program serve Job Corps-eligible 
students who do not have a high school diploma?
    Answer. Per WIOA, Job Corps has a wide range of eligibility 
criteria which include individuals with one or more of the below 
criteria, in addition to meeting the basic age requirement and being 
low income (unless a veteran has military income from the 6-month 
period prior to applying to Job Corps that makes them not low income). 
These include:
  --Basic skills deficient;
  --A school dropout;
  --A homeless individual (as defined in section 41403(6) of the 
        Violence Against Women Act of 1994 (42 U.S.C. 14043e--2(6))), a 
        homeless child or youth (as defined in section 725(2) of the 
        McKinney-Vento Homeless Assistance Act (42 U.S.C. 11434a(2))), 
        a runaway, an individual in foster care, or an individual who 
        was in foster care and has aged out of the foster care system;
  --A parent; or
  --An individual who requires additional education, career and 
        technical education or training, or workforce preparation 
        skills to be able to obtain and retain employment that leads to 
        economic self-sufficiency.
    For the most recently completed program year, June 30, 2018, nearly 
40 percent of Job Corps' students had a high school diploma or 
equivalency when they entered the program. The Idaho JOBCorps Program, 
a State-operated demonstration project at the Centennial Job Corps 
Center Job Corps, will also serve Job Corps eligible youth without a 
high school diploma or equivalency. Through their Basic Skills 
Education program, the College of Western Idaho offers services for 
those seeking a GED certificate.
    The Job Corps Scholars Program demonstration requires each Job 
Corps eligible students participating in the program to meet the 
admissions requirements of his or her participating community college 
or university. In some cases, that may mean already having a high 
school diploma. However, in other cases, admission may be based on an 
entrance exam. Students completing the Job Corps Scholars Program may 
seek employment upon completing the program, pursue an associate or 4-
year college degree, or join the military.
    The Job ChalleNGe program, proposed as a demonstration project, 
will serve students without high school diplomas because it requires 
the recruitment of Job Corps eligible youth from among the participants 
of the National Guard Youth ChalleNGe program. Youth ChalleNGe is a 
program for 16 to 18 year olds who failed to complete traditional high 
school. Job ChalleNGe places these young adults on the path to 
employment through occupational skills training, educational 
credentialing, counseling, and job placement.
    Question. How will the projects serve the full age-range of Jobs 
Corps-eligible students?
    Answer. Job Corps' statutory age eligibility is not less than age 
16 and not more than age 24 on the date of enrollment. The Idaho 
JOBCorps program and the Job Corps Scholars program will serve the full 
age range of Job Corps eligible youth. The National Guard Youth 
ChalleNGe program serves individuals 16 to 18 years old who have not 
completed high school graduation requirements. It is anticipated that 
the age of most Job ChalleNGe participants will be 17 to 19 years old
    Question. Will the pilot programs have to comply with all Job Corps 
policies and requirements?
    Answer. Under Section 156(a) of the Workforce Innovation and 
Opportunity Act (WIOA), the Secretary may carry out experimental, 
research, or demonstration projects relating to the Job Corps program. 
The Secretary may waive any provisions that would prevent the 
Department from carrying out the projects if the Department informs the 
Committee on Education and the Workforce of the House of 
Representatives and the Committee on Health, Education, Labor, and 
Pensions of the Senate. This notice must be in writing, and provided no 
less than 90 days in advance of issuing any waiver.
    The Department announced and provided the required waiver 
notifications for the State-Operated Job Corps Demonstration Projects 
and the National Guard Job ChalleNGe Demonstration Projects in December 
2018. To provide the flexibility necessary to deliver skills 
instruction and education services to Job Corps eligible youth in a new 
and innovative manner, the Department waived provisions of WIOA for 
these demonstration projects while retaining the statutory provisions 
associated with program eligibility and the youth performance 
indicators. However, for the Job ChalleNGe Project, the Department also 
waived two of the six youth performance indicators. The two youth 
measures waived were measureable skill gains and effectiveness in 
serving employers. Given the age of the participants and training 
received in the Youth ChalleNGe program, these two youth measures were 
not well tailored to the population served.
    In May 2019, the Department announced and provided the required 
waiver notification for the Job Corps Scholars Program, a new 
demonstration project to provide at-risk youth with job skills 
instruction, educational opportunities, and individualized employment 
counseling. With this demonstration, the Department is retaining the 
statutory provisions associated with Job Corps program eligibility and 
the six youth performance indicators. The Department is currently 
seeking public comments on the Job Corps Scholars model on grants.gov.
                    job corp staffing and enrollment
    Question. What steps is the Department taking to ensure that 
outreach and enrollment activities are effective in reaching potential 
students and families?
    Answer. Job Corps recently increased its oversight and 
accountability over the implementation and adequacy of required 
Outreach and Public Education Plans created by outreach and admissions 
providers. These plans include, among other elements, outreach 
strategies to achieve and maintain center capacity; plans to ensure 
coordination of efforts between contractors and centers; and a 
description of the public education and outreach methods that the 
contractor will develop. By increasing accountability, the Job Corps 
program has increased enrollment during the past year. Job Corps 
continues to monitor follow-up activities associated with potential 
applicants expressing interest in the program by conducting weekly 
teleconferences with outreach and admissions providers to review 
potential applicant and new applicant information in detail.
    Currently, Job Corps is using a digital media campaign to increase 
Job Corps' On-Board Strength (OBS) at many of its largest centers. This 
campaign includes using a digital outreach strategy for each of the 
targeted centers and requires frequent coordination among regional Job 
Corps staff, a media consultant, outreach and admissions providers, and 
center operators. Regular meetings are used to review and analyze OBS-
related data, identify and resolve barriers to increasing student 
enrollment and retention, and provide feedback on center-specific media 
outreach.
    Job Corps is transitioning stand-alone outreach and admissions 
activities into center operations contracts. By consolidating these 
activities into the center operations contract, Job Corps center 
operators assume a more direct responsibility for ensuring that their 
centers are operating at full capacity.
    Before the end of the year, Job Corps will finalize its new 
methodology for creating the Geographic Assignment Plan (GAP). This new 
plan, referred to as the National Enrollee Assignment Plan (NEAP), will 
apply a standard formula to all Job Corps centers to determine the 
number of new students each center must enroll to maintain full 
capacity. Historically, Job Corps used a fixed national average of 
students it anticipated would leave the program each year to help 
calculate the arrival goals for each admissions provider. The new NEAP 
approach utilizes center-specific separation rates to set contract 
arrival goals. Centers with higher separation rates will have higher 
arrival goals in order to align with actual recruitment needs. These 
revised goals will be included in each admissions provider's contract 
to ensure that Job Corps centers are closer to full capacity.
    As part of its new NEAP strategy, Job Corps is reestablishing its 
defined recruitment areas so that they align with each State's Local 
Workforce Development Areas (LWDA). As a result of aligning recruitment 
efforts with LWDAs, Job Corps' outreach and admissions providers will 
have the opportunity to work in collaboration with partners in the 
workforce system, including receiving and providing referrals for 
individuals who express interest in the Job Corps program or are in 
need of other workforce development assistance.
    Finally, in 2019, Job Corps plans to launch a new student 
enrollment services system to identify and minimize delays and 
bottlenecks in the enrollment and center assignment processes. The new 
system will also improve the quality of career counseling provided, 
resulting in better matching of enrollee interests and/or aptitudes 
with a skills instruction program. The net results should be improved 
enrollments, student arrivals, and retention.
    Each month, approximately 18,000 youth express some interest in Job 
Corps' education and skills instruction program. This interest is 
primarily expressed through Job Corps' website. Prospective applicant 
information is provided directly to outreach and admissions contractors 
for follow-up. To capitalize on this interest and increase enrollment 
in the program, Job Corps is currently developing a new student 
enrollment services system, which will include a new information 
technology (IT) platform.
    The IT upgrades in the new enrollment services system will be 
designed to ensure that the eligible at-risk youth in the enrollment 
pipeline are promptly processed and enrolled. The new enrollment 
services system will seek to leverage technology to improve 
efficiencies in the system by monitoring the processing of applicants, 
and quickly resolving delays and bottlenecks, which will reduce 
application processing times. Job Corps' expanded use of technology 
will also create greater transparency by making application and 
enrollment data available in real time to those involved in the 
outreach, admissions, and center assignment processes. These changes 
will also provide tech-savvy youth easy access to Job Corps' 
application and a better user experience during the enrollment process. 
Finally, the new enrollment services system will provide meaningful 
career counseling during the admissions process. This will allow Job 
Corps to better manage enrollee expectations and better match enrollee 
interests and aptitudes with a skills instruction program. All of these 
efforts will support improved student recruitment and retention, 
resulting in full utilization of Job Corps centers.
    Question. How will the Department ensure that all Job Corps Centers 
are operating at full on-board strength?
    Answer. Please see the response to the prior question.
        professional development and training for job corp staff
    Question. What are the areas of greatest need for professional 
development and staff training at Job Corps Centers?
    Answer. Pursuant to contract terms, each Job Corps center operator 
is responsible for hiring and retaining qualified personnel to provide 
the services required by the contract. As such, individual center 
operators can best answer the need for professional development and 
staff training.
    Question. What resources are available under current contracts to 
provide professional development and staff training?
    Answer. It is the operator's responsibility to provide and pay for 
staff training. Job Corps supplements the training provided by center 
operators by providing training specific to the operation of Job Corps 
centers. Job Corps has provided both in-person and web-based training 
to center staff, generally at no cost to center operators. For example, 
as the Department implements the transition to firm fixed price 
contracting, training costs will be incorporated into the contractor's 
bid. This gives contractors more flexibility and responsibility for 
knowing and/or projecting training needs and cost.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                           job corps programs
    Question. In my conversations with Granite Staters all across New 
Hampshire, I often hear about the workforce challenges facing our State 
and the importance of investing in programs that equip the next 
generation with the necessary tools to succeed in our evolving economy.
    That is why I have advocated for the Job Corps program since my 
time as Governor. And I was proud that a center finally came to New 
Hampshire in 2015. The Center, which is located in Manchester, serves 
350 students annually. In the current program year, the Manchester 
Center has placed over 85 percent of its graduates in full-time jobs or 
advanced education.
    The Center serves individuals like Manny Lopez, who arrived at New 
Hampshire Job Corps with the goal of achieving his Advanced 
Manufacturing Associates Degree. After working closely with the Center, 
Manny was encouraged to apply to Manchester Community College's 
Robotics program, where he participated in a Robotics Challenge hosted 
by DEKA Research, a technology company founded by the highly-successful 
innovator, Dean Kamen, based in Manchester. To no surprise, Manny was 
on the winning team! After his graduation from New Hampshire Job Corps, 
Manny applied for a coveted position at DEKA research. Just two weeks 
later, Manny was offered a full-time, well-paid and highly-competitive 
position with the company.
    This story is one of many. That is why I am disappointed to see 
that similar to last year's budget request, the President is again 
proposing to cut funding for the Job Corps program by more than $700 
million.
    Has the Department fully considered the success of the Job Corps 
program in preparing students to enter 21st century occupations when 
advocating for these significant funding cuts?
    Answer. The Department of Labor is committed to helping young 
individuals from disadvantaged backgrounds receive high-quality 
vocational and academic instruction opportunities. The Department has 
concerns about the program, irrespective of the funding level, and is 
proceeding based on those concerns with reforms to the program that we 
believe will improve outcomes for youth and make the program more 
effective and efficient. For example, the Department is using its pilot 
project authority to work with governors who are interested in 
establishing pilot projects throughout the United States. As our 
demonstration projects mature, we will assess them to determine whether 
they will offer more effective models for serving at-risk youth as 
compared to the Department's traditional Job Corps program model. The 
Department will also determine whether these alternate approaches are 
more cost effective than the traditional program model. The Department 
will consider scaling efficiencies identified by demonstration projects 
in order to improve the delivery of Job Corps services.
    Overall, the Department is conducting a center by center 
programmatic assessment of performance, surveying physical facilities, 
assessing programmatic sustainability, and considering the workforce 
development needs in each State and area served by a Job Corps center. 
Using this deliberate approach, the Department will determine how to 
allocate the program's fiscal year 2020 resources, including whether to 
close some centers. It is the Department's expectation that through 
concentration of Job Corps activities in a more limited set of higher 
performing centers, we will provide Job Corps participants with higher 
quality services that lead to better outcomes. The Department always 
prioritizes the needs of current Job Corps participants when 
deactivating or consolidating a center, allowing them to complete their 
Job Corps training either at their current center or at a higher 
performing center. Further, the Department will maintain as many 
student slots as possible by increasing Job Corps capacity at remaining 
centers. This approach maximizes the impact of Job Corps' 
appropriation, allowing us to continue to serve at risk youth from all 
fifty States and territories without compromising program 
effectiveness.
    Question. Despite attempts from the Administration to weaken the 
Job Corps program, what steps is the Department currently taking to 
utilize the funds appropriated by Congress to prioritize the program 
and help it reach its maximum student capacity?
    Answer. Job Corps recently increased its oversight and 
accountability over the implementation and adequacy of required 
Outreach and Public Education Plans created by outreach and admissions 
providers. These plans include, among other elements, outreach 
strategies to achieve and maintain center capacity; plans to ensure 
coordination of efforts between contractors and centers; and a 
description of the public education and outreach methods that the 
contractor will develop. By increasing accountability, the Job Corps 
program has increased enrollment during the past year. Job Corps 
continues to monitor follow-up activities associated with potential 
applicants expressing interest in the program by conducting weekly 
teleconferences with outreach and admissions providers to review 
potential applicant and new applicant information in detail.
    Currently, Job Corps is using a digital media campaign to increase 
Job Corps' On-Board-Strength (OBS) at many of its largest centers. This 
campaign includes using a digital outreach strategy for each of the 
targeted centers and requires frequent coordination among regional Job 
Corps staff, a media consultant, outreach and admissions providers, and 
center operators. Regular meetings are used to review and analyze OBS-
related data, identify and resolve barriers to increasing student 
enrollment and retention, and provide feedback on center-specific media 
outreach.
    Job Corps is transitioning stand-alone outreach and admissions 
activities into center operations contracts. By consolidating these 
activities into the center operations contract, Job Corps center 
operators assume a more direct responsibility for ensuring that their 
centers are operating at full capacity.
    Before the end of the year, Job Corps will finalize its new 
methodology for creating the Geographic Assignment Plan (GAP). This new 
plan, referred to as the National Enrollee Assignment Plan (NEAP), will 
apply a standard formula to all Job Corps centers to determine the 
number of new students each center must enroll to maintain full 
capacity. Historically, Job Corps used a fixed national average of 
students it anticipated would leave the program each year to help 
calculate the arrival goals for each admissions provider. The new NEAP 
approach utilizes center-specific separation rates to set contract 
arrival goals. Centers with higher separation rates will have higher 
arrival goals in order to align with actual recruitment needs. These 
revised goals will be included in each admissions provider's contract 
to ensure that Job Corps centers are closer to full capacity.
    As part of its new NEAP strategy, Job Corps is reestablishing its 
defined recruitment areas so that they align with each state's Local 
Workforce Development Areas (LWDA). As a result of aligning recruitment 
efforts with LWDAs, Job Corps' outreach and admissions providers will 
have the opportunity to work in collaboration with partners in the 
workforce system, including receiving and providing referrals for 
individuals who express interest in the Job Corps program or are in 
need of other workforce development assistance.
    Finally, in 2019, Job Corps plans to launch a new student 
enrollment services system to identify and minimize delays and 
bottlenecks in the enrollment and center assignment processes. The new 
system will also improve the quality of career counseling provided, 
resulting in better matching of enrollee interests and/or aptitudes 
with a skills instruction program. The net results should be improved 
enrollments, student arrivals, and retention.
    Each month, approximately 18,000 youth express some interest in Job 
Corps' education and skills instruction program. This interest is 
primarily expressed through Job Corps' website. Prospective applicant 
information is provided directly to outreach and admissions contractors 
for follow-up. To capitalize on this interest and increase enrollment 
in the program, Job Corps is currently developing a new student 
enrollment services system, which will include a new information 
technology (IT) platform.
    The IT upgrades in the new enrollment services system will be 
designed to ensure that the eligible at-risk youth in the enrollment 
pipeline are promptly processed and enrolled. The new enrollment 
services system will seek to leverage technology to improve 
efficiencies in the system by monitoring the processing of applicants, 
and quickly resolving delays and bottlenecks, which will reduce 
application processing times. Job Corps' expanded use of technology 
will also create greater transparency by making application and 
enrollment data available in real time to those involved in the 
outreach, admissions, and center assignment processes. These changes 
will also provide tech-savvy youth easy access to Job Corps' 
application and a better user experience during the enrollment process. 
Finally, the new enrollment services system will provide meaningful 
career counseling during the admissions process. This will allow Job 
Corps to better manage enrollee expectations and better match enrollee 
interests and aptitudes with a skills instruction program. All of these 
efforts will support improved student recruitment and retention, 
resulting in full utilization of Job Corps centers.
                workforce innovation and opportunity act
    Question. The widening skills gap has made it harder for employers 
to find qualified, skilled workers to fill job openings. I often hear 
from business leaders in New Hampshire who have job openings and would 
like to expand, but they can't find enough employees with the right 
qualifications. I also hear from unemployed workers who need help 
getting the necessary training to compete in this evolving job market.
    That is why I have consistently advocated for additional resources 
for State job training programs funded through the bipartisan Workforce 
Innovation and Opportunity Act (WIOA). In New Hampshire and across the 
country, these important programs prepare individuals for work and help 
them improve their prospects in the labor market. However, these 
programs have been starved for investment and are still funded below 
authorized levels. Since 2001, WIOA funding has been cut by 40 percent. 
These cuts mean fewer businesses are served and fewer workers earn the 
skills they need to enter good jobs.
    In years past, the Administration has proposed drastic cuts to 
these programs and while I am pleased that the President's budget 
request for this upcoming fiscal year does not follow-suit, I believe 
that more needs to be done to meet the needs of both workers and 
businesses.
    Can you speak to the important role that Labor Department programs, 
like those authorized under the Workforce Innovation and Opportunity 
Act, play in improving employment rates and economic output in my State 
and many others?
    Answer. The Department is committed to investing in programs that 
work for our job seekers and businesses, including some of those 
authorized by the Workforce Innovation and Opportunity Act (WIOA). The 
fiscal year 2020 Budget prioritizes evidence-based strategies, such as 
apprenticeship, which improve employment outcomes and economic output, 
and proposes eliminating programs that are ineffective, unproven, or 
duplicative. The fiscal year 2020 Budget also proposes additional 
flexibility in the WIOA programs to ensure that State and local 
governments are empowered to make decisions that best suit their States 
and meet the needs of local employers and job seekers.
    WIOA establishes performance accountability indicators and 
performance reporting requirements to assess the effectiveness of 
States and local areas in achieving positive outcomes for individuals 
served by the workforce development and education systems' six core 
programs. States collect performance information and report on 
participant characteristics, services received, and outcomes achieved 
for the following measures: employment in the 2nd quarter after exit; 
employment in the 4th quarter after exit; median earnings of program 
completers in the 2nd quarter after exit; and credential attainment 
rate, which are outcome measures; measurable skill gains, which is a 
progress measure; and the effectiveness in serving employers.
    The WIOA programs operate on a Program Year (PY) basis (July 1-June 
30). PY 2018 (July 1, 2018--June 30, 2019) is the third year State 
grantees will have reported performance information under the WIOA 
performance accountability provisions; the PY 2018 performance 
information will be reported in October 2019. WIOA annual report 
summaries are available at www.doleta.gov/performance/results.
    Question. What additional steps is the Department taking to ensure 
that State agencies, local areas and business have the resources they 
need to address workforce needs?
    Answer. The Department is committed to working with States and 
local governments to ensure the American workforce is the greatest in 
the world. The fiscal year 2020 Budget prioritizes investments in 
effective programs that help to align workforce development efforts 
with market demands. States and local areas know their communities best 
and are best positioned to develop services and strategies for these 
workers to help them be able to find a job and continue participating 
in the workforce. The Department will continue to work with States to 
identify and reduce barriers to provide maximum flexibility to the 
States so States can ensure the best services to our Nation's job 
seekers and businesses.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
                       women's bureau budget cuts
    Question. This administration has claimed to support proposals that 
empower working women, such as paid family leave. Yet, the fiscal year 
2020 budget calls for a 73 percent decrease in funding for the Women's 
Bureau at the Department of Labor.
    Why does the budget cut funding for the Women's Bureau by nearly 75 
percent, and how does this cut reflect on the administration's 
commitment to working women?
    Answer. Women are nearly fifty percent of the workforce and the 
President's fiscal year 2020 budget and previous budget requests 
reflect the importance of women in the workforce.
    The Women's Bureau serves an important role at the Department of 
Labor, promoting and advancing the interests of working women by 
convening stakeholders, advising on policy change, and starting 
conversations around topics that are critical to women, their families, 
and our Nation's prosperity. Success for the Women's Bureau is achieved 
when the issues it champions move beyond the Bureau, because that means 
the problems and opportunities identified through its work are being 
addressed.
    Next year, the Women's Bureau will celebrate its Centennial year, 
which provides an opportunity to reflect on how far women have come 
over the past 100 years. Over the past century, the Women's Bureau has 
successfully advocated for workplace safety standards, family leave 
benefits, and pay equality protections.
    The Women's Bureau has recently taken a number of actions to 
advance women's workplace policies and influence the current state of 
women in the workforce. Since the beginning of 2017, the Women's Bureau 
has:
  --Partnered with the Department of Health and Human Services to help 
        increase working families' access to affordable, quality child 
        care;
  --Worked with the Small Business Administration (SBA) and the 
        Treasury Department to grow opportunities for women in 
        entrepreneurship;
  --Coordinated with the Employment and Training Administration (ETA) 
        to increase opportunities for women to access and thrive in 
        apprenticeship programs;
  --Joined the Veterans' Employment and Training Service (VETS), the 
        Department of Defense, and others to address employment 
        opportunities and reducing occupational licensing barriers for 
        military spouses, 92 percent of whom are women; and
  --Supported the Trump Administration's commitment to address the 
        opioid crisis with a focus on helping women who have been 
        impacted by the opioid crisis.
    None of these efforts will be negatively affected by the fiscal 
year 2020 budget. Instead, the Department will more effectively support 
and advance the mission of the Women's Bureau by focusing the Bureau's 
resources on conducting research and collaborating with agencies and 
departments across the government. In the coming year, the Women's 
Bureau will collaborate with ETA and VETS to support grant work on 
State licensing and promoting employment for military spouses; with the 
White House to identify innovative solutions to childcare; and with SBA 
to expand opportunities for women to thrive in entrepreneurship.
    As mentioned previously, the Women's Bureau provides research and 
analysis on the issues of interest to working women. Following a 
request by members of the Senate, the Women's Bureau commissioned a 
study, which is still in the early stages of analysis, to produce an 
independent, more precise and current estimate of the gender wage gap. 
The commissioned work will update a study on the gender wage gap issued 
by the Department in 2009. The 2009 study, which was funded by the 
Department and produced by the CONSAD Research Corporation, 
systematically reviewed then-available research on gender differentials 
in earnings and used data from the Current Population Survey to 
identify factors (including education, occupation, industry, work 
experience, and career interruptions) that contributed to the gender 
wage gap.
    In addition to the CONSAD update research study, the Women's Bureau 
is partnering with the Census Bureau to link administrative and survey 
data to produce a more precise and current estimate of the gender wage 
gap. The study will include an in-depth examination of variables such 
as industry, occupation, education and work experience that contribute 
to the gender wage gap. Findings from both projects are expected by the 
end of the 2019 calendar year.
    While recognizing that many factors go into determining wages, 
data-driven information concerning the wage gap provides a baseline for 
women planning careers to learn about prospective occupations, and as a 
comparison point for women already in the labor force to evaluate their 
wages. The Women's Bureau has an interactive visualization tool 
available on the Women's Bureau website, which shows average wages for 
women and men in more than 300 occupations.
    ETA also supports programs to provide workforce development 
services for female workers. For example, the Women's Bureau is 
collaborating with the Office of Apprenticeship (OA) to recruit and 
retain women in pre-apprenticeship and apprenticeship programs as 
potential pathways for women to non-traditional occupations that may 
have higher average salaries. Through WIOA, ETA supports programs that 
provide workforce development services for individuals with barriers to 
employment, including over two million women workers in Program Year 
2017. In addition, WIOA emphasizes providing services and placing women 
in non-traditional occupations, such as apprenticeships, that may have 
higher average salaries.
    Question. Given the proposed increase in the Office of Labor-
Management Standards, why choose to invest in a program aimed at 
tearing down the labor movement rather than one focused on empowering 
women in the workplace?
    Answer. The Department's budget proposes additional investments in 
all worker protection agencies including for Federal enforcement by the 
Occupational Safety and Health Administration and for the Wage and Hour 
Division (WHD). In fiscal year 2018, WHD recovered a record 
$304,000,000 in back wages owed to more than 1,300,000 workers.
    Question. What role does the Department see for the Women's Bureau 
with a budget of $3,525,000?
    Answer. Please see the response to the prior question.
               worker safety and health training programs
    Question. Each day in this country, 275 workers die due to job 
related injuries and illnesses, and nearly 10,000 workers are injured 
on the job. Yet, the President's budget cuts key worker safety and 
health training programs, the number of inspectors at OSHA are at their 
lowest levels ever, and 400 more people died on the job in 2017 than 
compared to the average year under the last administration. In 
addition, the use of quick inspections under this administration has 
increased while inspections for high-penalty cases are down 50 percent 
from 2016.
    What is the Department doing to rectify this situation and to 
protect American workers?
    Answer. The Occupational Safety and Health Administration's (OSHA) 
balanced approach to inspect and provide compliance assistant has made 
workplaces safer. Injury and illness rates decreased to 2.8 cases per 
100 workers in 2017, the latest year of data available. This equates to 
nearly 45,800 fewer injury and illness cases in 2017 as compared to 
2016. Workplace fatalities have also declined with 3.5 fatalities per 
100,000 full-time equivalent (FTE) workers in 2017, as compared to 3.6 
per 100,000 FTE in 2016--resulting in 43 fewer fatalities in 2017. OSHA 
aggressively targets high hazard industries and activities through 
enforcement actions as well as compliance assistance activities.
    OSHA has taken several steps to increase its Federal Enforcement 
staffing levels. The agency is seeking to fill all funded Compliance 
Safety and Health Officers (CSHO) positions. All vacancies are being 
recruited for, and OSHA is in the process of on-boarding the 
inspectors. The agency begins the recruitment process as soon as a 
vacancy occurs, or an upcoming retirement is announced. OSHA advertises 
and recruits individuals to fill all current vacancies and the new 
inspectors then begin the on-boarding process. The recruitment and on-
boarding process can take from three to 6 months, which includes the 
time necessary for advertisement, application, screening and 
interviews, and completing the required clearance of applicants under 
consideration, such as security and CSHO physicals. OSHA has also begun 
recruiting for a larger number of positions than available vacancies to 
ensure there is a continuous pool of CSHO applicants for selection when 
future vacancies occur.
    OSHA bases its programmed inspection targeting, i.e., emphasis 
programs, on available inspection data and injury and illness data from 
the Bureau of Labor Statistics. Additional data may be available at the 
local level, as well. OSHA analyzes this data to identify industries 
and processes with the most serious injuries and illnesses. Two 
examples of national initiatives to address these hazards are the 
National Safety Stand-Down to Prevent Falls and the Agency Priority 
Goal (APG) to prevent fatal incidents in trenches. Both are based on 
data showing high fatal incident rates in the construction industry. 
The Fall Stand-Down is the largest compliance assistance effort 
conducted by OSHA. More than one million employees participate in these 
events each year across the country that focus on the importance of 
preventing employee deaths from falls. The APG for excavations and 
trenching was established in 2018 to address an increase in fatal 
injuries of workers in the construction sector. OSHA utilized targeted 
enforcement and consultation in a balanced manner to reduce these 
incidents. These initiatives demonstrate OSHA's two-pronged approach of 
enforcement and compliance assistance to target leading causes of 
injuries and fatalities to reduce injury, illness, and fatality rates.
    OSHA has a variety of programs and tools available that provide 
training, outreach, and assistance to employers and employees. These 
include Alliances, Strategic Partnerships, On-site Consultation, and 
numerous targeted outreach events, such as the Fall Stand Down in 
Construction, which provide information on workplace safety and health 
to the public. The training programs include the Outreach Training 
Program, the OSHA Training Institute (OTI) Education Center Program, 
and OSHA's cooperative programs. Training and outreach programs 
delivered directly by the agency can more efficiently provide the same 
type of information to a broader audience than is delivered through the 
Harwood training grants.
    OSHA's Outreach Training Program and OTI Education Centers are in 
full operation for fiscal year 2019 and the Administration continues 
its support of the programs in its fiscal year 2020 budget request. In 
fiscal year 2018, OSHA trained more than 1,000,000 workers and 
potential workers through the Outreach Training Program, which reaches 
at-risk worker populations, including individuals with limited English 
proficiency. In the same timeframe, the OTI Education Centers trained 
more than 55,000 workers through a nationwide network of OSHA-
authorized training centers that educate participants on the 
recognition, prevention, and elimination of occupational hazards.
    OSHA also offers training to workers through its Compliance 
Assistance Specialists located in various area offices across the 
country; through its use of both formal and informal alliances and 
partnerships with trade associations, labor organizations, and other 
groups; and through training provided by OSHA's On-Site Consultation 
Program in all 50 States and several U.S. Territories.
    The President's fiscal year 2020 Budget for OSHA includes an 
overall request of $557,533,000, an increase of $300,000 for the agency 
from the fiscal year 2019 appropriation. Specifically, the Budget 
proposes additional resources for the following budget activities: 
$3,780,000 for Federal Enforcement, $1,124,000 for Whistleblower 
Programs, $433,000 for Federal Compliance Assistance, and $5,500,000 
for Safety and Health Statistics.
    Question. Given the effectiveness of the program, why did the 
Department choose to eliminate the Harwood Training Grants?
    Answer. OSHA has a variety of programs and tools available that 
provide training, outreach, and assistance to employers and employees. 
These include Alliances, Strategic Partnerships, On-site Consultation, 
and numerous targeted outreach events, such as the Fall Stand Down in 
Construction, which provide information on workplace safety and health 
to the public. The training programs include the Outreach Training 
Program, the OSHA Training Institute (OTI) Education Center Program, 
and OSHA's cooperative programs. Training and outreach programs 
delivered directly by the agency can more efficiently provide the same 
type of information to a broader audience than is delivered through the 
Harwood training grants.
    OSHA's Outreach Training Program and OTI Education Centers are in 
full operation for fiscal year 2019 and the Administration continues 
its support of the programs in its fiscal year 2020 budget request. In 
fiscal year 2018, OSHA trained more than 1,000,000 workers and 
potential workers through the Outreach Training Program, which reaches 
at-risk worker populations, including individuals with limited English 
proficiency. In the same timeframe, the OTI Education Centers trained 
more than 55,000 workers through a nationwide network of OSHA-
authorized training centers that educate participants on the 
recognition, prevention, and elimination of occupational hazards.
    OSHA also offers training to workers through its Compliance 
Assistance Specialists located in various area offices across the 
country; through its use of both formal and informal alliances and 
partnerships with trade associations, labor organizations, and other 
groups; and through training provided by OSHA's On-Site Consultation 
Program in all 50 States and several U.S. Territories.
    Question. Why prioritize quick, random inspections over ones 
undertaken due to serious allegations or workplace injuries?
    Answer. OSHA's priority system for conducting inspections is 
designed to provide the maximum feasible protection to working men and 
women. OSHA's Field Operation Manual (FOM), outlines those priorities 
in Chapter 2, Section IV as shown below:

 
 
 
Priority...................................  Category
First......................................  Imminent Danger
Second.....................................  Fatality/Catastrophe*
Third......................................  Complaints/Referrals
Fourth.....................................  Programmed Inspections
 
*OSHA Area Offices determine the inspection priority of a catastrophe
  using the Memorandum entitled, ``Interim Enforcement Procedures for
  New Reporting Requirements under 29 C.F.R. 1904.39'', dated December
  24, 2014, or unless superseded by future agency-approved
  correspondence.


    The higher priority inspections are unprogrammed inspections, and 
tend to focus on specific areas or hazards, which does not always 
result in a comprehensive scope inspection. However, OSHA is required 
to respond to unprogrammed activity, which generally arises from 
serious workplace injuries/illnesses or allegations.
    Question. How can you explain the decrease in inspections related 
to high-penalty cases, heat concerns, and workplace violence?
    Answer. The Occupational Safety and Health Administration (OSHA) is 
revising its enforcement weighting system. The updated system will 
include a greater emphasis on the impact of inspections, rather than 
the current system's emphasis on the resources expended in an 
inspection. With this revision, OSHA can emphasize inspections that are 
not resource intensive, but save more lives and reduce exposure to 
hazards. These inspections include those addressing fall and trenching 
hazards.
    Regarding the number of heat related inspections, OSHA conducted 81 
in fiscal year 2015, 233 in fiscal year 2016, 106 in fiscal year 2017, 
and 130 in fiscal year 2018. Since the majority of these inspections 
are unprogrammed (i.e., complaints) the number of inspections will vary 
per year.
    Regarding the number of workplace violence related inspections, 
OSHA conducted a total of 31 in fiscal year 2015, 72 in fiscal year 
2016, 58 in fiscal year 2017 and 49 in fiscal year 2018.
                          labor organizations
    Question. The fiscal year 2020 budget includes cuts to many of the 
Department's programs, but one area that the administration seems keen 
to invest in is the auditing of labor organizations. This is emphasized 
by the fact that while the union membership rate in the private sector 
is 6.4 percent, the budget calls for larger increases in funding to 
police labor organizations than to police private companies alleged of 
wage and hour or workplace safety violations.
    Can we expect to see the Department prioritizing the enforcement of 
labor organizations over that of private employers in the future?
    Answer. The Department of Labor (the Department) is charged with 
protecting workers in all aspects of their employment and will continue 
to vigorously enforce the law. The Department has thus requested 
increases for all of the worker protection agencies. Worker protection 
includes ensuring that private sector and Federal unions operate 
democratically, transparently, and with financial integrity.
    Enforcement of the Labor-Management Reporting and Disclosure Act 
(LMRDA) suffered disproportionate funding reductions over the past 10 
years, despite the increase in union held assets from $2,800,000,000 in 
2008 to $30,000,000,000 in 2018. These cuts greatly reduced the Office 
of Labor-Management Standards's (OLMS) enforcement presence, leaving at 
risk union workers' rights under the LMRDA, particularly with respect 
to financial integrity. In fiscal year 2008, OLMS had 191 investigators 
on board at the end of the year. By the end of fiscal year 2018, this 
number was at 103, a 46 percent reduction. The number of criminal 
investigations completed during this time period decreased by 43 
percent (from 393 in 2008 to 223 in 2018). The number of audits 
completed during this time decreased by 73 percent (from 791 in 2008 to 
215 in 2018).
    The recent, modest increases in OLMS's appropriation were not 
adequate to keep pace with inflationary costs, further eroding the 
deterrent effect of a proactive audit and enforcement program. The 
LMRDA requires that union assets and receipts be used solely for union 
member benefits. However, the decrease in the number of investigators 
has limited OLMS's ability to investigate all cases of suspected fraud 
and it has not had the resources to audit union funds held at the 
international union level since 2010.
    Question. How did the Department come to the conclusion that it was 
more worthwhile to restart the International Compliance Audit Program 
(I-CAP) rather than invest in workplace safety or wage and hour 
enforcement?
    Answer. The Department's budget proposes additional investments in 
all worker protection agencies including for Federal enforcement by the 
Occupational Safety and Health Administration and for the Wage and Hour 
Division (WHD). In fiscal year 2018, WHD recovered a record 
$304,000,000 in back wages owed to more than 1,300,000 workers.
    The Department specifically proposes to restart the International 
Compliance Audit Program (I-CAP) because the financial environment of 
international unions is far more complex than that of local and 
intermediate unions and because international unions have a 
significantly higher level of assets, receipts, disbursements, etc. 
These important audits safeguard union members' assets held at the 
international level of union governance by detecting embezzlements and 
other criminal and civil violations of the law. From fiscal year 2004 
through fiscal year 2010, OLMS completed 35 audits under I-CAP, 
completing approximately seven each year with a contingent of 
approximately 12 staff on board. These audits uncovered 304 reporting 
violations, 109 recordkeeping violations, 126 internal control 
weaknesses, and 22 bonding violations. They also uncovered criminal 
violations that resulted in indictments and convictions.
    The inability of OLMS to audit international unions places their 
assets at risk. It provides union officers and others with the 
opportunity to commit fraud and embezzlement undetected, thus 
increasing financial risk to these international unions.
    The funding increase requested for OLMS would not be directed 
solely to conducting I-CAP audits. The request also restores resources 
to OLMS' core enforcement, which budget reductions and inflation have 
eroded, and includes $2,500,000 for the Department's worker protection 
information technology modernization efforts.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
              industry-recognized apprenticeship programs
    Question. On July 27th, 2018, the Department of Labor issued TEN 3-
18: Creating Industry-Recognized Apprenticeship Programs to Expand 
Opportunity in America, which outlines the process that will allow 
trade associations and other non-governmental entities to self-certify 
apprenticeship programs.
    In February 2019 a number of my colleagues and I sent a letter to 
you asking you to explain and show written documentation for The 
Department's rationale for creation of the IRAP program. And, recently 
I have had a number of conversations with Wisconsin apprenticeship 
stakeholders, including business owners, who don't understand the 
Department's move away from the registered apprenticeship system they 
have used for years--a system they understand how to navigate and 
comply with, and has an 80 year track record of success.
    Can you provide this committee any specific evidence that the 
proposed Industry Recognized Apprenticeship program model is needed?
    Answer. The apprenticeship model, meaning earning while learning, 
has worked well in many American industries and the Department is 
working to open opportunities for apprenticeships to expand in new 
sectors of our economy. With 7.4 million open jobs and job creators 
searching for skilled job seekers, apprenticeship expansion will 
continue to close the skills gap and strengthen the greatest workforce 
in the world--the American workforce.
    To this point, the Department and State Apprenticeship Agencies 
(SAAs) have primarily implemented the National Apprenticeship Act by 
registering individual apprenticeship programs and apprentices. 
However, while the registered apprenticeship model has been highly 
successful in preparing workers for jobs in the traditional trades, 
such as construction, this approach has not easily scaled in high-
growth sectors such as advanced manufacturing, IT/cybersecurity, and 
healthcare. In addition, participation in Registered Apprenticeship 
Programs relative to the U.S. workforce overall lags behind 
corresponding participation in other leading economies.
    Currently, registered apprenticeships provide occupational training 
to only approximately 0.3 percent of the American workforce. In 
contrast, other developed countries, such as Germany and Switzerland, 
have more successfully integrated apprenticeships into their education 
systems and workforces, leveraging the full potential of apprenticeship 
programs to lower unemployment rates and contribute to economic 
success.\9\ If apprenticeships are to accelerate and flourish in 
emerging and high-growth sectors, the United States will need to create 
a new pathway to apprenticeship development that better fits the needs 
of industry.
---------------------------------------------------------------------------
    \9\ Task Force on Apprenticeship Expansion, ``Final Report to: The 
President of the United States,'' May 10, 2018, https://www.dol.gov/
apprenticeship/docs/task-force-apprenticeship-expansion-report.pdf.
---------------------------------------------------------------------------
    On June 15, 2017, President Trump signed Executive Order 13801 
charging the Secretary of Labor to consider establishing guidelines or 
requirements that qualified entities should or must follow to ensure 
that apprenticeship programs they recognize meet quality standards. The 
Executive Order created a Task Force on Apprenticeship Expansion that 
included representatives of companies, labor, educational institutions, 
trade associations, and public officials and invited them to offer 
their recommendations on how to best expand the apprenticeship model in 
America. The Task Force recommendations were transmitted to the 
President on May 10, 2018, and the Department continues to take steps 
to effectuate the Executive Order.
    On June 24, 2019, the Department issued a Notice of Proposed 
Rulemaking (NPRM) titled Apprenticeship Programs, Labor Standards for 
Registration, Amendment of Regulations. This proposed rule reflects key 
recommendations contained in the final report of the Task Force, which 
noted that the establishment of industry-recognized apprenticeships 
could provide high-quality apprenticeship programs and opportunities in 
a market-driven system.
    Under the proposed rule, entities such as trade, industry, and 
employer groups or associations, educational institutions, State and 
local government entities, non-profit organizations, unions, or a 
consortium or partnership of these entities could become a Standards 
Recognition Entity (SRE) that sets standards for training, structure, 
and curricula for industry recognized apprenticeship programs (IRAPs) 
in relevant industries or occupational areas. The SREs would be 
recognized through the U.S. Department of Labor to ensure that its 
requirements are met, resulting in strong oversight of IRAPs. This is a 
similar relationship to the one that exists between the U.S. Department 
of Education and higher education accrediting bodies. The Department 
would ensure that SREs have the capacity and quality-assurance 
processes and procedures needed to monitor IRAPs and recognize that 
IRAPs are high quality. The Department's criteria for high-quality 
IRAPs include paid work, work-based learning, mentorship, education and 
instruction, industry-recognized credentials, safety and supervision, 
and adhering to equal employment opportunity obligations.
    Question. How are proposed IRAPs consistent with the National 
Apprenticeship Act provision that states: ``The Secretary of Labor is 
authorized and directed to formulate . . . labor standards necessary to 
safeguard the welfare of apprentices?''
    Answer. As with all American workers, apprentices in IRAPs would 
enjoy the full range of workplace protections with respect to wages, 
occupational safety, and equal employment opportunity that are required 
by law. The welfare of apprentices is of the utmost importance to the 
Department and the NPRM contains several provisions to that effect, 
including protections requiring a safe working environment consistent 
with Federal, State, and local laws; payment of at least the applicable 
Federal, State, or local minimum wage; and equal employment opportunity 
protections, that will keep the workplace free from harassment, 
intimidation, and retaliation.
    Specifically, in Section 29.22, ``Responsibilities and Requirements 
of Standards Recognition Entities,'' the Department addresses safety 
(Sec. 29.22(a)(4)(v)), wages (Sec. 29.22(a)(4)(vii)), and equal 
employment opportunity (Sec. 29.22(a)(4)(viii). Under the proposed 
rule, the Department would also require that SREs have policies and 
procedures related to harassment, intimidation, and retaliation to 
facilitate IRAPs' adherence to applicable law (Sec. 29.22(k)).The 
proposal allows SREs to recognize and maintain recognition of only 
those apprenticeship programs that conform to such requirements 
(Sec. 29.22(a)(4)).
    The proposed rule would also require a SRE to validate IRAPs' 
compliance with such requirements when it provides the Department with 
notice it has recognized an IRAP (Sec. 29.22(b)). Additionally, Section 
29.26, ``Complaints against Standards Recognition Entities'' authorizes 
apprentices to submit a complaint to the Administrator of the Office of 
Apprenticeship should they believe a SRE has failed to comply with the 
requirements of the proposed rule.
    This approach is fully consistent with the language of the National 
Apprenticeship Act of 1937, which charges the Secretary of Labor with 
``formulat[ing] and promot[ing] the furtherance of labor standards 
necessary to safeguard the welfare of apprentices.''
    As this is an open rulemaking, if you have any additional questions 
or items for consideration, the Department encourages you to submit 
these as comments in the rulemaking record so that they may be 
addressed in any final rule.
    Question. What protections are provided for apprentices in the IRAP 
System?
    Answer. Please see the response to the prior question.
    Question. Does the Department have any vision or plans on how to 
best support and expand the highly effective RA system?
    Answer. Starting with the President's Executive Order on Expanding 
Apprenticeships in America, the Administration has made clear that 
streamlining and expanding the Registered Apprenticeship Program is a 
priority. Moreover, the Secretary of Labor released a memorandum to 
Federal agencies in June 2017, asking ``that each Agency head support 
the Administration's apprenticeship initiative by removing obstacles to 
apprenticeship growth that may be present in current regulations or 
practices.'' Subsequently, the Taskforce on Apprenticeship Expansion's 
report to the President provided a clear indication that Registered 
Apprenticeship needs reform ``to modernize the system and encourage 
greater employer and industry sector involvement.''
    The Department has begun to take actions to streamline RAPs by 
revising its National Program Standards (NPS) approval criteria to 
enable more high-quality apprenticeship programs with national scope to 
qualify. Despite an increase in the number of apprenticeship programs 
with NPS recognition, these programs have often encountered additional, 
unnecessary layers of regulation. The Department clarified that 
sponsors that meet certain criteria to register NPS with the Department 
need not also register their programs on a State-by-State basis.
    In response to the concerns expressed by many sponsors of RAPs that 
the paperwork for registration has been unduly burdensome to complete, 
the Department is actively taking steps to reduce and streamline the 
paperwork required of program sponsors for registration.
    In addition to these efforts, the Department has continued to 
invest in RAPs through State grants, cooperative agreements, and 
contracts that expand Registered Apprenticeship opportunities. As a 
result, since January 2017, there are more than 526,000 new 
apprentices. These results represent a 20-year high mark for the 
Registered Apprenticeship System, increasing the number of active 
apprentices by 56 percent since 2013.
                 state apprenticeship council alliance
    Question. I have heard from apprenticeship stakeholders in my State 
that the Federal Advisory Committee on Apprenticeship has essentially 
disbanded. In its absence, and the move by this Administration away 
from the Registered Apprenticeship Program, 18 different State 
Apprenticeship Councils have created The State Apprenticeship Council 
Alliance (SACA). These State Apprenticeship Councils include members 
from North Carolina, Kansas, Kentucky, Maine, Minnesota, Nevada, 
Louisiana, Wisconsin and others.
    (SACA States: Arizona, Connecticut, District of Columbia, Kansas, 
Kentucky, Louisiana, Maine, Maryland, Massachusetts, Minnesota, 
Montana, Nevada, New Mexico, North Carolina, Ohio, Rhode Island, 
Vermont, & Wisconsin)
    The purpose of SACA is to advocate for the national Registered 
Apprenticeship system, promote policies that support Registered 
Apprenticeship system and programs, and elevate the key leadership role 
of State Apprenticeship Councils.
    Mr. Acosta, what is the current status of the Federal Advisory 
Committee on Apprenticeship and does the Department have plans to 
reconvene this committee?
    Answer. The Executive Order on Expanding Apprenticeships in America 
directed the Secretary of Labor to establish a Task Force on 
Apprenticeship Expansion (Task Force), bringing together industry and 
workforce leaders to consider how to promote apprenticeships in sectors 
where they are insufficient. On May 10, 2018, the Task Force 
transmitted its final report to President Trump, which included 26 
recommendations for expanding high-quality apprenticeships that lead to 
family-sustaining careers. Among other recommendations, the report 
included recommendations on modernizing RAPs and indicated that 
Industry-Recognized Apprenticeship Programs (IRAPs) could provide a new 
and flexible alternative to supplement--but not supplant--the 
Registered Apprenticeship Program. In response to the recommendations 
of the Task Force, the Department has issued a Notice of Proposed 
Rulemaking on IRAPs that will make such apprenticeships more flexible 
and responsive to market needs.
    The Advisory Committee on Apprenticeship (ACA) is a discretionary 
committee under FACA and its charter expired on December 16, 2018. The 
Department continues to implement the recommendations from the Task 
Force and is committed to expanding the apprenticeship model, including 
into non-traditional industries in order to rapidly scale the number of 
apprenticeships in America.
    Question. Will the Department commit to working with the State 
Apprenticeship Council Alliance to expand and promote apprenticeship 
training programs within their member States?
    Answer. Absolutely. The Department would be happy to meet with the 
State Apprenticeship Council Alliance to explore how to work together 
to expand and promote apprenticeships in America and how to eliminate 
the bureaucratic hurdles at the State and local levels.
                     election of board of directors
    Question. Secretary Acosta, in your message accompanying the 
Department's strategic plan, you note that ``our Nation's greatest 
resource is the American workforce.'' That is why I have introduced 
legislation to require that American workers elect one-third of their 
board of directors. Research has shown that worker representation 
increases investment, lowers income inequality, and improves 
profitability.
    Do you believe workers should have the opportunity to elect their 
own representatives to corporate boards?
    Answer. The Department appreciates your interest in the important 
issue of corporate governance. The Administration has not taken a 
position on S. 915.
                           workplace violence
    Question. Workplace violence is a serious and growing problem that 
has reached epidemic proportions. Violence is now the third leading 
cause of workplace deaths. Healthcare and social service workers--
nurses, nursing assistants and emergency response workers--suffer more 
than 70 percent of all work-related assaults. And, women face the 
greatest risks--two of every three workplace violence events are 
suffered by women.
    In 2016, OSHA accepted a petition from unions for OSHA to develop a 
standard to protect healthcare and social service workers from 
workplace violence. But under the Trump administration, there's been 
virtually no action or progress on the workplace violence rule. The 
latest DOL regulatory agenda from last Fall stated that OSHA would 
start a small business review of a draft proposed workplace violence 
rule this March, after first saying the review would begin in January.
    Does DOL consider Workplace Violence to be a serious safety and 
health problem and are you committed to develop and issue a workplace 
violence standard to protect healthcare and social service workers?
    Answer. The Department clearly recognizes the importance of 
preventing workplace violence in all workplaces--including the 
healthcare and social assistance sectors--and it has a long history of 
commitment to protecting healthcare employees from work-related 
physical harm and threats of physical harm. The Department is committed 
to continuing to gather data to inform a potential standard to protect 
healthcare and social assistance workers.
    Question. If so, what is DOLs schedule for issuing the workplace 
violence rule?
    Answer. The Occupational Safety and Health Administration (OSHA) is 
in the process of analyzing the information it has gathered from 
petitioners for a standard, participants of the stakeholder meeting, 
comments received in response to its Request for Information, and 
experts. OSHA will use this information to develop regulatory 
alternatives and cost and benefit analyses required to initiate the 
small business review process required by the Small Business Regulatory 
Enforcement Fairness Act (SBREFA). OSHA anticipates initiating the 
SBREFA process in Fall 2019.
    Question. When will DOL complete a small business review of the 
draft proposed rule?
    Answer. OSHA anticipates initiating the SBREFA process in the fall 
of this year. OSHA expects to complete the small business review about 
4 months after initiation.
    Question. Can you give us a date when DOL plans to issue a final 
workplace violence standard?
    Answer. The schedule for issuing proposed and final rules depends 
upon the input received and recommendations that arise from the SBREFA 
process, as well as the nature of comments received in response to 
issuing the proposed rule.
                     employee stock ownership plans
    Question. Employee Stock Ownership Plans provide an opportunity for 
workers to own a part of the very business they work for, and these 
empowering arrangements drive economic growth, create jobs, and provide 
meaningful retirement savings for the employee-owners. Congress has, on 
a bipartisan basis, gone to great lengths to encourage ESOPs, but the 
Department of Labor's overly aggressive enforcement tactics are putting 
employee ownership at risk. The Department has never issued guidance on 
key issues such as valuation and, instead, has elected to regulate 
through litigation. That is causing very real problems for employee-
owned companies.
    Do I have your commitment that you will take immediate steps to 
begin working with the ESOP community to provide guidance to the ESOP 
community and stop trying to regulate through litigation?
    Answer. Employee Stock Ownership Plans (ESOPs) provide retirement 
benefits and give workers a direct stake in their companies. The 
Department fully supports this model. However, when ESOP fiduciaries 
allow an ESOP to overpay for employer stock, or sell employer stock at 
a discount, they endanger retirement benefits and undermine the 
Employee Retirement Income Security Act (ERISA). When this happens, the 
Department has an obligation to enforce the law.
    The Department pursues corrective action through voluntary 
compliance and refers cases for litigation only when there are material 
and substantive violations that remain uncorrected. The Department 
processed 2,974 civil ESOP investigations from fiscal year 2003 to 
fiscal year 2018. During that same period, the Department filed 
litigation in just 69 ESOP cases. This translates to an average of four 
(4) lawsuits per year. Further, the number of investigations opened has 
dropped from an average of 188 cases per year between 2003 and 2017, to 
18 last year.
    The Department bases enforcement actions and lawsuits on well-
established principles that are set forth in numerous published 
decisions. ERISA says that trustees must discharge their duties with 
prudence and undivided loyalty to the ESOP's participants. When relying 
on an appraiser to set the stock's fair market value, the trustees must 
(1) investigate the appraiser's qualifications; (2) provide the 
appraiser complete, current, and accurate information; and (3) make 
certain that reliance on the appraiser's opinion is reasonably 
justified under the circumstances. Reliance on the appraiser is 
justified when the fiduciary (i) reads the report and supporting 
documents; (ii) understands the report; (iii) identifies, questions, 
and tests the underlying assumptions; (iv) verifies that the 
conclusions are consistent with the data and analyses; (v) verifies 
that the appraisal is internally consistent and makes sense; and (vi) 
if necessary, obtains additional expert assistance to evaluate the 
transaction and appraisal.
    Since 2015, the Department's ESOP litigation has returned more than 
$69 million to ESOP plans, and, ultimately, participating employees and 
their families.
    In addition to the principles established through case law, the 
Department has provided guidance to the ESOP community through well-
publicized process agreements. The Department has continually 
emphasized the importance of the fiduciary's process and the need for a 
prudent, critical, and thorough review of every ESOP transaction. As a 
result, the Department has entered into several additional process 
agreements in which the Department has reiterated its position. The 
Department makes these process agreements publicly available through 
its website, and they are also widely disseminated in the ESOP 
community.
    The Department remains committed to assuring meaningful retirement 
savings for the participants of ESOPs, and will continue to work with 
the ESOP community to develop additional guidance where it is feasible 
and appropriate to do so.
                 line speed waivers for poultry plants
    Question. According to OSHA, poultry workers are nearly twice as 
likely to suffer from serious injuries as other workers in private 
industry, and more than six times as likely to have a work-related 
illness. In 2014, the USDA Food Safety and Inspection Service published 
a new rule on poultry inspection. In that final rule, the USDA did not 
increase line speeds in poultry plants because of the potential to 
further endanger workers in an already dangerous industry. Within the 
rule DOL said that the agency needs to consider the impact on worker 
safety before increasing line speeds. I understand that 6 or 7 poultry 
plants have been granted waivers by the FSIS from this rule and allowed 
to increase line speeds with little to no public comment or 
consideration.
    Did USDA request OSHA's input or ask your Department to conduct any 
evaluation, or gather any data from these 6-7 plants on worker safety 
prior to the waivers being issued?
    Answer. The U.S. Department of Agriculture (USDA) did not request 
the Occupational Safety and Health Administration (OSHA) conduct any 
evaluations or collect data from poultry plants.
    Question. Did USDA ask you to provide the OSHA records, or injury 
reports for the plants that were granted waivers?
    Answer. USDA did not ask OSHA to provide records or injury reports 
for poultry processing.
                 swine slaughter safety inspection rule
    Question. Last spring, the USDA proposed a new swine slaughter 
inspection rule that would remove any caps on line speed in hog 
slaughter plants. There have been many concerns raised about this 
rule--including what an increase in line speeds means for workers in 
these plants. Meatpacking is one of the most dangerous industries, with 
worker injury rates more than two times the national average and 
illness rates more than 16 times. OSHA's own guidelines for the 
meatpacking industry makes it clear that due to the forceful nature of 
these jobs an increase in the pace of work in these plants will 
increase injuries.
    Over 80,000 comments were received by USDA on this proposed rule, 
almost all opposed to the rule. In the rule, USDA states that the 
agency would need to conduct an evaluation of the impact of increased 
line speeds on worker safety, and the agency said they conducted such 
an evaluation--but did not put in the record for the public to view or 
comment on. Recently the agency said it is not USDA's problem if their 
rule increases worker injuries, because worker safety is under the 
jurisdiction of OSHA.
    Please share with the committee any evaluation DOL did regarding 
worker safety and line speeds related to this proposed new swine 
slaughter inspection rule.
    Answer. The Department did not conduct an independent evaluation of 
the impact of the proposed swine slaughter inspection rule on worker 
safety and health.
    Question. Did DOL review the USDA evaluation of the impact on 
worker safety if line speed were increased in hog slaughter plants? Can 
you share with this committee any evaluation, or comments DOL made to 
USDA on such an evaluation?
    Answer. The Department did provide comments to the Office of 
Management and Budget (OMB) on the U.S. Department of Agriculture's 
(USDA) Modernization of Swine Slaughter Inspection proposed rule, when, 
pursuant to Executive Order 12866, OMB's Office of Information and 
Regulatory Affairs (OIRA) was coordinating Executive Branch review of 
the draft regulation prior to publication in the Federal Register. The 
Department's comments were reflected in USDA's February 2018 Notice of 
Proposed Rulemaking.
    The requested comment documents--which record the agencies' 
deliberative, pre-decisional exchange about the draft proposed rule--
constitute part of the Executive Branch's deliberative process in the 
development of a regulatory action, and are not released outside of the 
Executive Branch.
    Question. Do you think DOL has an obligation to raise serious 
worker safety concerns to USDA when the final rule comes to DOL for 
review?
    Answer. The Department takes its obligation to ensure that 
employers provide safe and healthful workplaces very seriously.
    Question. Do you think it is ok that USDA can increase line speeds 
and thereby increase injuries among the 90,000 hog slaughter workers 
without input from DOL?
    Answer. The Department takes its obligation to ensure that 
employers provide safe and healthful workplaces very seriously.
                        osha inspector vacancies
    Question. Since the beginning of the Trump administration, there 
has been a decrease in the number of OSHA inspectors from 815 to 752 
inspectors as of the beginning of this year. This is the lowest number 
of OSHA inspectors since the early 1970's when OSHA began. During this 
time, the workforce has nearly doubled and new safety and health 
problems have emerged.
    In DOL's budget request for fiscal year 2018 and 2019, DOL 
requested additional resources for OSHA enforcement. But at the same 
time, many of the already authorized and funded inspector positions at 
OSHA remain vacant.
    Why after more than 2 years in office are there so many vacant 
inspector positions, why have so few of these positions been filled?
    Answer. The Occupational Safety and Health Administration (OSHA) 
has taken several steps to increase its Federal Enforcement staffing 
levels. Beginning in 2017, the agency received approval to fill all 
funded Compliance Safety and Health Officers (CSHO) positions. All 
vacancies are being recruited for, and OSHA is in the process of on-
boarding the inspectors. The agency begins the recruitment process as 
soon as a vacancy occurs, or an upcoming retirement is announced. OSHA 
advertises and recruits individuals to fill all current vacancies, and 
the new inspectors then begin the on-boarding process. The recruitment 
and on-boarding process can take from three to 6 months, which includes 
the time necessary for advertisement, application, screening and 
interviews, and completing the required clearance of applicants under 
consideration, such as security and CSHO physicals. OSHA has also begun 
recruiting for a larger number of positions than available vacancies to 
ensure there is a continuous pool of CSHO applicants for selection when 
future vacancies occur.
    Question. Will you commit to fill these vacant inspector positions 
by June 30th this year?
    Answer. Please see the response to the prior question.
          improve tracking of workplace injuries and illnesses
    Question. In 2016 OSHA issued a regulation to Improve Tracking of 
Workplace Injuries and Illnesses. The purpose of the rule was to 
provide OSHA, employers, workers, public health officials and 
researchers with real-time injury and illness information from 
individual workplaces that could be used to help identify hazardous 
workplaces, and groups of workers at high risk of injury. The rule 
didn't require employers to keep any new records, but simply to report 
injury data they are already required to submit to OSHA in a new 
updated electronic format. And OSHA planned to share this data in a 
format that protected individual worker's privacy.
    Some industry groups strongly opposed the rule because they don't 
want their workplace injury and illness data to be made public. So 
instead of fully implementing this important rule, DOL first refused to 
make any of the summary injury data collected public. Second, the 
administration moved to revoke the requirements for large employers to 
report their detailed injury data to OSHA, which means that OSHA and 
the safety and health community will not be readily able to get 
information on the types of injuries occurring in hazardous workplaces 
or the groups of workers at high-risk of injury. It's a disservice to 
workers and safety specialists committed to making the workplace safer 
that DOL has weakened this important rule.
    Will DOL commit to fully defend the remaining provisions of the 
2016 injury tracking rule--both the requirements for employers to 
report summary injury data and the provisions that strengthen anti-
retaliation protections for workers who report workplace injuries?
    Answer. The Occupational Safety and Health Administration will 
fully defend the final injury and illness recordkeeping rule, which 
became effective on February 25, 2019.
                                 ______
                                 
            Questions Submitted by Senator Joe Manchin, III
                the american miners act--miners pensions
    Question. Secretary Acosta, as I am sure you know, the UMWA 1974 
Pension fund provides retirement benefits to over 86,000 miners 
including 26,000 in West Virginia. The average pension is $600 per 
month, modest by most standards, but still critical to the 87,000 
beneficiaries who depend on it. In the past 2 years, contributions into 
the Plan have dropped by more than $100 million, leaving less than $25 
million per year still coming into it. If nothing changes, the Plan 
will be insolvent as soon as 2022. It will happen even sooner if any 
more coal companies file for bankruptcy. If this plan collapses, 
beneficiaries and their dependents would revert to the Pension Benefit 
Guaranty Corporation, destroying PBGC leaving taxpayers on the hook to 
foot the bill instead of the companies that made these promises in the 
first place. The time to act is now--the longer we wait to solve this 
problem the more expensive and more difficult it becomes. This is one 
of the reasons why I introduced the American Miners Act earlier this 
year. The American Miners Act would ensure that crucial benefits would 
be protected for our miners and beneficiaries.
    Secretary Acosta, is the Department of Labor actively working on 
solutions to this problem?
    Answer. It is critical to address the security of our pension 
system and the Department is committed to working with Congress and 
stakeholders to ensure the stability of the multiemployer plan system-- 
promoting retirement security is part of the Department's mission and 
is simply good public policy. America's retired coal miners, and other 
workers in multiemployer plans, have worked hard for their pensions 
they reasonably expect upon retirement. The Department's 2020 Budget 
includes a proposal to keep PBGC solvent for the next 20 years by 
reforming the premiums levied on multiemployer plans. The proposal 
would add a premium based on plan underfunding, similar to the premium 
assessed on single-employer plans, in order to charge according to the 
risk plans pose to PBGC rather than their number of participants. The 
Department, the Pension Benefit Guaranty Corporation (PBGC), and the 
Departments of Treasury and Commerce, are committed to working with 
Congress and stakeholders to address the security of multiemployer 
pension plans, including the UMWA 1974 Pension Plan.
    Question. Would you commit to working with me to finding a solution 
by the end of the year?
    Answer. The Department, the Pension Benefit Guaranty Corporation 
(PBGC), and the Departments of Treasury and Commerce, are committed to 
working with Congress and stakeholders to address the security of 
multiemployer pension plans, including the UMWA 1974 Pension Plan.
       the american miners act--black lung disability trust fund
    Question. Black lung is a terrible disease and it is only getting 
worse. After many years of dedication to providing our Nation with 
energy, America's coal miners continue to face the devastation of black 
lung disease caused by inhaling coal mine dust. We are seeing more and 
more cases of black lung--particularly in younger miners who have spent 
less time working in the mines. Today, more than 25,000 coal miners and 
their dependents rely on the Black Lung Disability Trust Fund to pay 
for critical medical treatments and basic expenses. Due to decreases in 
the coal excise tax, this already indebted Trust Fund could face 
borrowing costs of more than $15 billion by 2050.
    Secretary Acosta, what is your plan to ensure that these benefits 
are protected and that our coal miners continue to get the help that 
they need?
    Answer. Because the Department of the Treasury is required by 
statute to provide repayable advances to the Black Lung Disability 
Trust Fund (Trust Fund) if needed, there is no risk that entitled 
beneficiaries will not receive their Federal black lung benefits. 
However, under present circumstances, the Trust Fund's debt will 
continue to increase without intervention. Any changes to the Trust 
Fund's financing would require legislative action, and the Department 
is ready to work with Congress to develop a solution and ensure the 
long-term viability of the Trust Fund.
           clean start act and offender job reentry programs
    Question. As the opioid epidemic continues to take its toll, there 
are more and more men and women who face severely limited job 
opportunities after serving their time for crimes committed as a result 
of addiction. To help fix this problem, I introduced a bill called the 
Clean Start Act last Congress that seeks to help former addicts with 
criminal records seal those records if they complete a comprehensive 
addiction treatment program and show that they have turned their lives 
around. Last year, West Virginia enacted its own version of the Clean 
Start Act and I look forward to seeing it implemented.
    How do you plan on helping former offenders re-join the workforce 
and once again become responsible taxpayers?
    Answer. The Department is committed to helping individuals involved 
in the criminal justice system, including ex-offenders recovering from 
opioid and other substance use disorders, obtain employment in family-
sustaining jobs. On April 1, 2019, the Department hosted an event-- 
Strengthening America's Workforce--to discuss paths for Americans 
transitioning from the justice system into the workforce and to 
encourage more organizations to apply for the Department's reentry 
grants. The Reentry Employment Opportunity's Reentry Project grants are 
designed to develop or expand programs to improve employment 
opportunities for adults ages 18-24 who have been incarcerated in the 
youth or adult criminal justice system, and adults ages 25 or older, 
released from prison or jail within 2 years of enrollment. 
Additionally, through the Nation's network of American Job Centers, the 
Department informs employers about the skills and abilities of this 
population and advances strategies to address the barriers to 
reemployment. Lastly, through the Federal Bonding Program (FBP), the 
Department provides fidelity bonds to employers to help reduce the 
risks of hiring individuals whose criminal backgrounds, including 
individuals with a history of opioid and other drug misuse, pose 
barriers to securing employment. The Department also recently announced 
a pilot project to support the expansion of fidelity bonds in six 
States, which are participating in a demonstration designed to combat 
the opioid crisis. These States (Alaska, Maryland, New Hampshire, 
Pennsylvania, Rhode Island, and Washington) now have the opportunity to 
pilot expanded use of the FBP to decrease employment barriers for 
recovering opioid users and others in substance abuse recovery.
    Question. What programs and initiatives, in your experience, will 
be most effective in assisting former offenders rejoin the workforce?
    Answer. Providing former offenders with the opportunities to gain 
the skills necessary to compete in the workplace is a major part of 
successful reentry. The Department requires that all Reentry Project 
grantees provide occupational training in in-demand industries that 
leads to industry-recognized credentials, including supporting 
Registered Apprenticeship pathways for returning offenders. This 
approach is beneficial to employers and participants, resulting in an 
increase in employment for program participants. Additionally, the 
Department provides assistance through the FBP. Fidelity bonds issued 
through the FBP serve as a job placement tool. Employers receive the 
bonds free of charge as incentive to hire hard-to-place job applicants. 
The bond insurance was designed to reimburse the employer for any loss 
due to employee theft of money or property. Individuals may be covered 
from $5,000 to $25,000, at a cost of $100 per bond paid by the State 
with Federal funds. Individuals are covered for the first 6 months of 
employment. If necessary, bonds may be issued to cover an additional 6 
months. Another promising approach is the use of Registered 
Apprenticeships behind bars. Many State Departments of Corrections have 
sponsored Registered Apprenticeship programs, including Washington and 
Iowa. The Department has also partnered with the Bureau of Prisons to 
create an apprenticeship program that offers a standardized pathway for 
inmates to gain skills in over 100 trades in 98 Federal institutions. 
Staff prepare inmates for reentry by offering trade-specific skill 
development partnered with work opportunities, which will translate 
into employment opportunities upon release from incarceration.
                           cuts to job corps
    Question. The President's Budget would cut $700 million in funding 
for Job Corps. This program is the Nation's largest career technical 
training and educational program for youth and approximately 95 percent 
of Job Corps students successfully attain industry-recognized 
certifications. Job Corps has a zero-tolerance policy against violence 
and drugs. Secretary Acosta, I am deeply concerned about the 
availability of job training and employment opportunities, especially 
for young adults who are not always being well prepared in our 
education system. I have heard from employers across my State that they 
have jobs, but they don't have the workers with the skills needed to do 
those jobs.
    Secretary Acosta, this reduction will obviously have a major impact 
on the number of individuals who are able to receive desperately needed 
job training.
    What will happen to those individuals and the employers who need 
workers? What will happen to the young West Virginians who are ready, 
willing and able to be learn a new skill or trade but have few or no 
options because of these proposed budget cuts?
    Answer. The Department of Labor is committed to helping young 
individuals from disadvantaged backgrounds receive high-quality 
vocational and academic instruction opportunities. The Department has 
concerns about the program, irrespective of the funding level, and is 
proceeding based on those concerns with reforms to the program that we 
believe will improve outcomes for youth and make the program more 
effective and efficient. For example, the Department is using its pilot 
project authority to work with governors who are interested in 
establishing pilot projects throughout the United States. As our 
demonstration projects mature, we will assess them to determine whether 
they offer more effective models for serving at-risk youth as compared 
to the Department's traditional Job Corps program model. The Department 
will also determine whether these alternate approaches are more cost 
effective than the traditional program model. The Department will 
consider scaling efficiencies identified by demonstration projects in 
order to improve the delivery of Job Corps services.
    Overall, the Department is conducting a center by center 
programmatic assessment of performance, surveying physical facilities, 
assessing programmatic sustainability, and considering the workforce 
development needs in each State and area served by a Job Corps center. 
Using this deliberate approach, the Department will determine how to 
allocate the program's fiscal year 2020 resources, including whether to 
close some centers. It is the Department's expectation that through 
concentration of Job Corps activities in a more limited set of higher 
performing centers, we will provide Job Corps participants with higher 
quality services that lead to better outcomes. The Department always 
prioritizes the needs of current Job Corps participants when 
deactivating or consolidating a center, allowing them to complete their 
Job Corps training either at their current center or at a higher 
performing center. Further, the Department will maintain as many 
student slots as possible by increasing Job Corps capacity at remaining 
centers. This approach maximizes the impact of Job Corps' 
appropriation, allowing us to continue to serve at risk youth from all 
fifty states and territories without compromising program 
effectiveness.
         mine safety and health administration silica standard
    Question. Worker exposure to silica is a major health and safety 
problem that causes disabling lung disease. In 2016, after decades of 
effort the unions won a stronger Occupational Safety and Health 
Administration (OSHA) silica standard that cut permissible exposures in 
half. After OSHA issued its standard, the Mine Safety and Health 
Administration (MSHA) was moving to lower the silica standard for 
mining. However, the Trump administration has sidelined a new MSHA 
silica standard and is refusing to act. Meanwhile, there has been an 
epidemic of progressive massive fibrosis seen in coal miners in 
Appalachia, including miners in West Virginia. The most likely cause of 
this epidemic is exposure to silica from high quartz levels in the rock 
in the coal mines in this area. Still MSHA has refused to move forward. 
MSHA needs to move forward immediately to tighten the silica standard 
for miners like those that OSHA has for other workers.
    Secretary Acosta, will you direct MSHA to move forward and issue a 
stronger silica standard for miners?
    Answer. MSHA continues to aggressively sample the mine environment 
and enforce existing standards to ensure that operators have effective 
controls in place that continuously protect miners' health from 
exposure to respirable dust and silica (quartz). Quartz samples 
increased 335 percent between 2013 and 2018, and MSHA is encouraged by 
mine operators' compliance with the respirable coal dust rule, and 
control of coal miners' exposure to quartz. Since August 2016, for 
example, MSHA samples indicate average quartz exposure of about 25 
percent of the limit. Whereas over 16 percent of quartz samples 
exceeded the standard in 2008, by 2018 only 1.2 percent of quartz 
samples exceeded the standard.
    When quartz samples exceed the standard, MSHA leadership personally 
reviews and discusses each exceedance with senior staff. Field staff 
issue citations where appropriate and require corrective actions (such 
as revising ventilation and dust control plans and improving 
engineering controls). Enforcement staff follows up to ensure that the 
mine applies needed controls to avoid future exceedances.
    MSHA is currently reviewing the health effects and risk from 
miners' exposures to quartz and considering appropriate next steps that 
include an examination of permissible exposure limits. To that end, in 
the Spring 2019 Unified Agenda, MSHA announced its intent to issue a 
request for information to identify ways to protect miners from 
exposure to quartz, including an examination of an appropriately 
reduced permissible exposure limit, potential protective technologies, 
and/or technical and educational assistance.
                     overtime coverage for workers
    Question. Earlier this year, your Department of Labor proposed a 
rule that revises the overtime rule from the previously promulgated 
rule issued by the Obama Administration. Differing from the Obama era 
regulation providing automatic overtime coverage for workers making 
less than $47,476 your proposed rule would provide coverage for workers 
making less than $35,308. Studies show that a guarantee for overtime 
coverage only to those who make less than your number ($35,308) means 
that in year one, 2.8 million fewer workers will receive protection 
under the overtime laws, and that number grows to 4.3 million by year 
ten.
    Can you explain your department's analysis on why you think this 
decrease was reasonable?
    Answer. As part of the rulemaking process, the Administrative 
Procedure Act generally requires that agencies publish a notice of 
proposed rulemaking (NPRM) in the Federal Register. The agency then 
provides a public comment period and, after considering the comments 
received, develops a final rule. The comment period for the Overtime 
NPRM ended on May 21, 2019, and the Department received 59,348 comment 
submissions representing 116,298 comments, some of which may be 
duplicates. The Department is currently reviewing the comments received 
as part of developing the final rule.
    Shortly before the 2016 final rule's effective date, it was 
enjoined by the U.S. District Court for the Eastern District of Texas. 
In a subsequent opinion invalidating the rule, the court held that the 
rule's $913 per week standard salary level went beyond the salary 
level's traditional purpose of setting a ``floor'' to screen out 
obviously nonexempt employees, and would exclude from exemption too 
many workers who perform executive, administrative, or professional 
capacity duties. An appeal of that decision to the Fifth Circuit is 
being held in abeyance pending the completion of this rulemaking. In 
the NPRM, the Department has reconsidered the $913 per week standard 
salary level set in the 2016 final rule in light of ongoing litigation, 
public comments received in response to a July 26, 2017, Request for 
Information (RFI), and feedback received at public listening sessions 
the Department held around the country to receive additional public 
input on issues related to the salary level test. The Department agrees 
with the vast majority of RFI commenters that the standard salary level 
needs to exceed the currently-enforced amount of $455 per week to more 
effectively serve its purpose.
    In the NPRM, the Department proposed to formally rescind the 2016 
final rule and to simply update the 2004 standard salary level by 
applying the 2004 final rule's methodology to current data. The 2004 
final rule set the standard salary level at approximately the 20th 
percentile of earnings of full-time salaried workers in the lowest-wage 
census region (then and now the South) and in the retail sector. The 
Department's proposed rule would do the same, restoring the 
effectiveness of the salary level test without unduly disrupting 
employers' operations or causing other adverse economic effects.
    Question. Would you reinstate the Obama era overtime regulations?
    Answer. Please see the response to the prior question.
                    disabled workers discrimination
    Question. The Rehabilitation Act (Public Law 93-112) prohibits 
employment discrimination against individuals with disabilities in the 
Federal sector. Schedule A is a specific hiring authority with the goal 
of increasing opportunities at Federal Government agencies for workers 
with intellectual, physical, and psychiatric disabilities. Schedule A 
hiring authority includes a 2 year probationary period during which 
Schedule A workers are held to the same performance standards as all 
other employees. Schedule A also includes people with ``targeted 
disabilities'' as a subset of the larger disability category. The 
Federal Government has recognized that qualified individuals with 
certain disabilities, particularly manifest disabilities, face 
significant barriers to employment, above and beyond the barriers faced 
by people with the broader range of disabilities. The American 
Federation of Government Employees, a union representing employees at 
DOL headquarters and around the country, has noted a number of Schedule 
A employees at your agency are removed immediately prior to the end of 
their 2 year probationary period. During the 35 day government shutdown 
the Department removed a blind lawyer, who worked as a legal assistant 
for DOL, during her probationary period despite failing to ``make 
electronic and information technology accessible'' to disabled workers 
under Section 508 of the Rehabilitation Act. DOL failed to report to 
the EEOC the rate of involuntary removals for 2016 or 2017, as required 
in their Management Directive 715 reports that provide transparency on 
the recruiting, hiring, and retention of disabled workers.
    Can you please provide to the Committee the last 3 years of 
Management Directive 715 Reports and specifically identify in each of 
those reports any deficiencies, barriers, or triggers for disabled and 
targeted disabled and how the agency addressed those issues?
    Answer. Attached are the 2015, 2016, and 2017 Management Directive 
715 Reports. Within the 2015 report, pages 32-33 (Part I) provide the 
requested information (see Attachment 1); within the 2016 report, pages 
30-33 (Part I) provide the requested information (see Attachment 2); 
and within the 2017 report, pages 29-31 (Part I) provide the requested 
information (see Attachment 3). The Department of Labor's (the 
Department) Human Resources Center, with support from the Department, 
has addressed identified barriers and/or triggers with the following 
example initiatives:
  --Outreach to organizations with a high concentration of individuals 
        with disabilities such as Gallaudet University and Disabled 
        Veterans groups;
  --Partnerships with the Maryland Division of Rehabilitation Services 
        (DORS) and the Virginia Department for Aging and Rehabilitative 
        Services (DARS);
  --Working actively with the Department's Disability Action Group 
        (Affinity Group) to support recruitment, retention, and 
        professional development strategies for employees with 
        disabilities;
  --Training on Schedule A hiring authorities;
  --Training on and adherence to Section 508 accessible communication 
        requirements; and
  --Internal recognition of National Disability Employment Awareness 
        Month (NDEAM).
    The Committee has received the 2015, 2016, and 2017 Management 
Directive 715 Reports as requested.
    The 2018 Management Directive 715 Report will be submitted to the 
Equal Employment Opportunity Commission (EEOC) by May 31, 2019.
    Question. Can you also please identify why DOL did not send the 
EEOC data on involuntary removals broken by disability/targeted 
disability/non-disability status for years 2016 and 2017?
    Answer. The Department has provided this data. It was included 
within the Workforce Data Tables for each fiscal year. The MD-715 
reports and workforce data tables were submitted, as required, to the 
EEOC via their Federal Sector EEO Portal (FEDSEP) (see Attachment 4); 
specifically:
  --Within the fiscal year 2016 Workforce Data Tables, the data is 
        provided in Data Table B14 (See Page 75 of Attachment 5);
  --Within the fiscal year 2017 Workforce Data Tables, the data is 
        provided in Data Table B14 (Page 63 of Attachment 6).
    Please note that there was a clerical error on the 2017 Data Table 
B14, where the voluntary and involuntary separation numbers were 
transposed. DOL sent a letter to the EEOC clarifying the data reflected 
in that table (see Attachment 7).
                        water industry workforce
    Question. One of the main concerns for West Virginia rural water 
utilities is filling jobs left behind by the aging water industry 
workforce. Your Department's Bureau of Labor Statistics projects that 
employment of Drinking Water and Wastewater Treatment Plant and System 
Operators is expected to decline by 3% \10\ between 2016 and 2026. The 
projected percent change in employment for all occupations is 7 percent 
growth. Water and wastewater utilities are the backbone of economic 
development, responsible for the public's health protection and 
stewards of safe drinking water delivery. Water and wastewater 
utilities need a pipeline of skilled workers to help ensure clean and 
safe water for the public and to maintain the water infrastructure 
necessary to keep service areas economically viable (especially in 
rural America where 92 percent of systems serve communities of 10,000 
or less). An apprenticeship program for community water supplies create 
jobs could address the Nation's crumbling water infrastructure.
---------------------------------------------------------------------------
    \10\ https://www.bls.gov/ooh/production/water-and-wastewater-
treatment-plant-and-system-operators.htm.
---------------------------------------------------------------------------
    Would your Department prioritize apprenticeship program funding for 
rural water utilities? More generally, what is the best way to train 
the water industry's workforce for the next generation?
    Answer. The Department is committed to expanding apprenticeship 
opportunities across a broad range of sectors and occupations, 
particularly in those industries where a shortage of skilled workers 
threatens the long-term safety and economic growth of rural 
communities. Over the next decade, the water sector is expected to lose 
between 30 to 50 percent \11\ of its workforce to retirement. The 
establishment and growth of quality apprenticeship programs in the 
water and wastewater utilities industries can provide an effective 
workforce strategy for addressing the emerging skills gap in these 
critical fields.
---------------------------------------------------------------------------
    \11\ GAO Report 18-102, ``Water and Wastewater Workforce: 
Recruiting Approaches Helped Industry Hire Operators, but Additional 
EPA Guidance Could Help Identify Future Needs,'' 
January 2018, p. 17.
---------------------------------------------------------------------------
    Through its National Guidelines Standards of apprenticeship, the 
Department has assisted stakeholders and industry associations in 
developing nationally-recognized education and training standards for 
specific water utility occupations. On November 14, 2017, at a signing 
ceremony at the Department's headquarters in Washington, D.C., the 
National Rural Water Association (NRWA) formally announced an 
apprenticeship program for rural water utilities (the ``WaterPro 
Apprenticeship Program'') with the Department's Office of 
Apprenticeship (OA). Bulletin 2017-47 publicized the WaterPro 
apprenticeship program, which establishes a set of National Guideline 
Standards of apprenticeship that are tailored to the specific 
occupational requirements of water system operations specialists and 
wastewater system operations specialists. As a leading provider of 
training for rural water and wastewater systems, NRWA is currently 
collaborating with State and local leaders to accelerate the 
development of Registered Apprenticeship Programs (RAPs) covering these 
critical occupations.
    At present, a total of 17 NRWA State affiliates have successful 
RAPs that conform to these NRWA National Guideline Standards, and 
registration applications from NRWA affiliates in 12 additional States 
are currently in process. Nationally, 140 active apprentices are 
enrolled in the NRWA-sponsored apprenticeship program. Local NRWA-
affiliated program sponsors include Pentair, Inc. (based in Aurora, 
Illinois) and the West Virginia American Water Joint Apprenticeship and 
Training Committee (based in Charleston, West Virginia). The 
groundbreaking NRWA RAPs directly address the concerns raised by GAO 
Report 18-102 (January 2018) about the current and growing nationwide 
shortage of well-trained drinking water and wastewater management 
professionals. For more information concerning the NRWA national 
apprenticeship program, please visit the following links:
  --https://nrwa.org/initiatives/apprenticeship-program
  --https://nrwa.org/2017/11/nrwa-partners-with-department-of-labor-on-
        apprenticeship-program/
    In the fall of 2018, the U.S. Department of Agriculture (USDA) 
awarded a $6 million grant to the NRWA for further development of its 
national apprenticeship program. With this new funding from USDA, NRWA 
will have additional means to help States develop RAPs for water and 
wastewater system operations specialists.
    In addition, in May 2019, the Department released a funding 
opportunity through the Apprenticeship Expansion and Modernization Fund 
to support the development of innovative tools and strategies that, 
while relatively untested, hold promise to transform Registered 
Apprenticeship and support the expansion of RAPs throughout the Nation. 
This opportunity allows applicants to propose innovative projects that 
best meet the specific challenges and needs in their area, their 
industry, or the local population. Vendor proposals are in development 
and may include projects that support workforce development in rural 
areas.

                          SUBCOMMITTEE RECESS

    Senator Blunt. The subcommittee stands in recess.
    [Whereupon, at 11:03 a.m., Thursday, May 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
